                 REPORT OF INVESTIGATION 


UNITED STATES SECURITIES AND EXCHANGE COMMISSION 

           OFFICE OF INSPECTOR GENERAL 



                        Case No. OIG-560 



 Investigation of Conflict of Interest Arising from Former General 

        Counsel's Participation in Madoff-Related Matters 




                        September 16,2011 

                                                     Table of Contents


INTRODUCTION AND BACKGROUND ....................................................................... 1 

EXECUTIVE SUMMARY ................................................................................................ 2 

SCOPE OF THE OIG INVESTIGATION ....................................................................... 13 

   I. 	          Review of E-mails.............................................................................................. 13 

   II. 	         Document Requests and Review of Records ..................................................... 13 

   III.          Testimony and Interviews .................................................................................. 14 

RELEVANT STATUTES, RULES, AND REGULATIONS .......................................... 18 

RESULTS OF THE INVESTIGATION .......................................................................... 23 

   I. 	          Background ........................................................................................................ 23 

          A. 	     The Securities Investor Protection Corporation and Act ................................ 23 

          B. 	     The SEC's Oversight ofSIPC ......................................................................... 25 

          C. 	     The Madoff Liquidation .................................................................................. 26 

   II. 	         From the Outset, the SEC Played a Substantive Role in the 

                 Madoff Liquidation ............................................................................................ 26 

          A. 	     As Early As December 2008, the SEC Began to Discuss Madoff 

                   Liquidation Issues with SIPC ......................................................................... 26 

          B. 	     SIPC and the Trustee Advocated the Money InlMoney Out Method of 

                   Detennining Customer Net Equity ................................................................. 29 

          C. 	     The SEC's Initial Consideration of Issues in the MadoffLiquidation 

                   Included Clawbacks ........................................................................................ 32 

          D. 	     The SEC Reached Consensus As to The Money InlMoney Out Method ....... 34 

   III. 	        Becker Returned to the Commission Late in February 2009 and 

                 Disclosed His Interest in a BMIS Account to Chainnan Schapiro .................... 35 

          A. 	      Becker Joined the Commission as General Counsel and Senior 

                    Policy Director in February 2009 ................................................................... 35 

          B. 	     Around the Time that Becker Returned to the Commission, He 

                   and Chainnan Schapiro Discussed His Mother's BMIS Account .................. 37 

   IV. 	         Becker and OGC Detennined the Staffs Recommendation to 

                 the Commission on the Net Equity Issue ........................................................... 38 

  A. 	          The Commission Received Submissions from Fonner SEC 

                Commissioner Nazareth and Others In Support of the Last 

                Account Statement Method for Detennining Net Equity ............................... 40 

  B. 	          Becker and OGC Attempted to Craft An Approach Based on 

                the Last Account Statement Method ............................................................... 42 

  C. 	          OGC Continued to Consider the Last Account Statement 

                Method and Other Possible Methods During the Summer of2009 ................ 45 

  D. 	          Throughout This Entire Time, the Trustee Continued to Administer the 

                Madoff Liquidation Both by Paying Claims and Bringing Clawback Suits ... 48 

  E. 	          Becker and OGC Fonnulated the New T-Bill Approach ................................ 51 

  F. 	          Becker and OGC Decided on the Constant Dollar Approach ......................... 52 

  G. 	          Becker Recommended the Constant Dollar Approach to the Commission .... 55 

  H. 	          OGC, Under Becker's Direction, Led the Discussion at the Commission 

                Meeting to Consider the Appropriate Net Equity Detennination ................... 57 

  1. 	          SIPC and the Trustee Did Not Support the Constant Dollar Approach .......... 60 

  J. 	          .The Approach Used to Detennine Net Equity Affects Clawbacks ................. 61 

         1. 	     The Last Account Statement Method Likely Would Preclude Clawbacks .. 65 

         2. 	 The Constant Dollar Approach Would Affect Clawbacks .......................... 66 

         3. 	     The Constant Dollar Approach Would Decrease the Amount 

                  Sought from Becker ..................................................................................... 68 

V. 	       Becker Also Worked On SIP A Amendment That Would Have 

           Affected the Trustee's Ability to Bring Clawbacks ........................................... 68 

VI. 	      Becker Was Initially Scheduled to Testify at a Congressional Hearing 

           Regarding MadoffiSIPC Issues .......................................................................... 70 

  A. 	          Subsequently, It Was Detennined that Becker Would Disclose 

                His MadoffInterest If He Were to Testify, and the Decision Was 

                Made for Becker Not to Testify ...................................................................... 72 

  B. 	          It Was Decided that Conley Would Testify at the Congressional Hearing, 

                and Becker's Interest in a Madoff Account Was Not Disclosed .................... 76 

  C. 	          The Hearing, Including the Preparation Process, Involved Consideration of 

                Clawbacks ....................................................................................................... 77 

VII. 	 Becker Was Named as Defendant in A Clawback Action ................................. 79 

VIII. 	 The SEC Responded to March 2011 Congressional Requests for Infonnation. 85 

IX. 	      Becker Worked On Other Madoff-Related Matters ........................................... 90 


                                                                ii
    A. 	          Becker's Participation in Other Aspects of the MadoffLiquidation .............. 90 

    B. 	          Becker's Participation in the Enforcement Actions Against 

                  Madoff-Related Entities .................................................................................. 91 

    C. 	          Becker's Participation in the Disciplinary Review of Employees 

                  in OIG MadoffReport .................................................................................... 92 

  X. 	       Becker Had No Role in MadoffExaminations or Investigations 

             Prior to His Return to the Commission .............................................................. 94 

  XI. 	      The SEC Ethics Office Provided Contemporaneous Advice to Becker 

             Regarding His Interest in His Mother's Estate's Madoff Account .................... 95 

    A. 	          Lenox, as Ethics Counsel, Reported Directly to Becker, the 

                  General Counsel .............................................................................................. 95 

    B. 	          As Ethics Counsel, Lenox Emphasized His Role As A Resource 

                  and Was Reluctant to Keep Written Records of Advice................................. 96 

    C. 	          Becker and Lenox Discussed Becker's Mother's Estate's Account 

                  Around the Time Becker Returned to the Commission .................................. 98 

    D. 	          Becker Sought Ethics Advice from Lenox in May 2009 Regarding 

                  His Work on the Madoff Liquidation ........................................................... 100 

           1. 	     Lenox's Analysis Focused on Incorrect Understandings Regarding the 

                    SEC's Role in the Madoff.......................................................................... 103 

           2. 	     Becker Incorrectly Assumed Clawback Suits Applied only In Cases 

                    Involving Wrongdoing and Accounts Over $2 Million ............................. 105 

           3. 	     Neither Becker Nor Lenox Believed There Was Any Appearance of a 

                    Conflict ...................................................................................................... 109 

    E. 	          The Ethics Office, and Becker, Considered His Recusal from 

                  Other Matters Differently Than in the Madoff Liquidation .......................... 110 

    F. 	          Becker's Approach to SIPA Coverage for Stanford Investors 

                  Appeared to Differ from His Approach in the Madoff Liquidation ............. 111 

    G. 	          The Ethics Office Advised Recusal from Madoff-Related Matters 

                  for Persons Other than Becker ...................................................................... 113 

           1. 	     Other OGC Attorneys Were Recused From the Madoff Liquidation ........ 113 

           2. 	     Lenox's Consideration of Appearance Issues In Other Matters ................ 115 

REQUEST FOR ETHICS GUIDANCE FROM OGE ................................................... 116 

CONCLUSION AND RECOMMENDATIONS ........................................................... 117 





                                                                  iii
                     REPORT OF INVESTIGATION 


 UNITED STATES SECURITIES AND EXCHANGE COMMISSION
            OFFICE OF INSPECTOR GENERAL


                                 Case No. OIG-560 


    Investigation of Conflict of Interest Arising from Former General 

           Counsel's Participation in Madoff-Related Matters 


                      INTRODUCTION AND BACKGROUND

        On March 4,2011, Chainnan Mary L. Schapiro of the Securities and Exchange
Commission ("SEC' or "Commission") requested that the SEC Office of Inspector
General ("OIG") investigate any conflicts of interest arising from the participation of
David M. Becker, the fonner General Counsel and Senior Policy Director of the
Commission, in detennining the SEC's position in the liquidation proceeding brought by
the Securities Investor Protection Corporation ("SIPC") of Bernard L. Madoff Investment
Securities, LLC ("BMIS"). On that same day, the OIG opened this investigation.

        The Chairman's request came after she received inquiries from certain
Congressional committees and subcommittees requesting infonnation and documents
related to, among other things, Becker's participation in the SEC's work in the SIPC
liquidation proceeding ("Madoff Liquidation"). Both Becker and Chainnan Schapiro
provided written responses to these inquiries, and Chainnan Schapiro testified regarding
this issue before a subcommittee of the U.S. House of Representatives Committee on
Oversight and Government Refonn on March 10, 2011.

        These Congressional inquiries came in response to press reports indicating that
Becker had been named as a defendant in a clawback suit brought by the trustee
administering the Madoff Liquidation. The first such article appeared on February 22,
2011, and additional press coverage followed. The clawback suit was one of many
brought by the Trustee who administered the Madoff Liquidation to recover money from
Madoff investors ("Trustee"), and the suit against Becker and his brothers, both
individually and as executors of their mother's estate, sought recovery of the fictitious
profits that accrued to them as beneficiaries of their mother's estate when her BMIS
account was liquidated after her death.

      The Madoff Liquidation began after the SEC charged BMIS and Bernard L.
Madoff with securities fraud, after his confession to a multi-billion dollar Ponzi scheme
on December 11, 2008. On that same day, federal authorities in the Southern District of
New York arrested Madoff and brought criminal charges against him for securities fraud.
On March 12,2009, Madoffpled guilty to all eleven charges brought against him, and on
June 29,2009, he was sentenced to serve a maximum sentence of 150 years in prison.

         After Madoffs confession, the OIG commenced an investigation into the SEC's
failure to detect Madoffs Ponzi scheme, and, on August 31, 2009, the OIG issued Report
No. 0IG-509, a 457-page report entitled "Investigation of Failure of the SEC to Uncover
Bernard Madoffs Ponzi Scheme." That OIG investigation found that the SEC received
six substantive complaints between June 1992 and December 2008 that raised significant
red flags concerning Madoffs investment adviser operations and should have led to
questions about whether Madoffwas actually engaged in trading. The OIG investigation
also found that the SEC was aware of two articles regarding Madoffs investment
operations that appeared in reputable publications in 2001 questioning Madoffs
unusually consistent investment returns. The OIG concluded that, notwithstanding these
six complaints and two articles, the SEC did not conduct a competent and thorough
examination or investigation into Madoffthat, if done properly, would have led the SEC
to identifY Madoffs fraud. The OIG did not find that senior officials at the SEC directly
attempted to influence examinations or investigations of Madoff or BMIS, or that any
senior SEC official interfered with the staff's ability to perform its work.

                               EXECUTIVE SUMMARY

       The OIG conducted an extensive investigation of the facts and circumstances
surrounding the SEC's fonner General Counsel and Senior Policy Director David
Becker's participation in issues in the MadoffLiquidation and other Madoff-related
matters, notwithstanding his interest in the Madoff account of his mother's estate.
During the course of its investigation, the OIG obtained and searched over 5.1 million e­
mails for a total of 45 current and fonner SEC employees for various time periods
pertinent to the investigation, ranging from 1998 to 2011. The OIG also obtained and
analyzed internal SEC documents, documentation provided by the MadoffTrustee, Irving
H. Picard, Esq., court filings, and press reports. In addition, the OIG conducted
testimony or interviews of 40 witnesses with knowledge of facts or circumstances
surrounding the Madoff Liquidation and Becker's work at the SEC.

        Overall, the OIG investigation found that Becker participated personally and
substantially in particular matters in which he had a personal financial interest by virtue
of his inheritance of the proceeds of his mother's estate's Madoffaccount and that the
matters on which he advised could have directly impacted his financial position. We
found that Becker played a significant and leading role in the determination of what
recommendation the staff would make to the Commission regarding the position the SEC
would advocate as to the determination of a customer's net equity in the Madoff
Liquidation. Under the Securities Investor Protection Act of 1970 ("SIP A"), where SIPC
has initiated the liquidation of a brokerage firm, net equity is the amount that a customer
can claim to recover in the liquidation proceeding. The method for determining the
Madoff customer's net equity was, therefore, critical to determining the amount the
Trustee would pay to customers in the MadoffLiquidation. Testimony obtained from

                                             2

SIPC officials and numerous SEC witnesses, as well as documentary evidence reviewed,
demonstrated that there was a direct connection between the method used to determine
customer net equity and clawback actions by the Trustee, including the overall amount of
funds the Trustee would seek to clawback and the calculation of amounts sought in
individual clawback suits. In addition to Becker's work on the net equity issue, we also
found that Becker, in his role as SEC General Counsel and Senior Policy Director,
provided comments on a proposed amendment to SIPA that would have severely
curtailed the Trustee's power to bring clawback suits against individuals like him in the
Madoff Liquidation.

        After we concluded the fact-finding phase of our investigation, we provided to the
Acting Director of the Office of Government Ethics ("OGE") a summary of the salient
facts uncovered in the investigation, as reflected in this report. We requested that OGE
review those facts and provide the OIG with its opinion regarding Becker's participation
in matters as the SEC's General Counsel and Senior Policy Director that could have
given rise to a conflict of interest. After reviewing the summary of facts provided by the
OIG, the Acting Director of OGE advised us that in his opinion, as well as that of senior
attorneys on his staff, both Mr. Becker's work on the policy determination of the
calculation of net equity in connection with clawback actions stemming from the Madoff
matter, and his work on the proposed legislation affecting clawbacks, should be referred
to the United States Department of Justice for consideration of whether Becker violated
18 U.S.C. § 208, a criminal conflict of interest provision. Based upon this guidance, the
OIG is referring the results ofits investigation to the Public Integrity Section of the
Criminal Division of the United States Department of Justice.

       The following is a summary of the findings of our investigation. We found that
Becker, along with his two brothers, inherited an interest in a Madoff account owned by
his mother's estate after she died in 2004. Becker testified he became aware of his
mother's estate's Madoff account in or about February 2009 and knew that the account
had been opened by his father prior to his death in 2000, that it was transferred to his
mother's estate after her death in 2004, and that the account was liquidated for
approximately $2 million. According to the complaint filed by the MadoffTrustee
against Becker and his brothers in February 2011, approximately $1.5 million of the $2
million in the Madoff account constituted fictitious profits and, therefore, should properly
be clawed back into the fund of customer property for distribution to other Madoff
customers.

        The OIG investigation found that at the time Becker participated on behalf of the
SEC in the net equity issue presented in the Madoff Liquidation, he understood there was
a possibility the Trustee would bring a clawback suit against him for the fictitious profits,
but asserted that he did not know the likelihood of such a suit. He also acknowledged at
the time that it was at least "theoretically conceivable" that the determination of the
extent of SIPA coverage to be afforded Madoff customers could impact whether the
Trustee would bring c1awback actions against "persons at the margin," which he
considered himself to be. Notwithstanding this knowledge, Becker, who also served as

                                              3

the SEC's alternate Designated Agency Ethics Official (i.e., the alternate official
responsible for coordinating and managing the SEC's ethics program), worked on
particular matters that could impact the likelihood, and even possibility, of a clawback
suit against him, as well as the amount that could be recovered in such a clawback action.

         Specifically, the OIG investigation found that after Becker rejoined the SEC as
General Counsel and Senior Policy Director in February 2009, the SEC's approach with
respect to the net equity determination changed. Prior to Becker's return to the
Commission, the Division ofTrading & Markets (TM) had been working closely with
SIPC on the Madoff Liquidation. At that time, SIPC had emphasized that it was critical
that SIPC and the SEC reach a consensus and agree on a methodology for paying
customer claims, as SIPC and the Trustee wished to act quickly and begin paying
customer claims as soon as possible. SIPC and the Trustee proposed to pay customer
claims based upon a money-inlmoney-out method of distribution, under which a Madoff
investor would be able to make a net equity claim only for the amount initially invested
with Madoff, less any amounts withdrawn over time ("Money InlMoney Out Method").
SIPC and the Trustee believed that the Money InlMoney Out method was the only
method that was consistent with SIPA as a matter of law, and that SIPA did not allow
customers to receive any amount over and above their initial investment with Madoff,
i.e., the fictitious returns shown on their Madoff account statements. As of February
2009, TM officials concurred with SIPC and the Trustee that the Money InlMoney Out
Method was the appropriate method for determining customer net equity and SIPC
officials understood that the Commission was likewise in agreement with this approach.

       After Becker rejoined the Commission in late February 2009, and the SEC
received submissions from representatives of Madoff claimants who disagreed with the
Money InlMoney Out Method for determining net equity, including a May 1, 2009 letter
to Becker from former SEC Commissioner Annette Nazareth, Becker and the Office of
General Counsel C40GC") began to analyze whether an approach other than the one
recommended by SIPC and the Trustee should be used. The May 1, 2009 letter, as well
as other similar submissions, advocated a last account statement method for determining
customer net equity, under which customers would receive the amount listed as being in
the customer's account on the last Madoff account statement the customer received (i.e.,
including the fictitious profits reflected on their statements) e'Last Account Statement
Method").

         The OIG investigation found that after receiving the May 1, 2009 letter, Becker
and OOC initially gave serious consideration to the Last Account Statement Method.
The OIG investigation further found that the prevailing opinion within the SEC and SIPC
was that using the Last Account Statement Method would have eliminated the Trustee's
ability to bring clawback suits such as the one brought against Becker. Becker himself
testified to the 010 that he recalled that one of the reasons given by the MadoffTrustee
for his opposition to using the Last Account Statement Method was that if this method
was adopted, "we couldn't do any clawbacks."


                                            4

       In addition, Becker initially advocated to SIPC that some version of the Last
Account Statement Method be adopted. SIPC's General Counsel stated to the OIG that
during a June 2009 meeting, Becker "was very persistent on the view that the last account
statement should be the measure of what customers were owed, which meant that you
would basically recognize and honor fictitious profits." Meanwhile, SIPC officials
expressed frustration to the SEC Chairman that the Commission was still exploring other
options for the net equity determination while the Trustee was processing claims and
wished to offer settlements to Madoff customers.

        Becker and OGC eventually rejected the Last Account Statement Method and
variations of that approach, determining that they could not be reconciled with the law,
but continued to consider other methods that would allow Madoff customers to receive
from SIPC more than the amount of their initial investments with Madoff: After
consultation with officials from Division of Risk, Strategy, and Financial Management
(Risk Fin), Becker ultimately decided to recommend to the Commission a method that
became known as the Constant Dollar Approach, pursuant to which an inflation rate,
based upon the Consumer Price Index, would be added to the amount of Madoff
customers' initial investments with Madoffto determine the amount they would receive
("Constant Dollar Approach").

        Accordingly, in late October 2009, eight months after Becker rejoined the
Commission, Becker signed an Advice Memorandum to the Commission which proposed
that the Commission support the MadoffTrustee's Money InIMoney Out Method, but
calculate this approach in a manner that accounts for the "time value" of funds invested
in Madoffs scheme pursuant to the Constant Dollar Approach. TM concurred in the
recommendation to support the Money InlMoney Out Method, but specifically stated that
it "does not necessarily concur with the view that SIPA would permit the calculation of
net equity on a time-equivalent-dollar basis." Subsequently, Becker and OGC provided a
Supplemental Memorandum to the Commission that specifically addressed the Constant
Dollar Approach in greater detail. At an Executive Session of the Commission convened
to consider this matter, Becker requested that the Commission authorize the staff to
"prepare testimony and write a brief taking the position supporting the trustee on [money­
in/money-out], but saying the [money] needs to described in constant dollar terms." The
Commission ultimately voted not to object to the staffs recommendation of the Constant
Dollar Approach to the net equity determination.

        The OIG investigation found that neither SIPC nor the Trustee believed that the
Constant Dollar Approach was appropriate or in conformance with the statute. The
President and Chief Executive Officer ("CEO") ofSIPC stated to the OIG that he
specifically recalled telling Becker, in a telephone conversation during which Becker
informed him that the Commission would use the Constant Dollar Approach, that there
was no justification for such an approach under SIPA. Becker testified that he did not
care about whether SIPC was unhappy with the SEC's approach to the appropriate
method of calculating net equity because "[w]e're supposed to do the right thing ...
whether SIPC likes it or not." He was also dismissive in his testimony of the potential

                                            5

impact on the SIPC Fund, which he referred to as "a little bit of a red herring,"
notwithstanding SIPC's previously-expressed concerns about the viability of the fund.
Similarly, the OIG investigation found that despite knowing that SIPC and the Madoff
Trustee wanted to act quickly and had begun processing customer claims, Becker and
OGC delayed its net equity recommendation until it had to do so pursuant to the court's
scheduling order.

       Moreover, the SIPC President and CEO made clear that every proffered
methodology, other than the Money InlMoney Out Method that was agreed upon by the
SEC prior to Becker's rejoining the Commission, would have directly affected Becker's
mother's estate's account, and every proffered methodology would have improved
Becker's financial position, or the financial position of the account. The SIPC President
and CEO explained that by increasing the amount that customers' accounts were owed,
Becker would decrease any amount which the trustee could have received in a clawback
suit.

        The SIPC President and CEO also stated that, upon learning of Becker's mother's
Madoff account, he performed "back of the envelope calculations" to determine the
difference of bringing clawback suits under the Constant Dollar Approach, as opposed to
the money-inlmoney-out method. Under this calculation, the SIPC President and CEO
concluded that utilizing the Constant Dollar Approach, the amount sought in the
clawback suit against Becker and his brothers would be reduced by approximately
$140,000. The OIG recreated the analysis and calculated that a benefit to Becker and his
brothers of approximately $138,500 would result from applying the Constant Dollar
Approach in the Becker clawback suit by adjusting the amount of principal invested of
approximately $500,000 by a percentage inflation adjustment calculated from the
Department of Labor's Bureau of Labor Statistics Consumer Price Index Table.

       The OIG investigation also found that Becker participated in another particular
matter while serving as General Counsel and Senior Policy Director that could have
impacted his financial position. In October 2009, the SEC's Office ofIntergovernmental
and Legislative Affairs (OLA) forwarded Becker a draft amendment to SIPC, as well as
TM's analysis of that proposal, and asked Becker if there was "any reason SEC staff
should weigh in tomorrow on an amendment to be considered during a House Financial
Services Committee markup regarding the ability of the SIPC trustee to do clawbacks."
The proposed amendment was entitled, "Clarification Regarding Liquidation
Proceedings," and amended SIP A to preclude a SIPC trustee from bringing clawback
actions against a customer "absent proof that the customer did not have a legitimate
expectation that the assets in his account belonged to him." The effect of this amendment
would be to preclude the Trustee from bringing clawback actions like the one against
Becker, which were the majority of the clawback suits brought, i.e., suits that did not rely
on any knowledge ofthe alleged wrongdoing. Becker responded to OLA, stating the
amendment was "incomprehensible" and did not "seem fair" to him. In his OIG
testimony, Becker defended his participation in this matter by stating that he regarded this
amendment as merely "political noise," rather than a serious proposal.

                                             6

         Although the OIG investigation did find that Becker consulted with the SEC
Ethics Office regarding his interest in his mother's estate's Madoff account on two
separate occasions and Becker was advised that there was no conflict, we identified
concerns about the role and culture of the Ethics Office at the time it provided Becker
with clearance to work on the Madoff Liquidation. William Lenox, the Ethics Counsel,
with whom Becker consulted on both occasions about whether he should be recused from
working on the Madoff Liquidation, reported directly to Becker. In fact, just seven
months after Lenox provided advice regarding Becker's participation in the Madoff
Liquidation, Becker provided a performance evaluation of Lenox, which concluded, "The
performance of the ethics office has been superb .... The quality of the ethics advice is
very high ...." Lenox also held Becker in extremely high regard. He testified that he
had "[g]reat professional respect" for Becker and "an appreciation for his humor and his
abilities as a lawyer," and further described Becker as a "great man and a great lawyer."
He also testified he factored into his analysis of whether Becker should be recused from
the Madoff Liquidation the fact that "he was a reputed securities lawyer who was making
a decision to come back and serve the public and protect investors, and he was here to do
this sort ofanalysis."

        In addition, Lenox explained his belief that as Ethics Counsel, the most important
thing was that people trust him, and noted that people trusted him with "incredibly
personal information." He viewed his job as "to create a culture where people would
seek advice, and to alert those employees - all employees - where the danger lines were,
and to encourage them to come and seek ethics advice, because that provides a level of
protection." He stated, "The people who, in the ethics community, that I respect the least
are the ones who always say no. If you are a constant naysayer, one, nobody comes to
secure advice; two, you're not actually doing your job." He further noted, "The key, as I
saw it in my job as [Designated Agency Ethics Official] and as ethics counsel, was to
make decisions. That's the reason I was promoted. I was willing to make decisions.
That requires a certain amount of willingness to be second-guessed by other people. If
you always say no, you'll never be second-guessed. That was not what I saw my role to
be."

       Lenox specifically discussed Becker's mother's estate's Madoff account with him
on two separate occasions: first, upon Becker's return to the SEC in February 2009, and,
second, when he received the May 1, 2009 letter advocating the Last Account Statement
Method. Only the second discussion was documented in writing, but at no time did
Lenox advise that Becker should not participate in any Madoff-related matters and, as
discussed below, this advice appears to have been based on incorrect assumptions. The
OIG investigation further found that Becker never advised Lenox of the request for his
opinion of the SIPA amendment, which would have precluded clawbacks against
individuals in Becker's position, and never sought his advice on whether providing
advice on the amendment was improper.



                                            7

        In the second discussion in early May 2009, Becker disclosed to Lenox the details
of his mother's account with Madoff, including when it was opened and closed, and
approximately how much money was invested. He also explained to Lenox that the
MadoffTrustee had been bringing clawback suits and that a clawback suit could "[i]n
theory" be brought against him. Becker also acknowledged that it was possible that the
extent to which SIPA coverage would be available could make it "less likely that the
[t]rustee would bring claw back actions against persons at the margin" like him.

         Lenox responded, in part, "There is no direct and predictable effect
between the resolution of the meaning of 'securities positions' and the trustee's claw
back decision. For this reason, you do not have a financial conflict of interest and you
may participate." When the DIG interviewed Lenox in this investigation, we learned that
Lenox's opinion was based upon the incorrect understanding that the SEC's
participation in the Madoff Liquidation was solely an advisory one, when, in fact, the
SEC is a party to the liquidation proceeding and may request the court to compel SIPC to
do as it wishes. Becker himself acknowledged in his DIG testimony that consistent with
its role as a party, the SEC's participation in the net equity issue in the Madoff
Liquidation was not theoretical. Becker noted that it was his understanding that if SIPC
disagreed, the SEC should eventually recommend that the court adopt the SEC's position,
not SIPC's position, and indicated that "[t]he Commission had done that in the past and
may do it again."

        We found that Lenox's advice was also based upon the incorrect assumption that
the interpretation of SIPA for purposes of claim determination was a separate and distinct
legal question from the trustee's decision of from whom to institute a claw back suit, and
completely ignored any impact on the calculation of the amount to be clawed back. We
also found no evidence that Lenox took any further steps to better understand the extent
and nature of Becker's involvement in the MadoffLiquidation and Becker testified that
he did not recall Lenox asking for additional facts or directing him to seek additional
guidance if new facts arose.

        The DIG investigation further found that notwithstanding the importance Lenox
had placed on appearance matters in his communications to SEC employees, he did not
even reference appearance considerations in his May 2009 written advice to Becker.
Nonetheless, Lenox testified that he did consider appearance issues when advising
Becker and, in fact, concluded that Becker's participation in the MadoffLiquidation
matter passed the "appearance of impropriety test," which Lenox had himself described
in an ethics bulletin issued to all SEC employees as follows:

               What are the optics of the situation; what is the context of
               the facts and circumstances? Would it pass what has often
               been referred to as the New York Times or Washington Post
               test? If what you propose doing becomes the subject of an
               article in the press, would you not care or would it look like
               you were doing something wrong? Even if you wouldn't

                                             8

               care, what effect would the story have on the SEC and your
               fellow employees?

Even with the advantage of hindsight and given the intense press scrutiny and criticism of
Becker's work on Madoff-related matters in the Washington Post and New York Times,
Lenox indicated in testimony before the OIG that he stands by his conclusion that
Becker's involvement in the SEC determinations in the MadoffLiquidation passed this
appearance test.

        The OIG investigation further found that the Ethics Office considered Becker's
participation differently in other matters than it did in the MadoffLiquidation. For
example, in March 2009, shortly after he returned to the Commission, Lenox advised
Becker to recuse himself from the Commission's consideration of an insider trading
matter involving a company in which Becker held about $90,000 in securities of issuers
that were harmed by the trading at issue in the case. In this case, the basis for recusal was
a "theoretical possibility" of some benefit to Becker, which seems significantly less likely
than the situation presented by Becker's participation in the MadoffSIPC liquidation
proceeding.

        Becker himself also took a more conservative stance on recusal in certain matters,
and even declined to participate in one matter where the Ethics Office had advised he
could do so. For example, in July 2010, Becker discussed recusal from an SEC
enforcement matter with the Ethics Office. The Ethics Office informed Becker that he
previously already recused himself from this matter because of certain holdings. Becker
responded, "I recused because of a brief (under 30 minutes) involvement with the case.
Ultra conservative, but wise."

        Similarly, the OIG investigation found that the Ethics Office considered recusals
in Madoff-related matters differently in situations that did not involve Becker. Shortly
after Madoff confessed, Lenox, as Ethics Counsel, sent a memorandum to all
Commission employees regarding mandatory recusal from SEC v. Madoffin a broad
variety of circumstances. The memorandum stated, "[Alny member of the SEC staff who
has had more than insubstantial personal contacts with Bernard L. Madoff or Mr.
Madoffs family shall be recused from any ongoing investigation of matters related to
SEC v. MadofJ." The memorandum further set forth certain contacts that required
recusal, including being invited to or visiting any Madofffamily members' homes or
being an active member of the same social or charitable organizations.

       In addition, the OIG investigation found that with respect to employees within
OGe besides Becker, the Ethics Office took a more conservative approach for recusal
from Madoff-related matters, including the Madoff Liquidation. For example, the Ethics
Office advised a staff attorney in OGC's Appellate Litigation and Bankruptcy Group, that
she had a conflict from working on any aspect of the Madoff Liquidation because she
"spent a very small amount of time in private practice working on a question related to
the Madoffbankruptcy."

                                              9

         Becker himself took a different approach when he analyzed SIPA coverage issue
for investors in the multi-billion Ponzi scheme ofR. Allen Stanford from the approach
described above in the Madoff Liquidation. After the SEC brought a civil enforcement
action against Stanford and three of his companies, the President and CEO of SIPC sent a
letter to the receiver appointed for the Stanford matter indicating that, based on the facts
as set forth by the receiver, there was no basis for SIPC to initiate a proceeding under
SIPA with respect to Stanford investors. Becker testified that he became involved
initially in the SEC's considerations about SIPC coverage with respect to Stanford
investors, and his opinion as to the matter "was that SIPA, the statute, did not cover the
Stanford situation," noting that although "it didn't make sense that it would not cover
something like Stanford, but cover Madoff, ... the law is the law." By contrast, in the
Madoff Liquidation, Becker considered a variety of approaches for determining net
equity in order to, as Becker testified, "take the position which got the most money [to]
injured investors consistent with the law." After Becker left the SEC, the Commission
eventually adopted a position contrary to the one espoused by Becker, finding that the
law did allow certain Stanford investors SIPA protection.

        The OIG investigation also found that former Ethics Counsel Lenox was not the
only individual in the Commission who was aware of Becker's mother's estate having an
account with Madoff prior to the time this issue appeared in the press. Both Becker and
Chairman Schapiro recalled that, around the time of his return to the SEC in February
2009, Becker discussed his mother's estate's Madoff account with her. While their
recollections of the substance of the conversation are not entirely consistent, the evidence
clearly shows that Becker advised Chairman Schapiro that his mother had had an account
with Madoff, that she had died several years before, and that the account had been
liquidated. Chairman Schapiro did not recall asking Becker any questions after he told
her about his mother's account, and did not recall whether Becker said anything about
seeking advice from the Ethics Counsel regarding the account, although Becker testified
he must have mentioned to her that he would consult with Lenox. At that time, Chairman
Schapiro did not consider Becker's personal financial gain "in any way, shape, or form"
or whether he would be subject to a clawback action. Indeed, Chairman Schapiro
testified that she would have had Becker recused from the net equity determination if she
had known he was potentially subject to a clawback suit or "understood that he had any
financial interest in how this [was] resolved ...."

        In addition, the issue of Becker's mother's estate's Madoff account was discussed
by several SEC senior officials in the Fall of2009, when the SEC learned that the U.S.
House of Representatives Subcommittee on Capital Markets, Insurance, and Government
Sponsored Enterprises was scheduling a hearing on SIPC and the Madoff victims.
Shortly after the SEC learned that the Congressional testimony would focus on legal
aspects of the SIPClMadoff issues, Chairman Schapiro suggested that Becker testify on
behalf of the SEC at the hearing. The OLA Director then had a conversation with
Becker, during which Becker informed him that his mother had a Madoff account from
which he "had gotten an inheritance." Becker also testified that he told the OLA Director

                                             10 

that "if [he did] testify, [he] would put at the beginning, [he] would mention [his], the fact
of [his] mother's account with Madoff." Becker testified that after this conversation, the
OLA Director contacted him later in the day and said, "You know, now that I think about
it, I think it would be better if somebody else testified. My concern is - not that there's
anything inappropriate, but my concem is [ ] that when you're in a political environment,
people might want to make something of that, and it would be a distraction rather than
focusing on what the Commission's position was and why."

        Becker testified that either the evening of his conversation with the OLA Director
or the following morning, he spoke with Chairman Schapiro about his mother's account.
Chairman Schapiro recalled the conversation with Becker and stated, "I recall saying that
if David [Becker] did testify, we needed to make it absolutely clear to Congress that there
was this connection, remote though I believed it to be, that his long-deceased mother had
had an account at Madoff, so that nobody would be surprised by that, so that we were
completely forthcoming with Congress." Becker testified that he was certain that it was
he who said in the meeting with Chairman Schapiro that ifhe were to testify, he would
disclose his mother's account with Madoff. The OIG investigation found that eventually,
the OLA Director made the decision not to have Becker testify and the SEC Deputy
Solicitor, who had been suggested by Becker as a possible replacement witness, testified
in Becker's stead at the subcommittee hearing which occurred on December 9,2009, and
involved discussions of clawbacks. In the end, Becker's Madoff interest was not
disclosed to Congress.

       Moreover, the OIG investigation found that although the decision was made that
should Becker testify before Congress, he would disclose his mother's interest with
Madoff, during this November 2009 timeframe, the fact of Becker's interest in his
mother's estate's Madoff account was not disclosed to the Commissioners or the
bankruptcy court, notwithstanding the fact that the Commission was considering
Becker's recommendation on the net equity position to take in court at this very time.
SEC Commissioner Aguilar testified that it was "incredibly surprising and incredibly
disappointing that there was enough awareness to know that the conflict existed to
prevent [Becker] from giving [this] testimony, yet the decision-makers at the
Commission were not provided that information."

        In all, the OIG investigation found that, prior to the public disclosure of Becker's
mother's Madoff account, at least seven SEC officials were informed at one time or
another about that account, including the Chairman, the then-Deputy General Counsel
and current General Counsel, the Deputy Solicitor who testified at the hearing in
Becker's stead, the OLA Director, a Special Counsel to the Chairman and the two Ethics
officials, and yet, none of these individuals recognized a conflict or took any action to
suggest that Becker consider recusing himself from the Madoff Liquidation.

        The rest of the relevant personnel who worked with Becker on the Madoff
Liquidation found out about Becker's mother's account from the media. These included:
all the TM personnel who played a role in the Madoff Liquidation, OGC lawyers who

                                              11 

worked with Becker on the net equity detennination, all of the SEC Commissioners,
other than the Chainnan, SIPC's President and CEO as well as its General Counsel, and
the MadoffTrustee. Virtually all these individuals expressed some level of surprise at
the revelation, and many expressed concern about the potential conflict of interest.

        On August 31, 2011, after completing the fact-finding aspect of this investigation,
the OIG provided to the Acting Director of aGE a summary of the salient facts
uncovered in the investigation, as reflected in this report. The OIG requested that aGE
review those facts and provide the OIG with its opinion regarding Becker's participation
in matters as the SEC's General Counsel and Senior Policy Director that could have
given rise to a conflict of interest.

        After reviewing the summary of facts provided by the OIG, the Acting Director of
OGE provided the following guidance to the OIG: "It is [the aGE's Acting Director's]
opinion, as well as that of senior attorneys on [his] staff, that certain matters [the OIG]
discussed in the materials [the OIG] provided to aGE should be referred to the United
States Department of Justice for its consideration. This regards, more specifically: (a)
Mr. Becker's work as General Counsel on the policy detennination of the calculation of
net equity in connection with clawback actions stemming from the Madoffmatter, and
(b) Mr. Becker's SEC work on the proposed legislation affecting clawbacks." He also
stated that the aGE attorneys' view was that "the materials provided to aGE contain
infonnation relevant to two elements of 18 USC 208, to the extent they evidence Mr.
Becker's apparent personal and substantial participation in both ofthe particular matters
above, and to the extent there is implicated a personal financial interest that could be
impacted by Mr. Becker's participation in those matters. Nonetheless, the actual
knowledge element of 18 USC 208, which would be required to establish a violation of
that statute, remains a question of fact that can only be resolved in a court oflaw."

        Based upon this guidance, the DIG is referring the results of its investigation to
the Public Integrity Section of the Criminal Division of the United States Department of
Justice. In addition, based upon the OIG's findings in this report, the OIG is
recommending that, in light of David Becker's role in signing the October 28,2009
Advice Memorandum and participating in the November 2009 Executive Session at
which the Commission considered OGC's recommendation that the Commission take the
position that net equity for purposes of paying Madoff customer claims should be
calculated in constant dollars by adjusting for the effects of inflation, the Commission
reconsider its position on this issue by conducting a re-vote in a process free from any
possible bias or taint. Once the re-vote has been conducted, the Commission should
advise the United States Bankruptcy Court for the Southern District of New York of its
results and the position that the Commission is adopting.

       The OIG also recommends with respect to the Ethics Office that:

       (1) 	   The SEC Ethics Counsel should report directly to the Chainnan, rather
               than to the General Counsel.

                                            12
          (2) 	     The SEC Ethics Office should take all necessary steps, including the
                    implementation of appropriate policies and procedures, to ensure that all
                    advice provided by the Ethics Office is wellwreasoned, complete,
                    objective, and consistent, and that Ethics officials ensure that they have all
                    the necessary information in order to properly determine if an employee's
                    proposed actions may violate rules or statutes or create an appearance of
                    impropriety.

          (3) 	     The SEC Ethics Office should take all necessary actions to ensure that all
                    ethics advice provided in significant matters, such as those involving
                    financial conflict of interest, are documented in an appropriate and
                    consistent manner.

                           SCOPE OF THE OIG INVESTIGATION

     I.       Review of Ewmails

        Between March 4,2011 and August 16,2011, the oro made numerous requests
to the SEC's Office of Information Technology ("OIT") for the ewmails of current and
former SEC employees for various periods of time pertinent to the investigation. The
ewmails were received, loaded onto computers with specialized search tools, and searched
on a continuous basis throughout the course of the investigation.

        In all, the 010 received from OIT ewmails for a total of 45 current and former
SEC employees for various time periods pertinent to the investigation, ranging from 1998
to 2011. These included: 19 current or former employees within OOC; four current or
former employees within the Division of Trading and Markets ("TM"); three current
employees within the Office ofIntergovernmental and Legislative Affairs ("OLA"); three
current or former employees within the Division of Risk, Strategy, and Financial
Management ("Risk Fin"); all four Commissioners and the Chairman, as well as five
members of their staffs; and three current or former employees within the Division of
Enforcement. In addition, the 010 loaded and searched e-mails that it had collected from
five additional employees during its previous investigation into the failure of the SEC to
uncover Madoffs Ponzi Scheme, Case No. 010-509. The 010 estimates that it obtained
and searched over 5.1 million e-mails during the course of its investigation.

     II.          Document Requests and Review of Records

       The 010 obtained documents from the Secretary of the Commission, including
minutes of certain Commission meetings and memoranda presented to the Commission
regarding the Madoff Liquidation and SEC enforcement actions brought against
individuals and entities related to BMIS. The oro also reviewed a transcript of an
Executive Session of the Commission that occurred on November 9 and 10,2009 and


                                                  13 

listened to recordings of two other Commission Executive Sessions that occurred on
January 15 and February 12,2009.

        On May 31, 2011, the OIG issued a subpoena to Irving H. Picard, Esq., as Trustee
for the liquidation of the BMIS business ("Trustee"). The Trustee produced documents
pursuant to that subpoena on June 8, 2011, including documents related to the BMIS
account held by Becker's mother's estate and to communications between the Trustee
and Becker in his capacity as the Commission's General Counsel and Senior Policy
Director.

        The OIG also reviewed numerous publicly available documents, including:
(1) court filings in the Madoff Liquidation; (2) court filings in various clawback actions
brought by the Trustee, including the action against Becker and his brothers; and
(3) press coverage of Madoff-related matters.

    III.        Testimony and Interviews

        The OIG took the sworn testimony of35 witnesses and interviewed five other
individuals with knowledge of facts or circumstances surrounding the Madoff
Liquidation and Becker's work at the SEC. SEC Inspector General H. David Kotz
personally led the questioning in the testimony and interviews of nearly all the witnesses
in the investigation.

       The OIG conducted testimony on-the-record and under oath of the following 35
individuals:

           1)      *Risk Fin Senior Official #1, Division of Risk, Strategy, and Financial
                   Innovation; taken on June 14,2011 ("Risk Fin Senior Official # 1
                   Testimony Tr."). Excerpts of testimony transcript are attached as Exhibit
                   1.

           2)      Michael Macchiaroli, Associate Director, Division of Trading and
                   Markets; taken on June 14,2011 ("Macchiaroli Testimony Tr."). Excerpts
                   of testimony transcript are attached as Exhibit 2.

           3)      ·Sr. TM Official, Division of Trading and Markets; taken on June 17,
                   2011 ('~Sr. TM Official Testimony Tr."). Excerpts of testimony transcript
                   are attached as Exhibit 3.

           4)      *NYRO Assistant Regional Director, Division of Enforcement, New York
                   Regional Office; taken on June 22,2011 ("NYRO Assistant Regional
                   Director Testimony Tr."). Excerpts of testimony transcript are attached as
                   Exhibit 4 .

• The OIG redacted the identities of certain individuals because of privacy concerns.

                                                     14 

        5) 	     Jacob Stillman, Solicitor, Office of the General Counsel; taken on June 23,
                 2011 ("Stillman Testimony Tr."). Excerpts of testimony transcript are
                 attached as Exhibit 5.

        6) 	     ·OGC Sr. Counsel #1, Office of the General Counsel; taken on June 29,
                 2011 ("OGC Sr. Counsel #1 Testimony Tr."). Excerpts oftestimony
                 transcript are attached as Exhibit 6.

        7) 	     ·Assistant Ethics Counsel #3, Office of the General Counsel; taken on
                 June 29, 2011 ("Assistant Ethics Counsel #3 Testimony Tr."). Excerpts of
                 testimony transcript are attached as Exhibit 7.

        8) 	     Eric Spitler, Counselor to the Chairman and Director, Office of Legislative
                 and Intergovernmental Affairs; taken on July 7, 2011 e'Spitler Testimony
                 Tr."). Excerpts of testimony transcript are attached as Exhibit 8.

        9) 	      ·OLA Deputy Director #2, Office of Legislative and Intergovernmental
                  Affairs; taken on July 7,2011 ("OLA Deputy Director #2 Testimony
                  Tr."). Excerpts of testimony transcript are attached as Exhibit 9.

         10) 	    ·OGC Sr. Special Counsel, Office of the General Counsel; taken on July 7,
                  2011 ("OGC Sr. Special Counsel Testimony Tr."). Excerpts of testimony
                  transcript are attached as Exhibit 1O.

         11) 	    ·OGC Assistant General Counsel #2, Office of the General Counsel; taken
                  on July 12,2011 ("OGC Assistant General Counsel #2 Testimony Tr.").
                  Excerpts of testimony transcript are attached as Exhibit 11.

         12) 	    Mark Cahn, General Counsel; taken on July 14,2011 ("Cahn Testimony
                  Tr."). Excerpts of testimony transcript are attached as Exhibit 12.

         13) 	    ·OGC Assistant General Counsel #1, Office of the General Counsel; taken
                  on July 14,2011 (,'OGC Assistant General Counsel #1 Testimony Tr.").
                  Excerpts of testimony transcript re attached as Exhibit 13.

         14) 	    Luis Aguilar, Commissioner; taken on July 20,2011 ("Aguilar Testimony
                  Tr."). Excerpts of testimony transcript are attached as Exhibit 14.

         15) 	    Troy Paredes, Commissioner; taken on July 20,2011 ("Paredes Testimony
                  Tr."). Excerpts of testimony transcript are attached as Exhibit 15.



• The OIG redacted the identities of certain individuals because of privacy concerns.

                                                     15
        16) 	    Kathleen Casey, fonner Commissioner; taken on July 21, 2011 ("Casey
                 Testimony Tr. "). Commissioner Casey remained a Commissioner at the
                 time of her testimony, but she then left the Commission on August 5, 2011
                 after the completion ofher five-year tenn. Excerpts of testimony
                 transcript are attached as Exhibit 16.

        17) 	    Elisse Walter, Commissioner; taken on July 21,2011 ("Walter Testimony
                 Tr."). Excerpts of testimony transcript are attached as Exhibit 17.

        18) 	    ·OLA Deputy Director #1, Office of Legislative and Intergovernmental
                 Affairs; taken on July 21,2011 ("OLA Deputy Director #1 Testimony
                 Tr."). Excerpts of testimony transcript are attached as Exhibit 18.

        19) 	    Ricardo Delfin, Special Counsel, Office of the Chainnan; taken on July
                 21,2011 ("Delfin Testimony Tr."). Excerpts oftestimony transcript are
                 attached as Exhibit 19.

        20) 	    Henry Hu, fonner Director of the Division of Risk, Strategy, and Financial
                 Innovation; taken on July 22,2011 ("Hu Testimony Tr."). Excerpts of
                 testimony transcript are attached as Exhibit 20.

        21) 	    Michael Conley, Deputy Solicitor, Office of the General Counsel; taken
                 on July 25,2011 ("Conley Testimony Tr."). Excerpts of testimony
                 transcript are attached as Exhibit 21.

        22) 	    Matthew Martens, Chief Litigation Counsel, Division of Enforcement;
                 taken on July 25,2011 ("Martens Testimony Tr."). Excerpts of testimony
                 transcript are attached as Exhibit 22.

        23) 	    Joseph Brenner, Chief Counsel, Division of Enforcement; taken on July
                 26,2011 ("Brenner Testimony Tr."). Excerpts of testimony transcript are
                 attached as Exhibit 23.

        24) 	    *Assistant Ethics Counsel #1, Office of the General Counsel; taken on July
                 26,2011 ("Assistant Ethics Counsel #1 Testimony Tr."). Excerpts of
                 testimony transcript are attached as Exhibit 24.

        25) 	     •Assistant Ethics Counsel #2, Office of the General Counsel; taken on July
                  26, 2011 ("Assistant Ethics Counsel #2 Testimony Tr."). Excerpts of
                  testimony transcript are attached as Exhibit 25.




• The OIG redacted the identities of certain individuals because of privacy concerns.

                                                     16
        26) 	    Mary L. Schapiro, Chainnan; taken on July 27,2011 ("Schapiro
                 Testimony Tr."). Excerpts of testimony transcript are attached as Exhibit
                 26.

        27) 	    Harry Markopolos, Chartered Financial Analyst and Certified Fraud
                 Examiner; taken on July 27,2011 ("Markopolos Testimony Tr.").
                 Excerpts of testimony transcript are attached as Exhibit 27.

        2S) 	    *OGC Sr. Counsel #2, Office of the General Counsel; taken on August 10,
                 2011 ("OGC Sr. Counsel #2 Testimony Tr."). Excerpts of testimony
                 transcript are attached as Exhibit 28.

        29) 	    ·OHR Assistant Director, Office of Human Resources; taken on August
                 11, 2011 ("OHR Assistant Director Testimony Tr."). Excerpts of
                 testimony transcript are attached as Exhibit 29.

        30) 	    *NYRO Staff Attorney, Division of Enforcement, New York Regional
                 Office; taken on August 15,2011 ("NYRO Staff Attorney Testimony
                 Tr."). Excerpts of testimony transcript are attached as Exhibit 30.

        31) 	    *NYRO Trial Counsel, Division of Enforcement, New York Regional
                 Office, taken on August 15,2011 ("NYRO Trial Counsel Testimony Tr.").
                 Excerpts of testimony transcript are attached as Exhibit 31.

        32) 	    Richard Levine, Associate General Counsel for Legal Policy, Office of
                 General Counsel; taken on August 16,2011 ("Levine Interview Tr.").
                 Excerpts of testimony transcript are attached as Exhibit 32.

        33) 	    Jeffrey Risinger, fonner Director, Office of Human Resources; taken on
                 August IS, 2011 ("Risinger Testimony Tr. "). Excerpts of testimony
                 transcript are attached as Exhibit 33.

         34) 	    William Lenox, fonner Ethics Counsel, Office of the General Counsel;
                  taken on August 26, 2011 ("Lenox Testimony Tr."). Excerpts of
                  testimony transcript are attached as Exhibit 34.

         35) 	    David Becker, fanner General Counsel; taken on August 29,2011
                  ("Becker Testimony Tr."). Excerpts of Testimony Transcript are attached
                  as Exhibit 35.

        The OIG also conducted interviews of the following five persons with relevant
expertise andlor knowledge of infonnation pertinent to the investigation:


• The OIG redacted the identities of certain individuals because of privacy concerns.

                                                     17 

       1)      Daniel Gallagher, former Deputy Director (July 2008 until April 2009)
               and Acting Co-Director (from April 2009 until January 2010), Division of
               Trading and Markets, currently Partner, Wilmer, Cutler, Pickering, Hale &
               Dorr, and awaiting confirmation as SEC Commissioner; conducted on July
               22,2011 ("Gallagher Interview Tr."). Excerpts of interview transcript are
               attached as Exhibit 36.

       2)      Stephen Harbeck, President and Chief Executive Officer, Securities
               Investor Protection Corporation; conducted on July 11,2011 and on
               August 17,2011 ("Harbeck Interview Tr."). Excerpts of the July 11, 2011
               interview transcript are attached as Exhibit 37, and a memorandum of the
               August 17,2011 interview is attached as Exhibit 38.

       3)      Annette Nazareth, former SEC Commissioner (from August 2005 until
               January 2008) and Director ofthe Division of Trading and Markets (from
               March 1999 until August 2005), currently Partner, Davis Polk &
               Wardwell; conducted on July 20,2011 ("Nazareth Interview Mem."). A
               memorandum of the interview is attached as Exhibit 39.

       4)      Irving Picard, Trustee for the Liquidation of Bernard L. Madoff
               Investment Securities, LLC; conducted on August 3, 2011 ("Picard
               Interview Tr."). Excerpts of the interview transcript are attached as
               Exhibit 40.

       5)      Josephine Wang, General Counsel, Securities Investor Protection
               Corporation; conducted on July 11, 2011 ("Wang Interview Tr.").
               Excerpts of the interview transcript are attached as Exhibit 41.

             RELEVANT STATUTES, RULES, AND REGULATIONS

                          Criminal Conflict of Interest Statute

        The criminal conflict of interest statute for acts that affect a personal financial
interest applies to all employees of the executive branch ofthe United States government
and provides that whenever an executive branch employee:

               participates personally and substantially as a Government
               officer or employee, through decision, approval,
               disapproval, recommendation, the rendering of advice,
               investigation, or otherwise, in a judicial or other
               proceeding, application, request for a ruling or other
               determination, contract, claim, controversy, charge,
               accusation, arrest, or other particular matter in which, to his
               knowledge, he, his spouse, minor child, general partner,

                                             18 

               organization in which he is serving as officer, director,
               trustee, general partner or employee, or any person or
               organization with whom he is negotiating or has any
               arrangement concerning prospective employment, has a
               financial interest [s]hall be subject to the penalties set forth
               in section 216 of this title.

18 U.S.C. § 208(a). Section 216 provides the punishment for a violation of Section 208:

               Whoever engages in the conduct constituting the offense
               shall be imprisoned for not more than one year or fined in
               the amount set forth in this title, or both.

               Whoever willfully engages in the conduct constituting the
               offense shall be imprisoned for not more than five years or
               fined in the amount set forth in this title, or both.

Id. § 216(a)(I) and (2). It also provides that the Attorney General may bring a civil
action for violation of Section 208. Id. § 216(b).

        Standards of Ethical Conduct for Employees of the Executive Branch

        The Standards of Ethical Conduct for Employees of the Executive Branch
("Standards of Conduct") are issued by the Office of Government Ethics ("OGE"). OGE
was established by the Ethics in Government Act of 1978. 5 U.S.C. app. § 401. Its role
is to provide "overall direction of executive branch policies related to preventing conflicts
of interest on the part of officers and employees of any executive agency." Id. § 402(a).
The Standards of Conduct set forth certain basic obligations of public service, including:

               Public service is a public trust, requiring employees to
               place loyalty to the Constitution, the laws and ethical
               principles above private gain.

               Employees shall endeavor to avoid any actions creating the
               appearance that they are violating the law of the ethical
               standards set forth in this part. Whether particular
               circumstances create an appearance that the law or these
               standards have been violated shall be detennined from the
               perspective of a reasonable person with knowledge of the
               relevant facts.

5 C.F.R. § 2635.l01(b)(1) and (14).

        5 C.F.R. § 2635.402(a) describes what constitutes a disqualifying financial
interest:

                                              19 

       An employee is prohibited by criminal statute, 18 U.S.C. §
       208(a), from participating personally and substantially in an
       official capacity in any particular matter in which, to his
       knowledge, he or any person whose interests are imputed to
       him under this statute has a financial interest, if the
       particular matter will have a direct and predictable effect on
       that interest.

5 C.F.R. § 263S.402(b)(I) defines what constitutes a direct and predictable effect:

       A particular matter will have a direct effect on a financial
       interest if there is a close causal link between any decision
       or action to be taken in the matter and any expected effect
       of the matter on the financial interest. An effect may be
       direct even though it does not occur immediately. A
       particular matter will not have a direct effect on a financial
       interest, however, if the chain of causation is attenuated or
       is contingent upon the occurrence of events that are
       speculative or that are independent of, and unrelated to, the
       matter. A particular matter that has an effect on a financial
       interest only as a consequence of its effects on the general
       economy does not have a direct effect within the meaning
       of this subpart.

       A particular matter will have a predictable effect ifthere is
       a real, as opposed to a speculative possibility that the
       matter will affect the financial interest. It is not necessary,
       however, that the magnitude of the gain or loss be known,
       and the dollar amount of the gain or loss is immaterial.

5 C.F.R. § 263S.402(b)(4) defines what constitutes personal and substantial:

       To participate personally means to participate directly. It
       includes the direct and active supervision of the
       participation of a subordinate in the matter. To participate
       substantially means that the employee's involvement is of
       significance to the matter. Participation may be substantial
       even though it is not determinative of the outcome of a
       particular matter. However, it requires more than official
       responsibility, knowledge, perfunctory involvement, or
       involvement on an administrative or peripheral issue. A
       finding of substantiality should be based not only on the
       effort devoted to a matter, but also on the importance of the
       effort. While a series of peripheral involvements may be

                                     20 

                  insubstantial, the single act of approving or participating in
                  a critical step may be substantial. Personal and substantial
                  participation may occur when, for example, an employee
                  participates through decision, approval, disapproval,
                  recommendation, investigation or the rendering of advice in
                  a particular matter.

         5 C.P.R. § 2635.402(b)(3) defines what constitutes a particular matter:

                  The term particular matter encompasses only matters that
                  involve deliberation, decision, or action that is focused
                  upon the interests of specific persons, or a discrete and
                  identifiable class of persons. Such a matter is covered by
                  this subpart even ifit does not involve formal parties and
                  may include governmental action such as legislation or
                  policy-making that is narrowly focused on the interests of
                  such a discrete and identifiable class of persons. The term
                  particular matter, however, does not extend to the
                  consideration or adoption of broad policy options that are
                  directed to the interests of a large and diverse group of
                  persons. The particular matters covered by this subpart
                  include a judicial or other proceeding, application, request
                  for a ruling or other determination, contract, claim,
                  controversy, charge, accusation or arrest. 1

      5 C.P.R. § 2635.502(a) requires employees to consider appearances of
impropriety:

                  Where an employee knows that a particular matter
                  involving specific parties is likely to have a direct and
                  predictable effect on the financial interest of a member of
                  his household ... and where the employee determines that
                  the circumstances would cause a reasonable person with
                  knowledge of the relevant facts to question his impartiality
                  in the matter, the employee should not participate in the
                  matter unless he has informed the agency designee of the
                  appearance problem and received authorization from the
                  agency designee in accordance with paragraph (d) of this
                  section.



I See also Memorandum to DeSignated Agency Ethics Officials Regarding "Particular Matter Involving
Specific Parties. .. "Particular Matter, .. and "Matter, .. aGE Informal Adv. Op. 06 x 9, 2006 WL 5380985
(Oct. 4, 2006).

                                                   21 

           The Commission's Canons of Ethics and Conduct Regulation

       Employees of the Securities and Exchange Commission are required to bear in
mind the Canons of Ethics for Members of the Securities and Exchange Commission, 17
C.F.R. § 200.50 et seq., in the performance oftheir duties. 17 C.F.R. § 200.51. The
Canons state in part:

              The question [of qualification to participate] in a particular
              matter rests with that individual member. Each member
              should weigh carefully the question of his qualification
              with respect to any matter wherein he or any relatives or
              former business associates or clients are involved. He
              should disqualify himself in the event he obtained
              knowledge prior to becoming a member of the facts at issue
              before him in a quasi-judicial proceeding, or in other types
              of proceeding in any matter involving parties in whom he
              has any interest or relationship directly or indirectly. If an
              interested person suggests that a member should disqualify
              himself in a particular matter because of bias or prejudice,
              the member shall be the judge of his own qualification.

17 C.F.R. § 200.60.

        The Commission's Regulation Concerning Conduct ofMembers and Employees
and Former Members and Employees of the Commission, 17 C.F.R. §§ 200.735-1 et seq.,
sets forth the standards of ethical conduct required of Commission members and current
and former employees of the SEC (hereinafter, referred to collectively as "employees").
The Conduct Regulation states in part:

              The Securities and Exchange Commission has been
              entrusted by Congress with the protection of the public
              interest in a highly significant area of our national
              economy. In view ofthe effect which Commission action
              frequently has on the general public, it is important that ...
              employees ... maintain unusually high standards of
              honesty, integrity, impartiality and conduct. ...

17 C.F.R. § 200.735-2.




                                            22 

                              RESULTS OF THE INVESTIGATION

         I.      Background

                  A. The Securities Investor Protection Corporation and Act

        Congress created SIPC in the Securities Investor Protection Act of 1970 ("SIPA")
to provide protection against losses to customers from the failure ofa securities firm. 15
U.S.C. § 78ccc(a)(I); H.R. Rep. No. 91-1613, 5255 (1970). SIPA's purpose was to
establish a reserve fund that would provide protection to customers of broker-dealers and
to reinforce investors' confidence in the securities industry. H.R. Rep. No. 91-1613,
5257 (1970). It is a nonprofit corporation and is not "an agency or establishment of the
federal government." 15 U.S.C. § 78ccc(a)(1). SIPA provides that all broker-dealers
who are required to register as brokers or dealers under Section 15(b) of the Securities
Exchange Act of 1934 shall be members of SIPC, with certain limited exceptions as
specified in the statute. ld. § 78ccc(a)(2). SIPC is required to establish a SIPC Fund into
which it deposits all monies it receives as membership fees. ld. § 78ddd(a)(1) and (c). If
the SIPC Fund is, or reasonably appears to be, insufficient, the SEC may make loans to
SIPC by issuing notes or obligations to the Secretary of the Treasury in an aggregate
amount not to exceed $2.5 billion. ld. § 78ddd(g) and (h).

         SIPC's role is to restore funds to investors who have assets at bankrupt or
financially troubled brokerage firms. It does so by working with a court-appointed
trustee (or acting as the trustee itself) in court proceedings to carry out a liquidation of a
brokerage firm, including reviewing claims of the brokerage's customers and distributing
property to the customers. If it receives notice that a member has failed or is in danger of
failing to meet its obligations to customers, SIPC may bring an application in a court of
competent jurisdiction for a protective decree to institute a liquidation proceeding. ld.
§ 78eee(a)(3)(A). Upon receipt of the application, the court must issue a protective
decree if the debtor consents to or fails to contest the application, or if certain other
conditions are met. 2 ld. § 78eee(b)(I). Ifthe court issues the protective decree, it then
appoints the trustee for the liquidation (and the trustee's counsel) that SIPC has the sole
discretion to specify.3 ld. § 78eee(b)(3). When it has issued the decree and appointed the
trustee, the court must order the removal of the proceeding to the bankruptcy court for
that jurisdiction. ld. § 78eee(b)(4).

              SIPA specifies the powers ofa SIPA trustee. 15 U.S.C. § 78fff-l(a). Most


2 SIPC may also bring such an application for a protective decree in certain other circumstances, such as if
it receives notice that a member is unable to meet its obligations as they mature; that a member is the
subject of a proceeding pending in which a receiver has been appointed; or that a member is not in
compliance with the requirements of the Securities Exchange Act of 1934 or the rules of the SEC or any
applicable self-regulatory organization. 15 U.S.c. § 78eee(b}(1). In such circumstances, the court must
grant such a SIP A application. Id.
3   SIP A also sets forth the circumstances under which SIPC or its employee can serve as the trustee. Id.

                                                       23 

notably, SIPA incorporates certain aspects of the federal bankruptcy code and provides
that a SIPA trustee has "the same powers and title with respect to the debtor and the
property of the debtor, including the same rights to avoid preferences, as a trustee in a
case under title 11." Id. The statute states:

                  Whenever customer property is not sufficient to pay in full
                  the claims ... , the trustee may recover any property
                  transferred by the debtor which, except for such transfer,
                  would have been customer property if and to the extent that
                  such transfer is voidable or void under the provisions of
                  title 11. Such recovered property shall be treated as
                  customer property.

Id. § 78fff-2(c)(3). Accordingly, a SIPA trustee may, among other things, bring
preference actions to avoid any transfer of property of the debtor that was transferred
within 90 days of the filing of the liquidation proceeding and to avoid any transfer of
property of the debtor that was made or incurred on or within two years before the date
that the liquidation proceeding was filed. 11 U.S.C. §§ 547(b)(4), 548. Additionally, a
trustee may bring fraudulent conveyance actions under state law, which usually provides
a longer statute oflimitations than the two-year federallimit.4 Id. § 544(b),' e.g.,
N.Y.C.P.L.R. § 213(8).

       The trustee is also responsible for publication and mailing of a notice of the
commencement ofa liquidation proceeding. 15 U.S.C. §78fff-2(a)(1). The trustee must
mail such notice to "each person who, from the books and records of the debtor, appears
to have been a customer of the debtor with an open account within the past twelve
months." Id. The trustee then receives written statements of claims that customers file
during a time period determined by statute or court order. !d. § 78fff-2(a)(2).

        After receiving such a written statement of claim, the trustee shall "promptly
discharge ... all obligations of the debtor to a customer relating to, or net equity claims
based upon, securities or cash, by the delivery of securities or the making of payments to
or for the account of such customer ... insofar as such obligations are ascertainable from
the books and records of the debtor or are otherwise established to the satisfaction of the
trustee."s 15 U.S.C. § 78fff-2(b) (emphasis added). SIPA defines "net equity" as:

                  the dollar amount of the account or accounts of a customer,
                  to be determined by -- (A) calculating the sum which would

4For purposes of this Report, we will use the term clawback suits to apply to preference actions, fraudulent
conveyance actions, and all other avoidance actions.
5 In order to effectuate this power and be able to make payments to customers, the court authorizes the
trustee to satisfy customer claims from money made available to the trustee by SIPC. 15 U.S.C. § 78fff­
2(b). SIPC is required to make advances from the SIPC Fund to the trustee for payment of customer
claims. [d. § 78fff-3.

                                                    24 

                 have been owed by the debtor to such customer if the
                 debtor had liquidated, by sale or purchase on the filing date
                 -- all securities positions of such customer ... minus (B)
                 any indebtedness of such customer on the filing date....

ld. § 78111(11). Accordingly, the question of what constitutes a customer's net equity is
central to determining the appropriate amount that each customer will receive.

              B. The SEC's Oversight of SIPC

        The SEC has significant authority over SIPC. See, e.g., SlPC v. Barbour, 421
U.S. 412, 417 (1975) (under SIPA, SEC has "plenary authority to supervise the SIPC")
(internal quotation omitted). SIPC must provide the Commission with a written report of
its business as soon as practicable after the close of each fiscal year, including financial
statements setting forth SIPC's financial position and results of its operations (including
the source and application of its funds). 15 U.S.C. § 78ggg(c)(2). The SEC may also
make certain examinations and inspections of SIPC and require SIPC to provide certain
reports or records that it considers necessary or appropriate in the public interest. ld.
§ 78ggg(c)(I); see also Sr. TM Official Testimony Tr. at 17. Further, in the event that
SIPC refuses to commit its funds or otherwise act for the protection of its members'
customers, the SEC can bring art action in federal district court for an order requiring
SIPC to discharge its statutory obligations. ld. § 78ggg(b). Under SIPA, the SEC is
permitted to, on its own motion, file a notice of appearance in a SIPA liquidation and
"may thereafter participate as a party." ld. § 78eee(c).

         SEC regulations provide that SIPC oversight falls within the re~onsibility of the
SEC's Division of Trading and Markets ("TM"). 17 C.F.R. § 200.19a. Sr. TM Official
testified that he considers TM the SEC's "primary liaison with SIPC." Sr. TM Official
Testimony Tr. at 16; see also Gallagher Interview Tr. at 7 (TM "generally oversees the
day-to-day business of SIP C."). In the past several years, as SIPC's responsibilities have
increased with the ongoing Madoff Liquidation and Lehman Brothers bankruptcy
proceedings, its place within TM's portfolio has grown. Gallagher Interview Tr. at 7.
TM's oversight role includes regular conversations with SIPC staff about case status, TM
attendance at SIPC Board meetings, and correspondence with SIPC regarding various
items such as the amount available in the SIPC Fund and the status of different cases. Sr.
TM Official Testimony Tr. at 16.

        OGC Assistant General Counsel # 1 was the OGC attorney who oversaw the
Commission's bankruptcy litigation (of which SIPA proceedings were a part). OGC
Assistant General Counsel #1 Testimony Tr. at 13. She testified that TM had the primary
role in SIPC oversight within the Commission. ld. at 19. OGC Assistant General
Counsel #1 stated that because TM's SIPC oversight role was specified in the Code of

6 This regulation refers to the predecessor of the Division of Trading and Markets, which was the Division
of Market Regulation.

                                                    25 

Federal Regulations, she tried to be respectful ofthat role. Id. at 17-18. OGC plays a
role in the SEC's oversight ofSIPC, however, when there is a SIPC liquidation or
litigation or when ~uestions of statutory interpretation arise because of OGC's expertise
in bankruptcy law. Sr. TM Official Testimony Tr. at 17-18; Gallagher Interview Tr. at
7. OGC Assistant General Counsel #1 stated that whenever someone raised a SIPA issue
with her, she would contact Michael Macchiaroli, a TM Associate Director, or Sr. TM
Official to discuss and determine how to handle the issue. OGC Assistant General
Counsel #1 Testimony Tr. at 18-19.

             C. The Madoff Liquidation

         On December 15, 2008, the United States District Court for the Southern District
of New York granted SIPC's motion for a protective decree that BMIS customers were in
need of the protections available under the SIP A. Order, Docket No.4, SIPC v. EMIS,
Case No. 08-10791, at http://madofftrustee.comlCourtFilings.aspx. The court also
appointed Irving H. Picard as Trustee for the Madoff Liquidation and the law firm of
Baker & Hostetler LLP as counsel to Mr. Picard. Id. at 2. The order also removed the
proceeding to the United States Bankruptcy Court for the Southern District of New York.
Id. at 6.

        Pursuant to the Trustee's application, on December 23,2008, the bankruptcy
court entered the Housekeeping Order, which addressed the publication and mailing of a
notice of the commencement ofthe MadoffLiquidation. Ex. 42. The court's order
directed that both these events occur on or before January 9,2009. Id. On or about
January 2,2009, the Trustee caused the required publication of the notice and mailed
notice of the proceeding to customers and creditors, advising potential claimants of the
deadlines for filing claims. See Ex. 43. The mailing went to over 16,000 potential
claimants, including all persons and entities that, based on BMIS records, appeared to be
or have been a customer of BMIS at any time. Id.

      As discussed further in Section IV.D infra, the Trustee continues to administer the
Madoff Liquidation.

     II. 	   From the Outset, the SEC Played a Substantive Role in the Madoff
             Liquidation

              A. 	 As Early As December 2008, the SEC Began to Discuss Madoff
                   Liquidation Issues with SIPC

       Almost immediately after Madoffs December 11, 2008 confession was reported,
the SEC began working with SIPC on matters related to Madoff. Stephen Harbeck, the
President and CEO ofSIPC, stated that Sr. TM Official had called him shortly after the

7 NYRO Assistant Regional Director also had a role in interpreting SIPA issues. Sr. TM Official
Testimony Tr. at 18.

                                                   26 

confession stating that there had been a massive fraud at Madoff's brokerage firm, which
triggered an immediate and cooperative response between SIPC, TM, and the SEC's New
York Regional Office, and resulted in filing the Madoff Liquidation. Harbeck Interview
Tr. at 12~ 13. SEC staff also recalled that the SEC and SIPC began working together
almost immediately after Madoff confessed. Consistent with Harbeck's recollection,
Macchiaroli testified that the SEC staff called SIPC almost immediately after learning
about Madoff's scheme and before the December 24,2008 e-mail discussed below.
Macchiaroli Testimony Tr. at 18~20. Sr. TM Official also recalled that SIPC was
involved "from day one" and "agreed to go in immediately because [SIPC] could see the
need for that. But their next question was how ~- they wanted to coordinate with the
Commission on how the claims should be processed." Sr. TM Official Testimony Tr. at
18-19.

        Shortly after discussions between SIPC and the SEC began, SIPC expressed its
desire to reach a position quickly and to have the SEC and SIPC present a unified
position. The need to speak with one voice was particularly important to SIPC because in
a previous instance, SIPC believed that it had proceeded in accordance with its view of
the law, and the SEC entered the case at the appellate level and took a position contrary
to SIPC'S.8 Harbeck Interview Tr. at 13-14. Harbeck did not want such a situation to
recur and, therefore, ~'wanted to make sure that SIPC and the SEC agreed on a
methodology." Id. at 14. In addition, the need to act quickly was particularly important
because SIPC and the Trustee would have to start paying customer claims "very, very
soon." Id. at 17. The Trustee agreed that he wanted to obtain consensus from the SEC as
soon as possible because the claims process was starting "right after New Year's."
Picard Interview Tr. at 16-17. He explained, "Publication ofour notice [announcing the
commencement ofthe MadoffLiquidation] was January 2,2009, which meant within
days we would start getting claims, and hopefully start processing claims. It would be
very helpful if we were all on the same page doing it." Id. at 17. Accordingly, on
December 20, 2008, Harbeck sent an e-mail to Macchiaroli, stating: "I want to go into
the claims process in Madoff with the SEC and SIPC speaking with the same voice as to
what claimant should receive. Most specifically, I do NOT want the situation that
occurred in the New Times case to be repeated." Ex. 44. He also asked for a meeting
with the Commission "on an expedited basis." !d.

      The SEC understood that SIPC wanted to reach agreement on a position quickly.
Macchiaroli explained to the OIG as follows:

                  There had been a time where the Commission took a view
                  years ago opposite to what [Harbeck] thought would be the
                  Commission position. And so he always feared that that
                  would happen, all of a sudden that the Commission would

8In that case, the SEC did not participate in the district court proceeding, but filed a brief in the Second
Circuit taking a position different from SIPC's, and the Second Circuit adopted the SEC's position. See In
re New Times Sees. Servs.• Inc., 371 F.3d 68, 76, 83~87 (2d Cir. 2004).

                                                     27 

              reverse courses on what he thought the Commission's
              position was, and then suddenly they would change the
              position for whatever reason.

              So that was something that concerned him because he
              didn't want to be in effect exposed taking a position and
              find out that the Commission was opposing it. So he
              wanted to be sure he understood the Commission's
              positions and his preference was that there be general
              agreement on what those positions were.

Macchiaroli Testimony Tr. at 45-46. Similarly, Sr. TM Official testified:

              Q. Was SIPC concerned the Commission might not
              support it?

              A. yes.... Because they hadn't taken a formal vote or
              filed a claim, he thought that there is a the [sic] risk to SIPC
              that they might take a different view, even though SIPC
              started to pay claims out or had taken a position in court.

               Q. So it was very important for SIPC that the Commission
               approve of what they were doing[?]

               A. Yes.

Sr. TM Official Testimony Tr. at 42. NYRO Assistant Regional Director recalled similar
conversations with Harbeck, stating, "It must have been before [January 8,2009], at
about the time that the FBI took over and sitting with Steve Harbeck. And at that time
... he said to me you guys have to come up with a position quickly." NYRO Assistant
Regional Director Testimony Tr. at 16.

        On December 24, 2008, Harbeck sent another e-mail to Macchiaroli and Sr. TM
Official describing "issues SIPC and the SEC will face immediately in the Madoff case."
Ex. 45. The e-mail set forth various scenarios in which a determination would have to be
made as to a claimant's net equity. Jd. It also stated:

               But we need to also deal with the possible claimant who
               has withdrawn more than his original deposit, but has a
               statement reflecting significant existing securities positions.
               Other claimants who were not so lucky will want us to
               (a) deny any claim for such a person and (b) seek
               contribution from such a person. But how long to reach
               back under 78fff-2(c)(3), the Bankruptcy Code, and state
               law?

                                             28 

ld. (emphasis in original). When discussing this e-mail with the OIG, Harbeck confirmed
that even from the beginning, just days after Madoff confessed, the issue of clawbacks
was something that was discussed and at issue between SIPC and the SEC, explaining:
"[Y]ou cannot separate the correct calculation of claims, the constitution of the corpus of
assets known as customer property, and the concept of clawback. It is all of one -- you
must treat it as a cogent whole." Harbeck Interview Tr. at 16.

                B. 	 SIPC and the Trustee Advocated the Money InlMoney Out Method
                     of Determining Customer Net Equity

         From the outset of the Madoff Liquidation, SIPC consistently supported an
approach to net equity based on the difference between a customer's initial investment,
i.e., his principal, and any amounts withdrawn from the account over time, which was the
Money InIMoney Out Method. 9 Accordingly, a Madoffinvestorwould be able to make a
net equity claim for the amount that he initially invested, less any amounts that he
withdrew over time. On January 7,2009, personnel from both TM and OGC met with
Harbeck and others from SIPC. Harbeck Interview Tr. at 14; OGC Assistant General
Counsel #1 Testimony Tr. at 22, 52; see also Macchiaroli Testimony Tr. at 25; Ex. 46. In
preparation for that meeting, TM drafted a set of questions that were likely to come up in
the MadoffLiquidation. Ex. 46 at 2-3; Macchiaroli Testimony Tr. at 23. Those
questions included the calculation of a customer's net equity and "[w ]hat property, if any,
should SIPC seek to recover under Section 78fff-2(c)(3), [SIPA's] clawback provision?"
Ex. 46 at 2-3. The sub-categories under the latter issue stated: "a. Ifproperty should be
recovered, how far back should the recovery go? b. Ifproperty should be recovered,
should only those customers who have withdrawn more money than their initial deposits
be targeted? c. The trustee has broad powers to recover property that should be part of
the fund of customer property." ld. at 3.

        The questions presented also referenced and attached a contemporaneous
memorandum prepared by OGC Assistant General Counsel #1 at TM's request. ld.;
OGC Assistant General Counsel #1 Testimony Tr. at 20-21; see also Macchiaroli
Testimony Tr. at 24; Sr. TM Official Testimony Tr. at 23-24. The memorandum stated
that, among other things, the Trustee has "broad authority [to bring clawback actions] to
recovery [sic] property that should be part of the fund of customer property but has been
transferred by the debtor." Ex. 46 at 4. OGC Assistant General Counsel #1 testified that
her memorandum covered "what is the trustee's authority," and explained that "basically
Section 8(c)(3) [the clawback provision], to the extent there is insufficient money in the
fund of customer property allows.the trustee to bring the avoidance actions that are
available to trustees under the bankruptcy code." OGC Assistant General Counsel # 1
Testimony Tr. at 27-28. Thus, even at this early stage of working with SIPC, the SEC




9   The Money InlMoney Out Method is also referred to as the cash in/cash out method.

                                                    29 

understood that one of the primary issues to address in the Madoff Liquidation concerned
clawbacks. 10

         At the January 2009 meeting between the SEC and SIPC staff, SIPC presented the
principles that it and the Trustee had formulated to govern the payment of customer
claims, including the treatment of clawbacks and the determination of net equity. Ex. 48;
Harbeck Interview Tr. 16·17, 19,21·22; see also OGC Assistant General Counsel #1
Testimony Tr. at 22-23. These principles set forth SIPC's net equity position: "A
customer's net equity claim should be determined by computing the amount of money the
customer deposited with BMIS from the initial opening of the customer's account
forward ('principal') less any money withdrawn by the customer during that period." Ex.
48 at 1. SIPC's principles also addressed clawbacks: "Legal remedies to require
customers to return money withdrawn from BMIS should be used by the Trustee as
follows.... For withdrawals by any customer made within the fraudulent conveyance
statute oflimitations (generally up to six years), the trustee only will seek a return of
fictitiously reported interest, dividends, and gains (i.e., the trustee will not seek a return
ofprincipal)." ld. at 1-2 (emphasis in original). During that meeting, Harbeck again
stressed the need for agreement between the SEC and SIPC. OGC Assistant General
Counsel #1 Testimony Tr. at 22 ("Harbeck, in particular, was concerned that the
Commission and SIPC should be on the same side."); Harbeck Interview Tr. at 16-17.
        Shortly after the initial meeting with SIPC staff, TM circulated an Information
Memorandum to the Commission regarding the Madoff Liquidation, copied to, among
others, DGC. II Ex. 49. The memorandum noted that the liquidation "will raise a number
of issues relating to ... how customer claims should be satisfied given that transactions
and positions shown on customer account statements were fictitious and that many
customers withdrew funds from BMIS over the years based on fictitious interest,
dividends and gains." ld. at 2. It also stated: "After the net equity of each customer is
determined, SIPC will then need to decide how much customer property is available for
distribution. [SIPA's] 'clawback' provision ... gives trustees broad authority to recover
property that should be part of the fund of customer property." ld. at 4-5. The
Information Memorandum further noted SIPC's desire to agree on a position quickly,
stating: "SIPC would like to quickly reach a consensus with the Commission on these
issues to expedite its processing of customer claims." ld. at 2.

       On January 15,2009, the Commission considered the January 13,2009
Information Memorandum in a closed Executive Session, attended by TM Deputy

10 OGC Assistant General Counsel # I later circulated a final version of this memorandum. Ex. 47. Her
cover e-mail concluded: "The bottom line is that the SIPA Trustee should be able to recover payments for
both earnings and principal made within two years of the bankruptcy and payments for earnings made
within six years of the bankruptcy." ld.
II All four Commissioners testified that they generally recalled receiving these types of memoranda related
to the Madoff Liquidation, and that they or someone on their staff would have reviewed these memoranda.
Aguilar Testimony Tr. at 13. 15; Casey Testimony Tr. at 8; Paredes Testimony Tr. at 8; Walter Testimony
Tr. at 10. 13-14.

                                                    30 

Director Daniel Gallagher, Macchiaroli, Sr. TM Official, and OGC Assistant General
Counsel #1. Ex. 50. The minutes ofthis session stated:

               The staff briefed the Commission on the current status of
               the SIPC liquidation in the Madoffmatter.... Issues that
               will take more time to resolve include whether to attempt to
               "claw back" phony interest accrued and paid out in earlier
               redemptions. Staff said that they were reluctant to sue
               customers for return of redeemed funds, and that c1awbacks
               could disadvantage those with few withdrawals. SIPC,
               however, would like to pursue clawbacks.... Right now,
               SIPC is seeking Commission approval for their approach,
               including seeking c1awbacks. The staff is prepared to
               provide views on the first tranche payouts to recent
               investors who made no withdrawals and will continue to
               analyze the more complicated issues.

Id. at 1. A few weeks later, Gallagher attended a SIPC Board meeting and provided an
e-mail summary of that meeting: "SIPC is eager to get Commission feedback on their
proposed paradigm for paying customer claims and, importantly, clawing back money
that was withdrawn by investors. I informed the Board that we briefed the Commission
on SIPC's proposal. ..." Ex. 51; Gallagher Interview Tr. at 12. Gallagher recalled that
SIPC was pushing for the Commission to determine its approach, and that before SIPC
started paying BMIS investors, it "wanted feedback on the Commission's view of their
proposal." Gallagher Interview Tr. at 12-13.

         On February 11,2009, TM circulated a second Information Memorandum to the
Commission regarding the Madoff Liquidation, copied to, among others, OGC. Ex. 52.
The memorandum stated that SIPC had proposed a set of principles for handling
customer claims. Id. at 2. These principles were consistent with those SIPC presented at
the January 7, 2009 meeting and set forth the same Money In/Money Out Method of
calculating net equity and the same approach to seeking clawbacks from any customer
who made withdrawals during the applicable statute oflimitations period. !d.; compare
to Ex. 48. TM stated that it believed that it would be appropriate for SIPC to begin using
the Money In/Money Out Method to pay claims for those customers who opened their
accounts within the last year and had not made any withdrawals, but noted that "by
calculating the amount of the claims using the money-in/money-out principle, the trustee
would be committing to a claims determination process that does not recognize fictitious
interest, dividends, and gains (collectively 'returns') shown on account statements
provided to customers." !d. at 2-3. The memorandum also included a section addressing
"The Use of Avoidance Actions by the SIPC Trustee," which described the applicable
provisions of the bankruptcy code and SIPA. [d. at 5. It stated: "The SIPC trustee has
agreed to exercise a degree of discretion and not bring these actions in every instance. In



                                            31 

particular, the trustee has reserved the right to seek to recover withdrawals of fictitious
returns within the six year statute of limitations by any customer.,,12 Id.

       On February 12, 2009, the Commission considered the February 11,2009
Information Memorandum in a closed Executive Session, attended by former TM
Director Erik Sirri, Macchiaroli, Sr. TM Official, OGC Assistant General Counsel #1,
and NYRO Assistant Regional Director. Ex. 54. The minutes of the session stated:

                  The Staff briefed the Commission on the current status of
                  the SIPC liquidation in the Madoff matter. Mr. Sirri said
                  that SIPC would like to begin payouts with II payees who
                  had not withdrawn any money based on the 3 principles
                  outlined in the information memorandum. SIPC would like
                  for the staff to not object to their action. The Commission
                  and staff discussed the principles and possible inequities.

Id. at 1. The Commission asked that the staff raise two questions with SIPC regarding
the clawback of a SIPC advance and the timeframe of planned payouts. Id. A few days
after this meeting, TM circulated responses from SIPC to these two questions, which
Gallagher forwarded to Chairman Schapiro. Ex. 55.

              C. 	The SEC's Initial Consideration of Issues in the Madoff Liquidation
                  Included Clawbacks

         From the beginning, the issues presented by the Madoff Liquidation and
considered by the Commission included clawbacks. All four Commissioners recalled
that at least part of the issues that were before the Commission in the January and
February 2009 timeframe involved clawbacks. Aguilar Testimony Tr. at 14, 16; Casey
Testimony Tr. at 9, 11; Paredes Testimony Tr. at 9; Walter Testimony Tr. at 11, 12, 13­
14. Chairman Schapiro, however, did not recall being focused on clawbacks at that time.
Schapiro Testimony Tr. at 22.

        TM also recalled that clawbacks were part of the Madoff Liquidation analysis.
Sr. TM Official acknowledged that from the outset, clawbacks were part of the issues that
SIPC and the SEC would have to consider as part of the Madoff Liquidation. Sr. TM
Official Testimony Tr. at 21-22, 23. He also agreed that he and others in the SEC
determined quickly that in order for investors to have recovery in this case, there would
need to be clawbacks, and then the SEC considered issues of how clawbacks would work,
such as who would be subject to clawbacks, under what circumstances, and for what

12 On the same date as this Infonnation Memorandum, OGC Assistant General Counsel #1 circulated an
additional draft memorandum to TM personnel regarding certain principles that she understood TM was
recommending to govern decisions on claims detenninations and avoidance actions. Ex. 53. These
principles included the Money InlMoney Out Method and the concept that "[t]he SIPA Trustee may, in his
discretion, bring actions to recover payments that exceeded the amount of principal invested - i.e., fictitious
earnings." Id. at 2.

                                                      32 

amount. Id. at 24. Similarly, Gallagher recalled that one of the issues that the
Commission was considering was c1awbacks, including "how far back [clawbacks]
would go." Gallagher Interview Tr. at 16.

         In addition, OGC Assistant General Counsel #1 ofOGC also understood that
c1awbacks were part of the discussion. She described one of the "major issues" in the
Madoff Liquidation as "what would the trustee do with respect to exercising avoidance
powers to recover payments that had been made prior to the SIPA liquidation." OGC
Assistant General Counsel #1 Testimony Tr. at 21. She agreed that consideration of
clawbacks was part of the SEC's work with respect to the MadoffLiquidation and
testified, "It was important for the Commission to know that the trustee had the authority
to bring the avoidance actions." Id. at 21-22.
        As discussed above, SIPC viewed clawbacks as part of the issues considered by
SIPC and the SEC from the beginning of the Madoff Liquidation. Harbeck testified that
at the January 2009 meeting between SIPC and SEC staff, SIPC wanted to discuss how
one treated the correct calculation of claims, the constitution of customer property, and
the concept of clawback "as a cogent whole." Harbeck Interview Tr. at 16. Accordingly,
at the January meeting, Harbeck stated that if the Commission did not agree to its
proposed methodology, it could not simply reject the theory, but it had to come up with a
"cogent, unified theory that fit the law" and could not simply reject pieces of the
proposal. Id. at 16-17. The SIPC principles included an approach to clawbacks "because
you cannot separate the correct calculation of the claim from what is owed in terms of a
preference or a fraudulent transfer." [d. at 21. SIPC's view was that the SEC understood
the fact that "it was all one process" and that the net equity definition would affect
clawbacks. Harbeck explained:

               There is no question they understood it. Look at the
               principles in the discussion that -- look at the e-mail I sent
               on the first days. We were discussing the fact that you had
               to take into consideration fraudulent transfers and
               preferences as to reach an accurate number. There is no
               other way to do it.

Id. at 50.




                                             33 

             D. 	 The SEC Reached Consensus As to The Money InlMoney Out
                  Method

        On February 19,2009, Chairman Schapiro met with SIPC Chairman Armando
Bucelo, General Counsel Josephine Wang, and Harbeck. 13 Harbeck Interview Tr. at 22.
Gallagher also attended the meeting. Gallagher Interview Tr. at 17. Harbeck stated that
during that meeting, "Chairman Schapiro indicated that three, and possibly four, of the
commissioners were in agreement with the methodology and that all divisions of the
Commission had likewise agreed that our methodology was correct at law." Harbeck
Interview Tr. at 22. At this point in time, a few days before Becker rejoined the SEC,
Harbeck "understood that the Commission was set with going forward with the method
that [SIPC] had proposed," i.e., the Money InIMoney Out Method. Id. at 23. Gallagher
stated that at this point, the Commission did agree with the general outline of the SIPC
principles with regard to net equity, but that it wanted additional time to consider the
various issues associated with clawbacks. Gallagher Interview Tr. at 23-25.

        Harbeck again emphasized the need for SIPC and the SEC to agree on a position
on these issues and explained how he did not want a situation like that which occurred in
the New Times case to occur again. Harbeck Interview Tr. at 22; see a/so Gallagher
Interview Tr. at 19-20. Harbeck stated that Gallagher assured him this would not happen.
Harbeck Interview Tr. at 22. Gallagher stated that would be consistent with something he
would say, but that he could not make any promises to Harbeck. Gallagher Interview Tr.
at 20.

        During a SIPC Board meeting the following day, Harbeck reported on the
meeting with Chairman Schapiro. In the Board meeting, Harbeck informed the Board
that he had discussed both the proposed methodology for resolving claims and the
Trustee's intent to exercise discretion in deciding which clawback actions to seek under
the relevant laws. Ex. 57 at 1-2. Harbeck recalled briefing the SIPC Board as to "the fact
that we had met with Chairman Schapiro and ... that the proposed methodology for
resolving claims with Madoffwas discussed and that the Chairman of the SEC indicated
that she and most of the commissioners, but not all, agreed on the methodology."
Harbeck Interview Tr. at 23.

         Around this timeframe, TM also had determined that the Money InlMoney Out
Method was the appropriate method for determining net equity. 14 Sr. TM Official
testified that TM initially determined that the Money InlMoney Out Method was the


13 Chainnan Schapiro did not specifically recall attending the meeting, but contemporaneous documents
and the statements of other witnesses indicate that she did. See, e.g., Gallagher Interview Tr. at 17;
Harbeck Interview Tr. at 22; Ex. 56; Schapiro Testimony Tr. at 23.
14 On May 13,2009, OGC Assistant General Counsel #1 discussed the Money InlMoney Out Method in an
e~mail to NYRO Assistant Regional Director and stated, "TM has already blessed the Trustee's approach
and the Commission was infonned of it at the meeting back in March." Ex. 58; OGC Assistant General
Counsel #1 Testimony Tr. at 46-47.

                                                   34 

appropriate methodology and agreed that from TM's perspective, any subsequent change
from the Money InlMoney Out Method was a change from the original approach. Sr. TM
Official Testimony Tr. at 43, 68. Gallagher similarly recalled that with respect to the
Money InlMoney Out Method, TM was "on board much earlier than" the February 2009
timeframe and had supported this approach "[e]ver since the first Commission briefing."
Gallagher Interview Tr. at 28. Macchiaroli testified that the SIPC principles, including
the Money InIMoney Out Method, were not different from TM's thinking at that time.
Macchiaroli Testimony Tr. at 32.

        Harbeck sent a letter to Gallagher on February 26, 2009 to summarize SIPC's
understanding of the items that were discussed and conclusions reached during the
February 19,2009 meeting. Ex. 56. The letter stated: "After discussing [the SIPC
principles], it was communicated during the meeting with Chairman Schapiro that a
majority of the Commissioners agreed to this general outline, but that, in light of the
Commission's desire to act by unanimous consensus in most instances, a bit more
discussion was necessary." Id. at 3. Harbeck stated that as of this time, he understood
that the Commission was set with going forward with the method SIPC had proposed, the
Money InlMoney Out Method. Harbeck Interview Tr. at 23. Chairman Schapiro testified
that she had no reason to dispute what Harbeck had said in this letter to Gallagher, and
Gallagher did not recall believing that the letter mischaracterized anything. Schapiro
Testimony Tr. at 26; Gallagher Interview Tr. at 22.

        On March 10,2009, Harbeck sent another letter to Sirri, then TM's Director, with
a copy to Becker, Gallagher, and Macchiaroli. Ex. 59. That letter again set forth the
principles with which SIPC and the Trustee proposed to review, determine, and satisfy
customer claims. Id. at 2-3. The letter stated: "During a telephone conversation on
March 6, 2009, members of your staff indicated that the Division of Trading and Markets
concurs in the principles as set forth above. SIPC takes great comfort in that
concurrence. Representatives of the General Counsel's Office attended and participated
in the earliest meeting between our respective organizations on this subject.,,15 Id. at 3.
    III. 	 Becker Returned to the Commission Late in February 2009 and Disclosed
           His Interest in a BMIS Account to Chairman Schapiro

             A. 	 Becker Joined the Commission as General Counsel and Senior Policy
                  Director in February 2009

        Becker served as the Commission's General Counsel during two separate time
periods. He initially served as Deputy General Counsel from October 1998 through
December 1999 and as General Counsel from January 1, 2000 through May 2002. 16 On

IS Indeed, OGC Assistant General Counsel #1 recalled attending the January 2009 meeting with SIPC.
OGC Assistant General Counsel # 1 Testimony Tr. at 22.
16 See Becker Testimony Tr. at 8-10; SEC Press Release No. 99-166, David Becker Named General
Counsel (Dec. 7, 1999), http://sec.gov/ news/presslpressarchivelI999/99-166.txt; SEC Press Release No.
98-118, David Becker and Meyer Eisenberg Named Deputy General Counsels (Oct. 29, 1998),

                                                   35 

February 6,2009, the Commission announced that Becker would rejoin the Commission
as its General Counsel and Senior Policy Director. SEC Press Release No. 2009-20,
David M. Becker Named SEC General Counsel and Senior Policy Director (Feb. 6,
2009), http://sec.gov/newsipressl2009/2009-20.htm;seealso Becker Testimony Tr. at lO­
ll. Becker began his second tenure with the Commission on February 23,2009. Ex. 60.
Becker testified that at the time that he agreed to return to the SEC, he told Chairman
Schapiro that he "did not see [himself] doing it for longer than two years." Becker
Testimony Tr. at 11. The Chairman testified that she understood that Becker was making
a limited commitment in terms of timing. although she could not recall whether the
commitment was specifically for two years. 17 Schapiro Testimony Tr. at 8; see also Cahn
Testimony Tr. at 11-12 (Becker ''mentioned to me that he didn' t expect to stay at the
Commission longer than a couple of years.").

      In her testimony. Chairman Schapiro noted that the SEC faced a significant
number of challenges around the time that she hired Becker:

                 The agency was really reeling is, I think, a fair way to
                 describe it. The failure of Lehman Brothers and Bear
                 Steams and the Consolidated Supervised Entity Program ...
                 Madoffhad been - had confessed and been arrested ...
                 maybe two months before I arrived.

                 There were vacancies at the senior levels. Morale was not
                 great. There were just lots and lots of issues that permeated
                 the agency at that time.
                                                                                                         FOIA
                                                                                                         Exemption 5


                                                        to address
[nsp",:tor G",er,ol reports    needed to be res()lved.and the SEC faced questions as to
the appropriateness of its overall structure. /d. at 13-14.

       Chainnan Schapiro "[a]bsolutely" agreed that one ofthe biggest issues facing the
SEC at that point was Madoff. Id. at 8-9. In particular, the Chairman wanted to

http://sec.gov/newsipressipressarchivelI998/98· 118.txl; SEC Press Release No. 2002-5 I, Giovanni
Prezioso Named SEC General Counsel (April 3, 2002), hup:/Isec.gov/newsipress/2002·51.txl. After his
firsl tenure at the Commission, Becker returned to privale law practice. Becker Teslimony Tr. al 10.
17 Indeed, on February I, 2011, the Commission announced thai Becker was leaving the Commission at the
end of the month. SEC Press Release No. 2011·)4, SEC General COllnsel Dal'id Becker (0 Leave
Commission (Feb. 1,2011), http://sec.gov/newsipressl20ItnOII·34.htm. The OIG investigation found
that this announcement preceded Becker's knowledge of Ihe clawback suil against him based upon his
molller's estate's BMIS account. See Seclion VII infra. The lasl day of Becker's second tenure at the
Commission was February 25, 2011. Becker Testimony Tr. at II; Ex. 60. Becker testified lIlal the
c1awback suit had nothing to do with his departure from the SEC. Becker Testimony Tr. alII .



                                                  36 

detennine what aspects of the examination and enforcement programs had allowed the
SEC to miss Madoffs Ponzi scheme over such a long period of time and whether there
were regulatory provisions that could improve the SEC's capabilities. Id. at 9. Becker
also explained that when he returned to the Commission:

                    It was certainly clear to me that what I'll call the Madoff
                    event was very significant in the Commission's history, had
                    been a body blow to the Commission, and that one of the
                    things that I wanted to do was to help the Commission
                    through this time and use what we learned from it to
                    strengthen the Commission.

Becker Testimony Tr. at 26.

                B. 	 Around the Time that Becker Returned to the Commission, He and
                     Chairman Schapiro Discussed His Mother's BMIS Account

         Both Becker and Schapiro recalled that, around the time of his return, Becker
discussed his mother's estate's BMIS account with Chainnan Schapiro. IS Becker
testified that he principally recalled the fact of the conversation. Becker Testimony Tr. at
24. He testified: "I recall, I believe, that 1 told her that I just learned that my mother had
had an account with Madoff. And other than that, ... I believe I told her, because this
would have been the only point of telling her this, that I had inherited some of the
proceeds of that account. ... I may have told her that the money was used to pay estate
taxes." Id. Becker also stated that he must have told the Chainnan "that like everything
else, I would consult with [SEC Ethics Counsel William] Lenox before I did anything
with this ... I'm sure I must have mentioned that to her." Id. at 25. He could not
specifically recall when the conversation occurred, but stated that his "instinct" was that
it was probably before he returned to the Commission, "because the whole point of [his]
raising it with her is to let her know about something that she might consider
significant.,,19 Id. Becker also testified that his "guess" would be that he infonned the
Chainnan that the account included about $2 million and that he was aware of the
possibility of a clawback action, but he did not have a specific recollection of telling her
either ofthese facts. Id. at 28-29.

       Chainnan Schapiro testified that she recalled a conversation with Becker
regarding his mother's account, and she believed, but was not certain, that it was after he


18   Becker's February 2009 discussion of this account with the SEC Ethics Office is discussed at Section
XI.C infra.
19 Becker's testimony is generally consistent with his February 25, 2011 letter to Chainnan Spencer Bachus
of the House Committee on Financial Services, in which he stated that he recalled telling Chainnan
Schapiro either shortly before or after he returned to the SEC that his "mother's estate, of which [he] was a
beneficiary, had included a Madoff account that had been liquidated years before Mr. Madoff confessed to
operating a Ponzi scheme." Ex. 61 at 2.

                                                      37 

returned to the Commission. Schapiro Testimony Tr. at 11-12. Chairman Schapiro
recalled that during that conversation, Becker told her that "his mother had had an
account at Madoff: She had died ... five or six years before. The account had been
liquidated, and really that's all." Id. at 12. Chairman Schapiro did not remember:

                 whether [Becker] had told [her] in that conversation they
                 had inherited any money out of that account. I had
                 understood the account was closed, so I definitely did not
                 understand that he had inherited the account. Whether he
                 had inherited proceeds from the account, I honestly don't
                 remember whether in that conversation he had told me that,
                 certainly no dollar value or anything like that.

Id. She also did not recall knowing "whether it was an account that made money or lost
money or is exactly the same as when it was opened." Id. at 12-13.

        Chairman Schapiro did not recall asking Becker any questions after he told her
about his mother's account. Schapiro Testimony Tr. at 13. She also did not recall
whether Becker said anything about seeking advice from the Ethics Counsel regarding
the account. Id. at 14-15. At that time, Chairman Schapiro did not consider Becker's
personal financial gain "in any way, shape, or form" or whether he would be subject to a
c1awback action. ld. at 15. Indeed, Chairman Schapiro testified that she would have had
Becker recused from the net equity determination if she had known he was potentially
subject to a c1awback suit or ""understood that he had any financial interest in how this
[was] resolved ...." Id. at 80.

        At the time of her initial conversation with Becker around the time that he
rejoined the Commission, Chairman Schapiro did not consider there to be any issue from
an ethical perspective with respect to a potential appearance of impropriety because the
account was his mother's, not his, and it seemed remote from "anything [the SEC was]
dealing with at that moment." Schapiro Testimony Tr. at 17. Chairman Schapiro stated
that Becker did not give her any indication that it was not remote. 20 Id. Chairman
Schapiro recalled that Becker's tone during the conversation was "fairly matter of fact
...." Id. at 15.
     IV. 	   Becker and OGC Determined the Staffs Recommendation to the 

             Commission on the Net Equity Issue 


        In May 2009, the Commission began to receive submissions from various groups
of claimants who did not agree with the Money In/Money Out Method for determining
customers' net equity. See Section IV.A infra. When these submissions started to arrive,
OGC, and particularly Becker, began to take the lead in the consideration of this issue.

20Chairman Schapiro's testimony is consistent with other accounts she has provided of this conversation
with Becker. See Exs. 62-64.

                                                   38 

Macchiaroli testified that OGC's role in the net equity discussions was "substantial" after
Becker rejoined the Commission. Macchiaroli Testimony Tr. at 42. NYRO Assistant
Regional Director testified that at the end of the day, Becker's position was going to be
the position taken by OGC. NYRO Assistant Regional Director Testimony Tr. at 81.
OGC drafted the advice and information memoranda that the Commission considered
when determining its position on the appropriate method ofdetermining net equity.
Conley Testimony Tr. at 35, 37-38.
         Specifically, Gallagher explained that around the June 24,2009 timeframe, OGC
"took the lead in the analysis of the SIPC-Madoffpayouts." Gallagher Interview Tr. at
42. Indeed, on June 2, 2009, Gallagher asked for a meeting with the Chairman to talk
about the SEC's approach on SIPC's Madoffpayouts, copying Becker on the e-mail
request and stating that "David [Becker] may want to join." Ex. 65. Gallagher explained
to Becker that the purpose ofthe meeting was to "make sure we are all on the same page
as we seem to be changing direction from the paradigm the commission approved earlier
this year." Ex. 65; Gallagher Interview Tr. at 36-37. Becker replied that he would be
glad to join the meeting and also indicated that he "had thought that we were still talking
about whether to do so [i.e., change direction].,,21 Ex. 65. When discussing this e-mail
with the OIG, Gallagher stated that he "recall [ed] thinking that there was potential to
revisit some of what we had already presented to the Commission, and [he] wanted to
make sure that everybody was on the same page." Gallagher Interview Tr. at 37. He also
stated that he recalled "that there was just a discussion of reopening the discussions ....
[and] that what [he] viewed as settled matters were being revisited ...." Id.

        The Chairman agreed that it "[was] fair to say" that Becker was her "point
person" on the Madoff Liquidation issues because these were technical statutory
interpretations and "complex, detailed legal questions" in an area where she had no prior
experience. Schapiro Testimony Tr. at 37. In the June 2009 timeframe, Chairman
Schapiro had several e-mail exchanges with Becker regarding the status of the net equity
discussions. For example, on June 2,2009, Chairman Schapiro forwarded to Becker an
e-mail from a SIPC Board member, to which he responded, "We won't suggest [the
SEC's position] until we've heard everybody out and we're comfortable that we're taking
into account prior history in a constructive way." Ex. 68. Also, on June 8, 2009, the
Chairman forwarded to Becker a New York Times article regarding a Madoff customers'
group and asked him "how did it go with the lawyers[.]" Ex. 69.

        SIPC personnel also believed that OGC took the lead on these issues after Becker
rejoined the Commission. Harbeck agreed that it was OGC taking the lead, as opposed to
TM, and stated that on May 20,2009, he informed SIPC's Board via e-mail as follows:




21 Although neither the Chairman nor Gallagher recalled any specific details regarding that meeting,
contemporaneous e-mails and calendar entries reflect that such a meeting occurred. Ex. 66; Ex. 67;
Schapiro Testimony Tr. at 36; Gallagher Interview Tr. at 36-37.

                                                    39 

                 [N]otwithstanding the SEC's supposed support and
                 agreement to a methodology for claim satisfaction in the
                 Madoff case, we were asked to justify our position as a
                 matter oflaw. Josephine Wang [SIPC General Counsel]
                 did so in an extremely good letter to the SEC's Office of
                 General Counsel last week.
                 Now the staff of the Commission has come up with a less
                 than fully formed alternative ... [that] [t]heyare floating
                 months after we implemented the money-in minus money­
                 out methodology. From what we have been told orally, the
                 alternative is not only not supported by SIPA, but in direct
                 contradiction with the statute. I believe this is coming from
                 the Office of the General Counsel. We will be meeting
                 with the SEC staff on either Friday or ideally Tuesday to
                 discuss this matter and possibly, preliminarily, respond to
                 the alternative.

Harbeck Interview Tr. at 32-33; Harbeck Interview Mem. at 2. Wang agreed, stating that
TM, at least initially, was SIPC's contact within the SEC, but that after Becker rejoined
the SEC, aGe became SIPC's contact or at least became more vocal about its position.
Wang Interview Tr. at 13. Wang also agreed that in meetings and phone calls with
Becker, he was the leading voice or one of the leading voices for the SEC. Id. at 14.

              A. 	 The Commission Received Submissions from Former SEC
                   Commissioner Nazareth and Others In Support of the Last Account
                   Statement Method for Determining Net Equity

        About two months after Becker's return to the SEC, Becker received a letter dated
May 1, 2009 ("May 1 Letter") from various law firms on behalf of a group of similarly­
situated clients who had accounts at the time that the Madoff fraud was discovered and
BMIS failed and who would be protected by SIPC,z2 Ex. 70; Nazareth Interview Mem. at

22 The May 1 Letter did not name any specific clients and stated only that they wrote "on behalf of
customers of [BMIS]." Ex. 70 at 1. At the time of the May 1 Letter, none of the firms who signed the May
1 Letter had entered an appearance or made a filing in the MadoffLiquidation. On November 12,2009,
Karen Wagner of Davis Polk & Wardwell filed a Notice of Appearance in the MadoffLiquidation on
behalf of herself, Denis J. McInerney (who also signed the May 1 Letter), and others to represent Sterling
Equities Associates, Arthur Friedman, Saul Katz, David Katz, Gregory Katz, Michael Katz, L. Thomas
Osterman, Marvin Tepper, Fred Wilpon, Jeffrey Wilpon, Richard Wilpon, and Mets Limited Partnership.
Ex. 71.
    On November 13,2009, Richard Schwed of Shearman & Sterling LLP filed a Notice of Appearance in
the MadoffLiquidation on behalf of himself, Stephen Fishbein (who signed the May 1 Letter), and James
L. Garrity, Jr. identifying the various Shearman clients on Exhibit A. Ex. 72. On November 13,2009,
Carole Neville of Sonnenschein Nath & Rosenthal, LLP filed an opposition on behalf of the "Sonnenschein
Investors," who were listed on an exhibit to the opposition. Opposition and Exhibit A, Docket No. 784,
SIPC v. BM/S, at www.madofftrustee.comlCourtFilings.aspx. On November 13,2009, James Smith of

                                                   40 

3. The first of the law firm signatories to the May 1 Letter was the law firm of Davis
Polk & Wardwell, including, specifically, Annette Nazareth, who was a former SEC
Commissioner and TM Director. 23 Ex. 70 at 14; Nazareth Interview Mem. at 1. The
May 1 Letter advocated use of a method based upon a customer's BMIS account
statement, i.e., the Last Account Statement Method, to determine a claimant's net equity.
Ex. 70; Nazareth Interview Mem. at 3. The Last Account Statement Method defined net
equity as the amount indicated on the face of the last account statement a BMIS customer
received in November 2008. Ex. 70. Under this approach, a customer's claim would be
the amount listed in his account at the time he received his last statement. Nazareth said
that she and the other signatories sent the May 1 Letter because SIPC and the Trustee
were taking a different position, and it was clear that the SIPC/Trustee view would
prevail unless the SEC objected. Nazareth Interview Mem. at 3. Nazareth stated that she
knew that OGC typically handled such issues for the SEC and that Becker "would have
been in charge of advising the Commission of what its position should be on this very
important issue." Id. at 4. After sending the May 1 Letter, Nazareth sent Becker an e­
mail alerting him that he would be receiving a letter that her firm and others had signed.
Ex. 74.

        Nazareth told the 010 that she wanted Becker to be involved in the consideration
of the May 1 Letter. Nazareth Interview Mem. at 4. Specifically, she stated that she
thOUght it would be good for him to attend the meeting that her colleagues hoped to
organize to discuss the May 1 Letter. Id. She said that, if it was possible for Mr. Becker
to attend, she and her colleagues "wanted to schedule around his ability to be there
because he ultimately would be the decision maker and [they] thought it was important
that he hear the arguments directly." Id.



Dewey & LeBoeuf LLP filed a Notice of Appearance in the Madoff Liquidation on behalf of himself, Seth
Farber (who signed the May 1 Letter), and Kelly Librera to represent Ellen G. Victor, in her capacity as
holder ofcertain BMIS accounts. Ex. 73.
23 The OIG investigation did not find any evidence that Nazareth received preferential treatment from the
SEC. Indeed, the SEC ultimately rejected the Last Account Statement Method. See Section IV.E infra.
Nazareth stated that she became involved in this matter because she was one of the technical experts at her
firm on securities matters and knew how SIPC worked. Nazareth Interview Mem. at 4. When asked
whether it would have been helpful for her to be out front on this issue since people at the SEC knew her,
she stated: "No." Id. at 4. Although many people at the SEC knew Nazareth, it was her understanding that
the law firms that signed the May 1 Letter were "one of many groups" that came in to meet with the
Commission on this issue and that there was "nothing unusual about this." Jd. at 4. Becker testified to the
OIG that the fact of Nazareth's background did not have any impact on the decision to consider the Last
Account Statement Method and had no bearing on what he did in this case. Becker Testimony Tr. at 62.
See, e.g., NYRO Assistant Regional Director Testimony Tr. at 66-67 (fact that Last Account Statement
Method was submitted by Nazareth "had no impact on my view" and "didn't sway my opinion"); OGC
Assistant General Counsel #1 Testimony Tr. at 39 ("Q. Did that provide any greater weight to the letter
because it came from somebody who was known at the Commission? A. Not with me. It was always
going to be what does the statute provide and what does the controlling authority provide."); Sr. TM
Official Testimony Tr. at 47 (opinion not "affected at all by the fact that she was former director a former
commissioner who was making this argument").

                                                    41 

        At the time of the May 1 Letter, Nazareth was aware that Becker's mother's estate
had held a Madoff account. Nazareth Interview Mem. at 2. She recalled discussing the
account with Becker in February 2009 after the New York Post published a list of
Madoff's victims, and Becker noted that his mother's name was on the liSt. 24 Id.
Nazareth stated that she and Becker did not discuss clawbacks in technical tenns, but that
they spoke generally about the fact that the estate had been liquidated. Id. Nazareth
stated that she and Becker both viewed it as "sort of implausible" that the trustee was
going to try to reach back and take money from innocent people or even from estates of
innocent people whose accounts had been liquidated years before. !d. at 3. She further
stated that both she and Becker thought this thing was "such a mess," but that his issues
were "long gone." Id. Becker did not recall this conversation with Nazareth or
specifically how he learned of his mother's estate's account, although he generally
believed that he learned of the account around February 2009. Becker Testimony Tr. at
22-23.

        Around the time that Becker received the May 1 Letter, the SEC received
submissions from other groups of investors in support of the Last Account Statement
Method and held meetings with such groups. Ex. 75; Ex. 76; Sr. TM Official Testimony
Tr. at 36-39. OGC Assistant General Counsel #1 testified that at the end of a meeting
with attorneys from the Lax & Neville finn (which had also made a submission in
support of the Last Account Statement Method, see Ex. 76), Becker stated "that we were
doing everything we could to get investors as much relief as possible consistent with
SIPA, but that it would, of course, have to be consistent with what SIPA allowed, and
that we would certainly take into consideration the arguments that they were making."
OGC Assistant General Counsel #1 Testimony Tr. at 62.
              B. 	 Beeker and OGC Attempted to Craft An Approach Based on the
                   Last Account Statement Method

         After receiving the submissions supporting the Last Account Statement Method,
Becker and OGC gave serious consideration to that method. Becker testified that the
May 1 Letter was his "first indication" of this potential issue. Becker Testimony Tr. at
40. He stated that his initial reaction was to educate himself and then "to hear what these
folks had to say," which "struck [him] as very interesting." Id. at 52. Becker explained
that, as a general matter, his view was that he wanted the Commission to take the position
that allowed the greatest recovery to investors consistent with the law, and the approach
was "to meet with a variety of people and to push them very hard on their legal analysis."
Id. at 53-54.

24 The first publication of the list of Madoff investors occurred in a February 4, 2009 court filing, and
various media outlets, including the NY Post, published coverage of the list (including the list itself) shortly
thereafter. See Bruce Golding, Full List ofMadofJVictims Released, N.Y. Post, Feb. 4, 2009, at
http://www.nypost.com!p/news/regionallitem_G2xCNoQk5Y wetHgOfi JoKO;jsessionid=7FFEC591 FCFF2
2531EA30BCCFDOE6169. Accordingly, Becker's discussion with Nazareth would have occurred
sometime after February 4, 2009 and, accordingly, most likely after Becker had agreed to return to the SEC
as General Counsel, which was announced on February 6,2009.

                                                      42 

        Shortly after receipt of the May 1 Letter, OGC Assistant General Counsel #1
asked SIPC to provide a written explanation of why the method proposed by SIPC and
the Trustee to establish net equity claims was appropriate in this case and consistent with
SIPA. Ex. 77. On May 14,2009, Wang sent a letter to OGC Assistant General Counsel
#1 providing that explanation and analysis, with copies to Becker and others. Id. After
receiving SIPC's submission, OGC Assistant General Counsel #1 prepared a
memorandum analyzing the two approaches under consideration (i.e., the Money
InlMoney Out Method and the Last Account Statement Method) and concluded that the
Money InlMoney Out Method was more sound legally. Ex. 78; OGC Assistant General
Counsel #1 Testimony Tr. at 50. At that time, Becker stated, "This is very persuasive.
Assuming the assets available are dwarfed by the claims, I don't see the basis for
favoring the customers who withdrew money over those who haven't." Ex. 79.

        On May 19, 2009, Becker participated in a meeting with Nazareth and other
signatories of the May 1 Letter, along with staff from OGC and TM. Becker Testimony
Tr. at 54; OGC Assistant General Counsel #1 Testimony Tr. at 40; Macchiaroli
Testimony Tr. at 48; Nazareth Interview Mem. at 5; see a/so Sr. TM Official Testimony
Tr. at 45. Becker testified that he recalled this meeting, where he pushed on what he
called a "ridiculous" approach seeking recovery of "totally fictitious profits." Becker
Testimony Tr. at 54. After that meeting, Becker, along with SEC Solicitor Jacob
Stillman, suggested a related approach: "that claims be settled based upon amounts on
account forms (including purported profits) up to $500,000 SIPA coverage, with fund of
customer property distributed accrding [sic] to amount invested less amount withdrawn."
Ex. 80; OGC Assistant General Counsel #1 Testimony Tr. at 56. OGC Assistant General
Counsel #1 ultimately drafted a memorandum that she forwarded to Becker and others
setting forth this bifurcated approach in more detail, which she described as a "new
approach based on our discussion last week after meeting with counsel for the
customers." Ex 81. Thereafter, OGC Assistant General Counsel #1 drafted a letter to
SIPC for Becker's signature, based on the premise that "a persuasive case can be made
that, under the Second Circuit's New Times decision, net equity should be based upon the
amounts shown on the account statements." 25 Ex. 83.

        On June 2, 2009, personnel from the SEC and SIPC met in advance of a meeting
scheduled with the Trustee for June 4,2009 to explain OGC's current approach to the net
equity issue. Ex. 84. In an e-mail regarding that meeting, OGC Assistant General
Counsel #1 stated that certain issues needed to be discussed, including: "Clawbacks­
Has the trustee developed guidelines on the types of distributions that will be subject to



25Although this letter was not sent, OGC Assistant General Counsel #1 testified that she would not have
prepared something for Becker's signature that did not reflect what he believed. OGC Assistant General
Counsel #1 Testimony Tr. at 64. Moreover, the approaches set forth in the letter are consistent with what
the SEC presented to SIPC a few days later, as OGC Assistant General Counsel # 1 described via e-mail to
Wang. Ex. 82.

                                                   43 

recovery as fraudulent transfers/preferences?,,26 Id. OGC Assistant General Counsel
#1 's e~mail also attached a memorandum summarizing the June 2,2009 meeting with
SIPC staff, which noted that Harbeck made clear his view that OGC's suggested
bifurcated approach was prohibited by SIPA. Id.

        TM also did not agree with the bifurcated approach that OGC advanced. After
the June 2, 2009 meeting with SIPC, Gallagher asked Macchiaroli, Sr. TM Official, and
others in TM what the plan was "for coordination with GC during [the June 4] meeting
when we may not agree with their analysis. You can bet that Harbeck will ask us if we
agree." Ex. 86. Macchiaroli responded, "He asked yesterday. We expressed no views.
We said it was a matter for the Commission." Id. Macchiaroli told the OIG that at that
time, TM did not agree with the OGC approach but did not say anything specific to SIPC
about their disagreement. Macchiaroli Testimony Tr. at 61; see also Gallagher Interview
Tr. at 40 ("we didn't want to show two sides to the sitting ... agency.").

        Macchiaroli testified that TM did not favor OGC's proposed bifurcated approach
and "thought that the statute was written differently," and that in his opinion "this is a
view that's different from the way we generally understood the way SIPC works."
Macchiaroli Testimony Tr. at 58. Sr. TM Official testified that he "thought that [the
bifurcated approach] was dismissed quickly because it was just not consistent with the
statute at all," and he "never thought that was a credible argument." Sr. TM Official
Testimony Tr. at 63. See also Gallagher Interview Tr. at 40.

        Attendees of the June 4, 2009 meeting included Becker, OGC Assistant General
Counsel #1, Sr. TM Official, Macchiaroli, Harbeck and Wang from SIPC, Trustee Picard
and his counsel David Sheehan, and personnel from FTI Consulting, which was acting as
a consultant to the Trustee. Ex. 87; see also Picard Testimony Tr. at 21; Harbeck
Interview Tr. at 38. Wang described her recollection of Becker's position at the June 4,
2009 meeting:
                 [Becker] was very persistent on the view that the last
                 account statement should be the measure of what customers
                 were owed, which meant that you would basically
                 recognize and honor fictitious profits.

                 And I remember that he was relying on New Times, the
                 first New Times decision in 2004, and so were we, but we
                 seemed to have a miscommunication or misunderstanding
                 that he was relying on one part of the decision and we were
                 relying on another part.

26 It appears that clawbacks may have been discussed at one or both of these meetings. As noted above,
aGC Assistant General Counsel #1 's e-mail summary of the June 2,2009 meeting referred to clawbacks.
Moreover, about two weeks later, another attorney from OGC who attended the meeting noted to OGC
Assistant General Counsel #1 that a follow-up e-mail from the Trustee's counsel did not "mention where he
was on publically announcing limitations on avoidance actions." Ex. 85.

                                                   44 

Wang Interview Tr. at 12. Picard recalled Becker stating, "[W]e have to come up with a
creative and political solution.,,27 Picard Interview Tr. at 22.

             C. OGC Continued to Consider the Last Account Statement Method
                and Other Possible Methods During the Summer of 2009

         After the meetings with SIPC and later in June 2009, there was concern that
certain court deadlines could make it necessary for the Commission to commit to a
position on an expedited basis. OGC Assistant General Counsel #1 Testimony Tr. at 73­
74; Ex. 88. However, the court ultimately set a schedule that required briefs to be filed
later in the year. OGC Assistant General Counsel #1 Testimony Tr. at 74. On June 24,
2009, OGC Assistant General Counsel #1 circulated to Becker and others a draft Action
Memorandum recommending the position the Commission should take in the Madoff
Liquidation on the appropriate determination of net equity. Ex. 89. The draft
memorandum identified the novel question of law as whether SIP A permits a customer to
receive a claim for net equity "based upon an account statement showing fictitious
transactions in real securities at prices that are consistent with reported prices of the real
securities and reflecting fictitious earnings that are consistent with reported earnings on
those securities." ld. It also set forth two alternatives as described in the draft June 1,
2009 letter to SIPC. ld. at 17-22.

       The draft memorandum acknowledged that OGC was aware ofSIPC's and the
Trustee's concern about the interplay between the Last Account Statement Method and
clawbacks:

                 SIPC and the Trustee are concerned that the bankruptcy
                 court will find it inconsistent to allow the Trustee to bring
                 avoidance actions to recover fraudulent transfers of
                 fictitious profits and at the same time pay customer claims
                 based on fictitious profits (as would happen under the final
                 account statement method). If the court were to limit the
                 trustee's ability to bring avoidance actions, SIPC believes
                 that the estimated $6 billion in recoveries could be reduced
                 to an estimated $1.8 billion. While this is certainly a matter
                 of concern, we are not convinced that this would happen.
                 SIPC and the Trustee do not point to any provision in the
                 Bankruptcy Code that would prevent a court from allowing
                 both claims for fictitious profits and recovery of avoidable
                 transfers based on fictitious profits. Assuming the


21 Also at the June 4, 2009 meeting, Harbeck told Gallagher: "This is the meeting you said I would never
have to go to." Harbeck Interview Tr. at 41; Gallagher Interview Tr. at 41. Harbeck was concerned that,
like in the New Times case, the Commission initially had adopted a position and was now moving away
from that position, and Gallagher was also concerned about that issue. Gallagher Interview Tr. at 41-42.

                                                   45 

              requirements for avoiding a preferential or fraudulent
              transfer were met, it is unclear what the bankruptcy court's
              basis would be for denying a trustee's action to recover
              such transfers.

Id. at 17.

       Around this same timeframe, on June 25,2009, Chairman Schapiro met with
SIPC Chairman Armando Bucelo and Harbeck, and Becker recalled attending that
meeting. Schapiro Testimony Tr. at 45-46; Sr. TM Official Testimony Tr. at 73;
Harbeck Testimony Tr. at 40; Becker Testimony Tr. at 55. In preparation for that
meeting, TM prepared an agenda setting forth the various issues that were likely to be
discussed. Ex. 90; Sr. TM Official Testimony Tr. at 69. The agenda was drafted from
SIPC's viewpoint and provided talking points for TM's response. For example, the
agenda stated:

              Claims have been processed using a methodology, and a
              calculation of claims values, that was thoroughly reviewed
              by and extensively discussed with Commission staff. At
              our February 19, 2009, meeting, SIPC was informed that
              each Commissioner had been briefed on this issue as well.
              Now, months into the process and after committing $170
              million of the SIPC Fund based upon an agreed upon
              method, SIPC understands that some staff members of the
              Commission may seek to have SIPC and the Trustee
              change that methodology and calculation of claims values.
              Although the proposed change has never been fully
              explained, the proposed change as SIPC understands it is
              contrary to the SIPA statute ....

               TM Staff Response

                  • 	 The staff is exploring alternative methodologies for
                      resolving customer claims that their "net equity"
                      under SIPA should be based on the value of their
                      last account statement rather than the "money­
                      in/money-out" method being used by the trustee.
                  • 	 The staff is exploring whether a resolution with
                      SIPC and the trustee could be reached where
                      Madoffs "retail" customers would receive a
                      payment from the SIPC Fund but not share in the
                      pro rata distribution of the pool of customer
                      property unless they had a claim under the money­
                      in/money-out methodology.


                                           46 

Ex. 90 at 2-3. To prepare for the meeting with SIPC, Chairman Schapiro met with
Gallagher, Sr. TM Official, and Becker, along with one ofher counsel, on June 24, 2009.
Schapiro Testimony Tr. at 39; Sr. TM Official Testimony Tr. at 69-70; Ex. 91.28
Chairman Schapiro's notes of the meeting state: "clawback is not possible with the
broader distribution approach." Ex. 92; Schapiro Testimony Tr. at 40. The Chairman
testified under the Last Account Statement Method, "there would be less likelihood,
maybe no likelihood of clawbacks being possible. ,,29 !d.

        Regarding the meeting with SIPC, Chairman Schapiro recalled "frustration [by]
SIPC that we had not nailed down ultimately and definitively where we were going to go,
that the Commission was continuing to look at the issues and explore the different
options and understand what the ... pros and cons were of final account statement versus
cash-in/cash-out." Schapiro Testimony Tr. at 47. Sr. TM Official described the meeting
in a contemporaneous e-mail:

                    We spent most of the hour discussing Madoff. SIPC's
                    position is that money in/out is consistent with the law and
                    SEC liquidations, and that other methods would hurt
                    customers who are net losers. SIPC believes it is important
                    that claims based on theories other than money in/out be
                    denied, the SEC support that position in court, then SIPC
                    would offer a settlement to customers based on terms
                    agreed to with the SEC.

                    Becker offered support for money in/out, but wanted the
                    trustee to offer payments first and settle claims as part of
                    the claims determination. The difference with SIPC is that
                    OGC wants settlements first, bankruptcy litigation later.

Ex. 93. Sr. TM Official also stated in his e-mail that OGe had asked TM to co-sign a
memorandum seeking an order to exempt customers from the then-pending claims bar
date. Id. Gallagher responded to see ifTM could avoid joining, but said, "if we have to I
am okay with it. I would rather join GC on this issue and then continue to disagree on
money in money out." Id. Gallagher explained to the OIG that he recalled that TM was
still in favor of the Money In/Money Out Method proposed by SIPC and the Trustee.
Gallagher Interview Tr. at 44.

      On July 15, 2009, OGC Assistant General Counsel #1 and NYRO Assistant
Regional Director discussed which net equity approach Becker would prefer. Ex. 94.

28   Gallagher did not recall attending that meeting. Gallagher Interview Tr. at 43.
29Chairman Schapiro testified that at the time of this meeting, she thought of clawbacks in terms of the
very large suits that the Trustee was bringing against feeder funds and large hedge funds, and that she did
not connect clawbacks in any way to Becker and his mother's estate's BMIS account. Schapiro Testimony
Tr. at 40-41.

                                                       47 

NYRO Assistant Regional Director asked OGC Assistant General Counsel #1 whether
she thought "David is still leaning toward Lax's position," referring to the Lax Neville
law finn which advocated the Last Account Statement Method. Id. OGC Assistant
General Counsel #1 responded that she did not think so, stating: "Actually, what he
wanted was some way to allow distribution from SIPC fund to be based on account
statement, while distributions from fund of customer property would be money in/money
out. We're sti1llooking at this, but I'm not optimistic there's a way to do it that doesn't
entail substantial risk that court would say otherwise." Id. NYRO Assistant Regional
Director responded that she was "[g]lad he is looking at the hybrid approach ...." Id.

            D. 	Throughout This Entire Time, the Trustee Continued to Administer
                the Madoff Liquidation Both by Paying Claims and Bringing
                Clawback Suits

        As discussed earlier, SIPC and the Trustee wanted to move quickly to begin
processing claims. See Section II.A supra. By July 2,2009, the Trustee had received at
least 15,400 customer claims, over 395 claims from general creditors, and 16 claims from
broker dealers. Trustee's First Interim Report for the Period December 11, 2008 through
June 30,2009, Bankr. S.D.N.Y. Adv. Pro. No. 08-1789 (BRL), at 20 n.9 (dated July 9,
2009), http://www.madofftrustee.com!TrusteeReports.aspx. By June 30,2009, the
Trustee had detennined and allowed 543 claims and committed to pay $231,017,981 in
cash advances made by SIPC, which was, at that time, already the largest commitment of
SIPC funds in the history of SIPA liquidations. Id. -,r 71. By October 31, 2009, the
Trustee had detennined 2,870 claims, allowing 1,561 claims and committing to pay
approximately $535 million in cash advances made by SIPC. Trustee's Second Interim
Report for the Period July 1,2009 through October 31,2009, Bankr. S.D.N.Y. Adv. Pro.
No. 08-1789 (BRL), -,r-,r 91-92, http://www.madofftrustee.com!TrusteeReports.aspx.In
his interview with the OIG, the Trustee stated that the SEC's position (which was not
agreed upon until November 2009 and differed from the approach taken by SIPC and the
Trustee) has not yet altered how he administers the MadoffLiquidation, but that, "in the
event that ultimately a court would decide we're doing it wrong, we'd go back to square
one, and then revisit the claims." Picard Interview Tr. at 29. He further explained that
revisiting the claims would "[a]bsolutely" involve a substantial amount of work, as well
as a lot of money. Id.

        Moreover, from the outset of the Madoff Liquidation, there was widespread press
coverage regarding the possibility of c1awback suits by the Trustee. As early as
December 19, 2008, the N.Y. Times reported that "even Mr. Madoffs most fortunate
clients may wind up having to give back some of their gains, as investors might have to
do in another recent financial fraud, the collapse of the hedge fund Bayou Group in 2005"
and quoted an industry lawyer as stating, "Such so-called c1awbacks may occur even if
the client had no idea that the gains were fraudulent." Alex Berenson, Even Winners May
Lose Out With Madoff, N.Y. Times, Dec. 19,2008, at AI. Indeed, one N.Y. Post article
noted that "[l]imiting the number of claw-back cases will limit the eventual victim



                                            48 

payouts.,,30 James Doran, N.Y. Post, Claw & Disorder- Victims: MadoffTrustee Not
Looking Out for Us, May 3, 2009, at 31. The Trustee discussed the c1awback actions
brought to date in the interim reports it filed with the court during this timeframe. See
First Interim Report ~~ 115-25; Second Interim Report ~-,r 178-216.

       Despite knowing that SIPC and the Trustee wanted to act quickly and had begun
processing customer claims, the SEC did not detennine its position until it had to do so
pursuant to the court's scheduling order. OGC Assistant General Counsel #1 testified:

                 Well, the timing was going to be detennined by when the
                 Commission had to file a brief on the matter. And so
                 [SIPC] could say this [statement in May 14, 2009 letter that
                 they be advised immediately if the Commission intends to
                 express a different view], but realistically, . .. we would be
                 working on it and ... we don't know when the
                 Commission is going to express a contrary view until
                 we've really looked at it. So at this point, I just sort of
                 thought, well, okay. That's fair enough for them to ask.
                 I'm not sure whether we'll be able to do it.

OGC Assistant General Counsel #1 Testimony Tr. at 53-54. Because any briefing would
not be due to the bankruptcy court until November 2009, the internal urgency lessened,
and OGC continued to consider the net equity issue. Becker testified that he "didn't
care" about whether SIPC was unhappy with the SEC's approach to the appropriate
method of calculating net equity because "[w]e're supposed to do the right thing....
whether SIPC likes it or not." Becker Testimony Tr. at 57.

        In addition, Becker discounted SIPC's perspective that it was important to
consider the effect of the net equity approach on the SIPC Fund. For example, in a May
28,2009 e-mail, NYRO Assistant Regional Director referred to Harbeck's general
"desire to 'protect the fund. '" Ex. 95. See also NYRO Assistant Regional Director
Testimony Tr. at 70-72. The Chainnan's notes of her preparation for a June 25, 2009

30 See also James Bernstein, MadoffVictims On The Hook?, Newsday, Jan. 16,2009, at A37 ("If you
invested money with accused swindler Bernard Madoff, and then in the past few years made withdrawals,
you could, according to federal law, be required to give that money back in what is known as a 'claw
back."'); Dareh Gregorian, MadoffDidn '( Invest One Dollarfor J3 Years, N.Y. Post, Feb. 21, 2009, at 11
(Trustee's counsel "warned that some innocent investors who thought they'd just made out well with
Madoff could also take a hit. Sheehan said administrators from a recovery fund would try to recover 'false
profits' that had been 'earned' by some investors."); Walter Hamilton, Madoff clients air grievances, L.A.
Times, Feb. 21,2009, at Business 1 ("But Picard and his partner, David Sheehan, also warned that in some
cases they would seek to 'claw back' money from investors who over the years received more.cash from
Madoff than they actually deposited with him."); Kevin McCoy, Madoff clients' lawsuits look to others for
recompense, USA Today, March 3, 2009 ("In a legal procedure known as a claw-back, Picard can attempt
to force some of those investors to return the funds. Federal or state laws authorize him to target any
'preference' repayments made within 90 days of the December collapse of the alleged fraud, plus so-called
fraudulent transfers stretching back as long as six years.").

                                                   49 

SIPC meeting where the net equity issue was addressed referred to SIPC concerns about
"drain[ing] the fund," "necessitat[ing] SEC going to Congress," and "dramatic fee
increases for broker-dealers." Ex. 92; Schapiro Testimony Tr. at 38-39. Chairman
Schapiro testified that she thought that her notes indicated that the SEC was "very
concerned that [SIPC] will say that if we go with a final account statement view of what
[its] obligations are, that it will deplete the SIPC funds.,,)l Schapiro Testimony Tr. at 39.

       When asked how he factored the amount of money in the SIPC Fund into
consideration, Becker testified:

                 I can't say that I did very much.... [T]his is a legal
                 question, what does the law provide. And that is a separate
                 question from whether there is money to pay for it. I do
                 believe that if the Court of Appeals for the 2nd Circuit says
                 this is the right result, that SIPC would not ultimately say,
                 "Well, we're not going to assess our members to pay for
                 it."

Becker Testimony Tr. at 58. He further stated, "The fund is a little bit of a red herring. I
mean, the fund, and there is a backup treasury line of credit, it might take some time to go
through that and to assess the members, but it's essentially, the issue is a cash flow issue,
not an availability of funds because the funds come from the brokerage industry." Id. at
59. See also Ex. 96 ("In that regard [of adhering to New Times but avoiding giving
investors profits of fraudulent scheme], I'd be powerfully influenced by the numbers ....
I'm less concerned about the impact on the SIPC fund, unless it's really ruinous.").

       Similarly, OGC Assistant General Counsel #1 testified that she recalled
conversations about the impact on the SIPC Fund, stating:

                 We basically were going to look at it from the point of view
                 of what does SIPA allow and what is consistent with the
                 New Times decision and get the best outcome for the
                 investors. And that if that is the way the claim, the net
                 equity claim should be determined, then if the SIPA fund
                 runs out of money, then there is a mechanism. . .. So ...
                 we weren't really looking at it from that point of view.

OGC Assistant General Counsel #1 Testimony Tr. at 86-87. She also stated that she
wanted to understand the views of SIPC or TM to the extent they had a different


31The Chainuan's notes also indicated, "This is a SIPC survival issue." Ex. 92; Schapiro Testimony Tr. at
43. She testified that she did not know who made this comment, but that "it may be that somebody said
that's how SIPC views this, as a survival issue ... because the fund would be depleted, and it would set a
precedent that would be very hard for them to meet over time given the fact that these liquidations had
become so huge." Schapiro Testimony Tr. at 43.

                                                    50 

perspective on the issue, "[blut whatever SIP A allowed under the circumstance was
where we would make the recommendation." Id. at 87.

             E. Becker and OGe Formulated the New T-Bill Approach

        OGC ultimately detennined that the Last Account Statement Method or any
variation thereof was not consistent with SIPA. Becker testified that he could not
reconcile the Last Account Statement Method with the law, stating: "Legally, it's not
legitimate to say that we believe we have entitlement to assets that have never existed and
that are just a figment of someone's imagination." Becker Testimony Tr. at 60. OGC
Assistant General Counsel #1 also testified that after the court ordered a briefing
schedule, she had the opportunity to "look at everything again" and felt that with the Last
Account Statement Method, ~~there were fraudulent profits that could not be attained in
real market trading and that the court would not allow a claim based on that." OGC
Assistant General Counsel #1 Testimony Tr. at 80. Because the Last Account Statement
Method, or other variations based upon that method, were not viable, OGC Assistant
General Counsel #1 thought that the Money In/Money Out Method would be the only
remaining option, but continued to consider whether there was ~'any other possibility that
[she had not] looked at.,,32 Id.

        While looking at Madoff account statements, OGC Assistant General Counsel #1
came up with what she described as a new and different approach to the net equity issue.
OGC Assistant General Counsel #1 Testimony Tr. at 80-83; Ex. 97. This approach was
generally described as the T-Bill Approach. 33 Under this approach, ~~[c]ustomers get the
principal amounts they deposited less amounts they took out, but as long as there's
principal in the account, it earns the amount it would have earned if the cash had been
swept into the Fidelity U.S. Treasury Money Market Fund." Id. Immediately after OGC
Assistant General Counsel #1 proposed this approach, Becker was in favor of it, stating:
"Wow. This sounds right." Ex. 97; OGC Assistant General Counsel #1 Testimony Tr. at
84. OGC Assistant General Counsel #1 then e-mailed TM about the new approach,
stating: "I discussed this with David [Becker] this morning and he thinks it works. Do
you?" Ex. 98.




32See also Conley Testimony Tr. at 16-17 ("And my understanding was that at that point [OGC Assistant
General Counsel #1] had basically reached the conclusion that the final account statement approach wasn't
supportable under the statute and the case law and that as between the two, net investment or money­
in/money-out, was more supportable by the case law.... However, she was looking at possible ways of
whether there was any flexibility in terms of how one would apply the net investment or money-in/money­
out approach.").
33 Several later e-mailsrefertoapartialorfullT-BillApproach.This distinction was used (generally by
personnel within Risk Fin) to indicate the difference between the approach where one would apply a T -Bill
rate only when the BMIS account statements indicated that the money was out of the market, i.e., the
partial T-Bill approach, and the approach where one would apply a T-BiII rate throughout the time ofa
customer's investment with BMIS, i.e., a full T-Bill approach. See, e.g., Hu Testimony Tr. at 13-15.

                                                   51 

         TM did not support this new T-Bill approach. In an e-mail forwarding OGC
Assistant General Counsel #l's initial analysis of the new method, Macchiaroli said that
this is "as goofy as [N]ew [T]imes" and subsequently noted, that "Eureka [which was the
subject line OGC Assistant General Counsel #1 used in her e-mail describing the new
approach] is the wrong word. It should be ugh." Ex. 98. TM did not think that this
approach was consistent with SIPA. Macchiaroli TestimonyTr. at 74; Gallagher
Interview Tr. at 47-48; Sr. TM Official Testimony Tr. at 77-78.

        A few weeks later, OGC Assistant General Counsel # 1 prepared a draft Action
Memorandum to the Commission based on the T-Bill Approach. Ex. 99. Becker
remained in favor ofthe approach, stating twice that the draft was "really, really
impressive." Ex. 96. In response to Becker's comments, NYRO Assistant Regional
Director weighed in, suggesting reaching the same conclusions "without emphasizing the
lack oflegitimacy of the investor's expectations" and also noting her concern with "the
vast number of current customers who will get nothing and possibly face fraudulent
conveyance actions." Id. Notably, at this time, the draft reflected that OGC did not know
whether TM would concur in its recommendation. Ex. 99 at 2; see also Sr. TM Official
Testimony Tr. at 80 ("there was a lot of discussion whether we should concur with it or
not. ... So my recollection is that we thought we couldn't support that approach.");
Gallagher Interview Tr. at 49 ("I think my recollection ... was whether the division
would dissent. ... There was never a question as to whether we would concur.").

         The SEC presented this T-Bill approach to the Trustee in a September 30,2009
letter from Becker to Picard, which also referred to a September 25,2009 meeting
between the SEC, the Trustee, and his counsel regarding the same topic. Ex. 100. In her
cover e-mail to the Trustee, OGC Assistant General Counsel # 1 noted that OGC had
changed its approach slightly from what was discussed at the September 25 meeting at
Becker's request, stating, "After further discussion with David [Becker], he decided to
request that the proposal be limited to times the BLMIS account statements showed that
customer assets were out ofthe market and invested in short-term U.S. Treasury
securities." Id.; see also OGC Assistant General Counsel #1 Testimony Tr. at 88.
Becker's letter to the Trustee provided further explanation of the revised approach and
requested that the Trustee perform certain analyses to provide an "understanding of the
effect of such an alternative on customer net equity claims ...." Ex. 100.
            F. Becker and OGC Decided on the Constant Dollar Approach

        While considering the T-Bill Approach, OGC asked Risk Fin to assist in its
determination of the appropriate net equity calculation by performing certain analyses.
Risk Fin Senior Official #1 Testimony Tr. at 13; OGC Assistant General Counsel #1
Testimony Tr. at 91-92. An October 9,2009 e-mail describes a meeting between Risk
Fin Senior Official #2 and OGC Assistant General Counsel #1, Conley, and others in
OGC in which Risk Fin Senior Official #2 had suggested the alternative of a risk-free rate
of return. Ex. 101. Risk Fin Senior Official #2's e-mail also stated: "Conley seemed to


                                           52 

think that Becker might buy this argument." Id. OGC Assistant General Counsel #1
testified that the day after the initial meeting between OGC and Risk Fin personnel:

                I went up to David Becker's office early in the morning and
                said, "We had the meeting and they're suggesting constant
                dollars."

                And David immediately thought that was an excellent
                way to resolve the situation and the difficulties ....

                Q. But David Becker very much agreed with the constant
                dollar approach[?]

                A. Yes. He thought that to the extent that that resulted in
                customers who had already -- older customers getting
                more, then that was reflecting the erosion of value in the
                dollar so that it was really equalizing the returns.

                                                ***
                [A]fter we had the meeting with the [Risk Fin] people and
                they suggested constant dollars[,] . .. I reported that back
                to David and he said, "I think that's the best way to go."

OGC Assistant General Counsel #1 Testimony Tr. at 94-95, 96 (emphasis added).34 This
method became known as the Constant Dollar Approach, and it contemplated applying
some sort of inflation rate, such as the Consumer Price Index ("CPI"), to determine a
customer's net equity. OGC Assistant General Counsel #1 Testimony Tr. at 93; Conley
Testimony Tr. at 26-27,34; Becker Testimony Tr. at 60-62.

        After an additional meeting that occurred on or about October 13,2009, Risk Fin
drafted a memorandum proposing what it considered to be a fourth approach, which was
a variation on the T-Bill Approach. Risk Fin Senior Official #1 Testimony Tr. at 28-30;
see also Ex. 102. Shortly thereafter, then-Risk Fin Director Henry Hu sent an e-mail to
OGC explaining why Risk Fin did not support OGC's T-Bill Approach, as compared to
the Full T-Bill Approach, which Risk Fin was proposing. Ex. 103. In response to this e­
mail, Becker stated:

                1 think we are in full agreement []. It's not clear that the
                SIP A permits calculation of net equity taking interest into
                account, so we would argue that when one is (a) either


34 cGC Assistant General Counsel #1's testimony is consistent with her statements at the Commission
meeting on November 9, 2009 regarding the development of the Constant Dollar Approach. See Section
IV.H infra.

                                                 53 

                 calculating the value of equity by subtracting money
                 withdrawn from money invested or (b) allocating the
                 residual estate among victims of a twenty-year scheme, it
                 makes sense to do so on a constant dollar basis. That way,
                 one doesn't value based on a fiction, but one doesn't ignore
                 the time value of money either.

Id. Shortly after Becker sent his e-mail, Conley responded to Becker, copying OGC
Assistant General Counsel #1, stating: "[OGC Assistant General Counsel #1] did
mention our revised 'constant dollar' approach to [Risk Fin Senior Official # 1]
yesterday, but that apparently did not make it to Henry before he sent this.,,3s Id. See
also Conley Tr. at 25-27 (explaining that Becker was hesitant to use the T-Bill Approach
because it still seemed to validate at least some part ofMadoffs fraud, and that OGC
then considered the alternative of taking just inflation into account, i.e., the Constant
Dollar Approach.

         Becker advocated using the Constant Dollar Approach in his communications
with OGC staff. For example, on October 17, 2009, OGC Assistant General Counsel #1
sent an e-mail to Becker and Conley regarding "scrapping" the T-Bill Approach. Ex.
104. Her e-mail stated that she no longer thOUght the approach was useful and that the
choice would be between the Money In/Money Out Method, the method proposed by
Risk Fin, and the Constant Dollar Approach. Id. In response, Becker e-mailed: "Seems
to me the clear winner is cash in, cash out expressed in constant dollars.,,36 Id. Conley
testified that in this e-mail, Becker was referring to the Constant Dollar Approach and
that this was the point where OGC had determined to go with that approach exclusively.
Conley Testimony Tr. at 27-28. Additionally, on October 26,2009, Becker e-mailed
OGC Assistant General Counsel #1 and Conley, stating: "Henry [Hu] is fine with taking
out references to risk-free rate ofretum." Ex. 106. After Conley replied to that e-mail
and referenced his intention to discuss the issue with TM, Becker responded: "If we all
agree, we can make clear that we are recommending constant dollars, subject to further
information from the Trustee.,,37 Id.


35 Becker's statement regarding "full agreement" appeared to be at odds with Hu's proposal because, by
this point, OGC was considering the Constant Dollar Approach, while Hu was advocating the full T-Bill
Approach. OGC Assistant General Counsel #1 explained that Hu's reference to the full T-Bill Approach
based on the time value of money was "kind of a misstatement because the time value of money is going to
be the [CPI) [while) the T·Bill method is the economic value of ... opportunity costs," and it appeared that
Hu had not been advised of the Constant Dollar Approach at the time of his e-mail. OGC Assistant
General Counsel #1 Testimony Tr. at 96; see also Conley Testimony Tr. at 24.
36 Similarly, on October 19,2009, Becker e-mailed Hu that "the constant dollar idea is best presented, not
as a means to compensate some investors, but rather, as your comments note, as a means of applying the
cash in/cash out rule in an economically consistent manner." Ex. 105. He also stated in a separate e-mail
to Hu that same day that the Constant Dollar Approach is "just a tweak to cash in/cash in [sic) (although
one with some significant financial consequences)." Id.
37 Conley testified that until the time of this e-mail, Risk Fin had continued to support its alternative
approach, but the "conclusion that was made was, no, all we want to do here is just attempt to equalize the

                                                    54 

        Becker testified that he personally felt that the Constant Dollar Approach was best
legally, as in the circumstances of a long-running Ponzi scheme, "using constant dollars
struck us, struck the Commission, as a better surrogate for securities ... than simply
money in/money out ...." Becker Testimony Tr. at 60-61. He explained why it was
determined to go with an inflation rate, as opposed to a T-Bill rate, stating: "[M]y view
was -- T-Bills were about risk free returns, and inflation is about valuing money in terms
of its purchasing power. And my view was this is not to give people a return. It's not
going to give them interest on their money, but rather, particularly for intergenerational
terms, is to use a constant measurement of what that cash in is actually worth." Id. at 61­
62. At the time of the Commission meeting to consider the staff's recommendation,
Becker drafted a document explaining why the Constant Dollar Approach was
appropriate, which concluded, "All we are doing by using constant dollars is
approximating the value in today's dollars of a hypothetical security that had been
purchased for the amount invested and then held in the BMIS account until the filing
date." Ex. 107.

        Accordingly, Becker ultimately decided that the Constant Dollar Approach was
the right approach to recommend to the Commission. 38
              G. Becker Recommended the Constant Dollar Approach to the
                 Commission

        On October 2S, 2009, OGC circulated an Advice Memorandum to the
Commission which was signed by Becker. Ex. lOS. Becker acknowledged that he
signed the Advice Memorandum, had "extensive involvement" with it, and believed it
was correct. Becker Testimony Tr. at 63. The memorandum proposed that, unless the
Commission chose otherwise, the staff would not file a brief in support of the Last
Account Statement Method in the BMIS liquidation proceeding, but instead the
Commission's brief should support the Trustee's Money InlMoney Out Method. Ex. lOS
at 1. The memorandum also noted "that it may be appropriate to calculate cash-in/cash­
out in a manner that accounts for the ~time value' of funds invested in Madoffs scheme
(the 'time-equivalent-dollar' method)," and stated that it would submit a supplemental
memorandum on that issue. Id.

     The Advice Memorandum indicated that TM "concurs in the proposal that the
Commission file a brief taking the position that net equity should be calculated using a

investors from the perspective of the passage of time and inflation or deflation that occurred over that
time." Conley Testimony Tr. at 34.
38 Even after the recommendation was made to the Commission, OGC Assistant General Counsel #1
continued to believe that the T-Bill Approach was appropriate. OGC Assistant General Counsel #1
Testimony Tr. at 95, 98-99. Hu continued to believe that his full T-Bill Approach, using a risk-free rate of
return as opposed to an inflation adjustment, was appropriate, although he understood that there were some
constraints imposed under SIP A that had to be taken into account when determining the recommendation.
Hu Testimony Tr. at 20-21.


                                                     55 

cash-inlcash-out method," but "does not necessarily concur with the view that SIPA
would permit the calculation of net equity on a time-equivalent-dollar basis." Id. at 2.
TM personnel testified that they did not support OGC's position on the Constant Dollar
Approach to the Money InlMoney Out Method. For example, Sr. TM Official testified,
"My view has not changed about how the statute should be interpreted, but the
Commission makes -- is the one ultimately charged with that responsibility. So I
respectfully disagree with their approach ...." Sr. TM Official Testimony Tr. at 96-97.
See also Macchiaroli Testimony Tr. at 77 (he personally did not support OGC's position
on this issue).

       The Advice Memorandum expressly addressed the impact on clawback actions of
using a time-equivalent dollar value of money:

                  Calculating customers' claims based on the time-equivalent
                  dollar value of the money that customers invested in and
                  withdrew from their BMIS accounts could have an impact
                  on the Trustee's avoidance actions [i.e., clawback actions]
                  seeking to recover, as preferences or fraudulent transfers,
                  payments made to customers prior to the firm's failure.
                  Thus, a customer might have a claim for net equity
                  consisting of amounts exceeding principal under the time­
                  equivalent-value method of calculating cash-inlcash-out,
                  while also being subject to an avoidance action by the
                  Trustee to recover amounts exceeding principal that were
                  withdrawn before BMIS failed. There is no easy answer to
                  this anomaly. The SIPA requirement that a customer
                  receive the net equity in his or her account, however, would
                  take precedence over any potential effect on avoidance
                  actions [i.e., clawback actions] to recover assets for the
                  fund of customer property.

Ex. 108 at 26. 39 The Advice Memorandum also stated the OGC belief that "calculating
net equity [using time-equivalent dollars] is not precluded by SIPA, existing case law, or
past Commission positions" and that "this case raises issues that neither courts nor the
Commission have confronted previously." Id. at 5. The Advice Memorandum discussed
the Commission's brief in the New Times case and noted that the Commission's position
then was that net equity was the amount that the customer paid to purchase the securities.
Id. at 15-16. It also discussed a law review article on claims allowance in Ponzi schemes
and concluded that the weight of authority favors a principle akin to the Money InlMoney


39 Becker testified that he recalled this paragraph of the memorandum, but did not recall discussions about
clawbacks generally. Becker Testimony Tr. at 63-64. He testified that, to his recollection, any discussion
of clawbacks was limited to the circumstances described in this paragraph, i.e., clawback actions for
customers who had an open account at the time of the Madoff Liquidation, and had nothing to do with
clawback actions like the one in which he is a defendant. Id. at 64.

                                                    56 

Out Method. Id. at 16-17. It further noted that there are "surprisingly few cases"
involving the allowance of claims by investors in Ponzi schemes. Id. at 16.
             H. OGC, Under Becker's Direction, Led the Discussion at the
                Commission Meeting to Consider the Appropriate Net Equity
                Determination

       On November 9,2009 at 10:04 a.m., the Commission met in Executive Session to
consider the Advice Memorandum, which was continued to November 10, 2009 at 10:04
a.m. and 3:23 p.m. Ex. 109. At this point, the Commissioners, other than Chairman
Schapiro, were not aware of Becker's interest in his mother's estate's BMIS account. See
Section III.B supra. Becker participated in the entire session, along with OGC Assistant
General Counsel #1 and Conley from OGC. 40 Id. The minutes and transcript indicate
that OGC led the discussion and presentation, with TM and Risk Fin providing limited
comments.

         OGC Assistant General Counsel #1 provided OGC's initial presentation to the
Commission. She gave an overview of the process that OGC had gone through to arrive
at its recommendation. OGC Assistant General Counsel #1 told the Commission that
Harbeck had met with the staff in January in an attempt to reach agreement about how to
handle claims based on the Money InIMoney Out Method. Ex. 109 at 2. She then stated
that during the spring, the staff met with counsel for some investors who objected to the
Money InlMoney Out Method and proposed the Last Account Statement Method. Id.
OGC Assistant General Counsel #1 noted that "some of the counsel represented wealthy
clients and others represented clients suffering severe hardship because they had lost
everything they had to live on." Id. at 2-3; see also Ex. 110 at 5. She stated: "At the
conclusion of one meeting, I remember David Becker telling counsel that we would do
whatever we could to find a way to help the customers that the law would allow." Ex.
110 at 5; see also Ex. 109 at 3.

         OGC Assistant General Counsel #1 further explained to the Commission that
OGC's initial reaction was that SIPC and the Trustee's view made sense, but that the
staff's second reaction was that the Second Circuit could rule that the account statements
should govern. Ex. 109 at 3; see also Ex. 110 at 5-6. She then stated that information
that the staff had from the Trustee showed that under the Money InlMoney Out Method,
"over half of the customers had withdrawn more than they put in and would receive no
payments under the cash in cash out method." Ex. 109 at 3; see also Ex. 110 at 6. She
added that "the staff thought this was an unacceptable result and should be avoided if
possible under the statute," and noted, "[O]nly if the statute forced us there, did we want
to be there." Ex. 109 at 3.




40The minutes indicate that Cahn and Stillman of OGC also attended the meetings, but neither the minutes
nor the transcript indicate that either played a substantive role in the discussions.

                                                   57 

         OGC Assistant General Counsel #1 next described the staff's efforts to develop a
bifurcated approach to the claims, but concluded that such an approach did not work
under the applicable law. Ex. 109 at 3; see also Ex. 110 at 6-7. She stated that in
analyzing the New Times decision, the staff determined that the Second Circuit was not
likely to allow the account statements based on fraudulent transactions to form the basis
of a claim and then "backed into the position that cash in, cash out was the alternative."
Id. at 3-4; see also Ex. 110 at 8.

        OGC Assistant General Counsel #1 then described the T-Bill Approach that OGC
had considered and stated that its advantage was "that it would result in more investors
having claims and the investors with claims getting a greater return." Ex. 109 at 4; see
also Ex. 110 at 9-10. OGC Assistant General Counsel #1 explained that at this point,
OGC brought Risk Fin into the discussion to assist them in working with the Trustee to
analyze the effects of the T-Bill Approach. Ex.109 at 4, see also Ex. 110 at 10. She
stated that Risk Fin suggested another approach that would give effect to inflation and
missed investment opportunity. Ex. 109 at 4; Ex. 110 at 10.

       Both the transcript and minutes of the meeting demonstrate that OGC Assistant
General Counsel #1 informed the Commission that it was Becker who made the ultimate
decision to pursue the Constant Dollar Approach. According to the transcript, during the
meeting, OGC Assistant General Counsel #1 stated:

                  That's when we went to talk to David [Becker]. This was
                  Mike Conley and I. We said this is what Risk Fin was
                  suggesting. David [Becker] said oh, well, the best thing to
                  do is approach this as constant dollars. Who could object
                  to satisfying this claim based on constant dollars. That
                  isn't interest.

                  That basically became the approach that we came up with,
                  and that's the approach that's generally sketched out in the
                  October 28 memo that we sent to you.

Ex. 110 at 10-11. Similarly, the minutes stated: "OGC Assistant General Counsel # 1
said that when they discussed this suggestion with David Becker, he said the best thing to
do would be to approach this as constant dollars, and that is the approach the GC staff
sketched out in an October 28 memo to the Commission.,,41 Ex. 109 at 4.




41When Commissioner Casey noted the need to have a full understanding of the implications of the
approach, Conley responded: "We did think about that, Commissioner. Essentially, we reached the
conclusion that David [Becker] did, which is it is certainly a reasonable thing to think about in another
context." Ex. 110 at 23-24.

                                                     58 

               It's an entirely circular word that means legitimate is what
                                                                                        FOIA
               we recognize. We are in {a] universe where of course it is               Exemption 5
               reasonable for people to expect not to be defrauded. Of
               course, it's reasonable for people to rely on what looked
               like highly professional and impressive account statements.
               While the Trustee does take a [pot shot) at people, how
               could they expect to get this - I' m not terribly persuaded by
               that.

Ex. 110 at 32; see also Ex. 109 at 8.



                                                                                            FOIA
                                                                                            Exemption 5



eire"late a supplemental memorandum regarding the Constant Dollar Approach in order
                                                                42
to allow the Commission to detennine what its approach would be. Conley circulated
the supplemental memorandum, which provided additional infonnation on the Constant
Dollar Approach, later that day. Ex. 112.

        When the meeting reconvened on the following day, aGe Assistant General
Counsel #1 provided an ovelView of why calculating net equity in constant dollars was
not inconsistent with SIP A and why aGC believed it was not possible to file a brief
taking the position that net equity should be based on the Last Account Statement
Method. Ex. 109 at 10-13. Conley then addressed how the Constant Dollar Approach
would        in other SIPC .             and in non~SIPC situations. [d. at 14.             FOIA
                                                                                            Exemption 5



              apI)l'()"ch "certainly assumes                     are equally          or
nonMculpable" and noted that there are remedies available to the Trustee if there is
evidence to the contrary. Ex, 110 at 23; Ex. 109 at 15. This portion of the meeting also
included discussion of fraudulent transfer actions brought by the Trustee. Ex. 110 at 25~
27.


                                                                                            FOIA
                                                                                            Exemption 5




                                             59 

       Before the conclusion of the second session, Becker stated that «the staff is asking
the Commission for authority to prepare testimony and write a brief taking the position
supporting the trustee on cash in, cash out, but saying the cash needs to be described in
                                                                                            FOIA
constant dollar terms." Ex. 109 at 18; see also Ex. 110 at 57. The Commission               Exemption 5
ultimately voted. not to object to the staff's recommendation of the Constant Dollar
Approach to the net equity detennination. Ex. 109 at 19; see also Ex. 110 at 8.

        On December II, 2009, the Commission filed a brief in the bankruptcy court
which stated that the SEC "support[edJ the Trustee's determination that net equity should
not be based on the customers' last statements (the 'final account statement method' )"
and that the SEC "support[ed] in part the Trustee's detennination that net equity should
be based upon the amounts customers deposited in accoWlts with [SMLlS] less any
amounts withdrawn (the 'cash-inlcash-out method')." Memorandum of Law of the SEC,
Docket No. 1052, SIPC Y. BMIS, dated Dec. 11,2009, http://www.madoffirustee.comi
CourtFilin!1l'.aspx (emphasis added). It also stated that the SEC's position was "that in
detennining customer claims under the cash-inlcash-out method, the amount of the
payment should be calculated in constant dollars by adjusting for the effects of inflation
(or deflation)," and that the Commission will, at the appropriate time, file a brief
addressing why its position that claims should be calculated in constant dollars is
consistent with SIPA and court decisions construing SIPA.,,43 [d. at 1.

              I. 	 SIPC and the Trustee Did Not Support the Constant Dollar
                   Approach

       Neither SlPC nor the Trustee believed that the Constant Dollar Approach was
appropriate. In response to questions about discussions that SIPC had with the SEC in
the September 2009 timeframe, Harbeck explained to the OlG:

                 The discussions were to use some measure of the time
                 value of money in the calculation of individual customers'
                 net equities. We believed -- when I say "we," the SIPC
                 staff took a position as a matter of law that the net equity
                 definition does not contain any allowance for the time
                 value of money....

                 For example, any federal statute or any other statute which
                 uses some sort of an inflation factor usually states a date
                 from whence all calculations should be calculated and says
                 that it will be done from that point forward ....



4) The courts have not yet decided whether the Constant Dollar Approach, or any inflation adjustment, is

appropriate in the MadoffLiquidation. Although the Second Circuit recently upheld the Trustee's position.
i.e., Money IntM:oney Out Method, it noted that "[t)be bankruptcy CQun reserved decision on the issue of
whether the Net Investment Method should be adjusted to account for inflation or interest.'" In re Bernard
L. MadofJ Im>eslmenl Securities, LLe, Case No. 10-2378 (2d Cir.), slip op. daled Aug. 16.2011, al 13.

                                                   60 

              Our statute and our net equity definition does not have such
              a provision.

Harbeck Interview Tr. at 43-44. Harbeck also stated that he specifically recalled telling
Becker in a telephone conversation, during which Becker informed him that the
Commission would use a Constant Dollar Approach, that there was no justification for
such an approach under SIPA. Harbeck Interview Tr. at 46. Wang recalled a telephone
call with Becker in which they discussed the Constant Dollar Approach, but she could not
recall whether it was the first time SIPC had learned of the approach or whether it was
communicated earlier. Wang Interview Tr. at 18. During that telephone call, Wang
recalled "a great deal of skepticism [on SIPC's part] as to whether that position was
supportable under the law." ld. She also recalled that Becker "offered an explanation as
to how it would work," and "he said that as he was explaining it, it seemed to make even
more sense to him." ld. at 19. See also Ex. 113; Ex. 114.

       The Trustee also did not support the Constant Dollar or T-Bill Approach. When
the SEC requested certain information from the Trustee to perform analyses under this
approaches, the Trustee's counsel responded that this approach was not appropriate under
the law, stating:

              As we have all acknowledged, we are dealing here with
              filberts or McGuffins that have no legal foundation in
              either the SIPA statute or the case law which, indeed, is to
              the contrary. Moreover, no matter what name we choose to
              give it or how many ways we try to recalculate it, in the
              end, it is still just interest on a net equity sum.

Ex. 115. As the Trustee explained to the OIG, he was against approaches that attempted
to consider the time value of money because they were contrary to SIP A. Picard
Interview Tr. at 25-26.

            J. The Approach Used to Determine Net Equity Affects Clawbacks

        Use of either the Last Account Statement Method or the Constant Dollar
Approach would have a significant effect on the Trustee's clawback actions. While OGC
Assistant General Counsel #1 viewed claims determination and clawbacks as "two
different things," she explained that the net equity determination and how clawbacks are
calculated are "all part of the same case" and "all part of the Madoff SIP A liquidation."
OGC Assistant General Counsel #1 Testimony Tr. at 77. In the October 28, 2009 Advice
Memorandum signed by Becker, OGC informed the Commission that "[ c]alculating
customers' claims based on the time-equivalent dollar value of the money that customers
invested in and withdrew from their BMIS accounts could have an impact on the
Trustee's avoidance actions seeking to recover, as preferences, or fraudulent transfers,
payments made to customers prior to the firm's failure." Ex. 108 at 26.



                                           61 

      In his OIO testimony, Becker effectively conceded that there was a relationship
between the net equity determination and clawbacks, at least with respect to the Last
Account Statement Method.

              Q. Did you have an understanding as to whether if the last
              account statement approach had been adopted, let's say the
              SEC had recommended that approach instead of the cash
              in/cash out modified by constant dollar, whether that would
              have had an impact on either how many clawback suits
              would be brought or how much would be sought in
              clawback suits?

              A. I had -- understanding overstates it. I had some, I don't
              know, you can call it sense that somehow some of this -­
              well, I had no sense on how it would affect the amount of
              money sought in clawback. I did have sort of a general, I
              don't know, feeling that it might have, could have, don't
              know, an impact on how many suits were brought.

              I mean, if you look at my May 4th memo to Bill Lenox, it
              basically says, here is what I know. Here is the issue
              before us. I don't think it has anything to do with me, but
              kind ofout of an abundance of caution, it could have an
              impact -- how this is resolved could have an impact on the
              decision of the trustee to bring clawbacks or not. But
              beyond that, I didn't have any sense, no.

Becker Testimony Tr. at 64-65.

        All four Commissioners testified that they understood that the method
recommended by the Commission to determine net equity would affect the clawback
actions brought by the Trustee, as demonstrated in the following testimony excerpts.
              Q. Now did you understand that depending upon which
              method the Commission decided would be the most
              appropriate, or depending on the method that the
              Commission advised SIPC it believed was the most
              appropriate, the different methods that would be adopted by
              the Commission would have an impact not just on the
              customers who lost money in Madoff, but also to the extent
              there would be clawbacks of other customers who gained
              profits in Madoff?




                                           62 

              A. Yes. The discussion was whether to use the last
              statement balance or the cash~in and cash~out methodology,
              both of which resulted in different outcomes.

              Q. Right. And those would then affect either the amount
              of money needed to be clawed back or potentially how
              many people would be clawed back[?]

              A. Yes.

Aguilar Testimony Tr. at 18-19.

              Q. Now with respect to the different approaches that were
              discussed -- there was the final account statement approach,
              the cash-inlcash-out method, and then the constant dollar
              approach. Did you understand that, depending on which
              approach was used -- would impact either the amount of
              money you needed to clawback or the amount of people
              that you clawed back against or otherwise affect the
              clawback part?

              A. Yes, I guess it would have -- certainly would have
              affected the clawback as much at it would the amount that
              folks would have been eligible for in the first instance.

Casey Testimony Tr. at 13.

              Q. Did you understand that depending on which method
              was utilized, would have an impact on either the amount of
              money you needed to clawback or potentially how many
              clawbacks would be sought by the trustee?

              A. Yes, I did.

Walter Testimony Tr. at 18-19.

              Q. Did you understand that in the determination of what
              method to use, there is several methods discussed in this
              advice memorandum: the final account statement method;
              cash-inlcash-out method; time equivalent dollar method,
              sometimes known as a constant dollar approach. Did you
              understand that depending on which one of those methods
              you used would then have an impact on either how much
              money would be available to be clawed back, how much


                                           63 

              money would be needed to be clawed back, or otherwise
              affecting the clawbacks?

              A. Yeah. It's hard to recall exactly what I knew or had in
              mind at the time, but my recollection, sitting here, is that I
              did have an understanding that there was an interplay
              between how one's claims were calculated would impact
              the claims as to the entirety of [the estate], and then of
              course, that could flow through in terms of clawback
              determinations and the like.

Paredes Testimony Tr. at 14-15. In addition, Chairman Schapiro testified that, on some
level, she understood that using the Last Account Statement Method would have an
impact on clawback suits, and that using the Constant Dollar Approach would result in
having to payout more money and that, logically, the Trustee would then need more
clawback suits. Schapiro Testimony Tr. at 40-41, 53.

        TM similarly understood the interplay between net equity and clawback suits. In
a July 4, 2009 e-mail providing general guidance on clawback issues, Sr. TM Official
stated that "money that is not clawed back means less recovery for other victims. Recent
victims likely have not withdrawn much money and would likely prefer clawbacks from
the customers that received some 'benefit' from the ponzi [sic] scheme." Ex. 116. Sr.
TM Official agreed that in this e-mail, he was trying to explain that whatever is
determined, in terms of the calculations for the claimants, has an impact on the clawbacks
and vice versa. Sr. TM Official Testimony Tr. at 102.

         Sr. TM Official "[a]bsolutely" agreed that under whatever method was used to
calculate net equity, one would have to consider how that impacts clawbacks as part of
the whole equation. Sr. TM Official Testimony Tr. at 49. Further, he agreed that the
determination of how to assess the amount that the claimants are going to get is going to
affect how many clawbacks there would be and how you would go about getting money
against clawbacks. Id. Macchiaroli explained that the total amount of customer property
available for distribution to Madoffs customers "would depend on how much you could
claw back" because there was very little customer property available, and he viewed the
ability to claw back as significant in terms of trying to figure out how much money
investors could claim under SIPA. Macchiaroli Testimony Tr. at 28. However, Becker
admitted that he did not consider whether, if the Trustee distributed more money in net
equity claims, he potentially would need to claw back more in order to make everyone
whole. Becker Testimony Tr. at 68.

       SIPC's President and CEO explained to the OIG that all ofthe methods that were
considered by Becker and the SEC staff while they determined what to recommend to the
Commission regarding net equity could have impacted his status as a person facing a
clawback action:



                                            64 

              A. Every proffered methodology, other than the one that
              was specifically agreed upon between all divisions of the
              SEC and at least three of the SEC commissioners, any
              deviation from that would have directly affected [Becker's]
              account and every proffered methodology would have
              improved [Becker's] financial position, or the financial
              position of the account.

              Q. In what way?

              A. By increasing the amount that the account was owed, he
              would theoretically decrease any amount which he could
              have -- the trustee could have received in a preference or
              fraudulent transfer action.

Harbeck Interview Tr. at 10.

   1. The Last Account Statement Method Likely Would Preclude Clawbacks

         One consequence ofusing the Last Account Statement Method was that it likely
would preclude clawbacks. SEC personnel who were knowledgeable about SIPC and/or
bankruptcy issues generally agreed with this principle. For example, Sr. TM Official
testified that "the recoveries are much lower under the account statement value because
you don't do the clawbacks." Sr. TM Official Testimony Tr. at 48. Macchiaroli testified
as follows regarding the effect of the Last Account Statement Method on clawbacks:

              I think the whole clawback would be thrown out the
              window.... I don't see how you could claw back if people
              are relying on the account statement unless the account
              statement shows nothing....

               [T]he whole Ponzi scheme thing would be thrown into
               chaos because a Ponzi scheme essentially depends on
               gathering all the available property and distributing it so
               everybody shares equally in the losses.

Macchiaroli Testimony Tr. at 37. 3) NYRO Assistant Regional Director said that under
the Last Account Statement Method, "you couldn't just get sued for recovery of interest,
because it would still probably be part of your claim." NYRO Assistant Regional
Director Testimony Tr. at 73.

         SIPC also agreed that the Trustee's clawback actions would be affected by the use
of the Last Account Statement Method. Harbeck stated that fraudulent transfer actions,
i.e., clawback suits, would be 44standing on far weaker grounds." Harbeck Interview Tr.
at 35. SIPC's General Counsel also indicated that using the Last Account Statement
Method could impact clawbacks because 44it meant that the customer could rely on the

                                             65 

last account statement and could argue ... that that was an ordinary course of business
transaction, that the monies were -- the fake profits were received in good faith, and that
value had been given." Wang Interview Tr. at 22.44

       Becker recalled the position that the Last Account Statement Method would
preclude clawbacks, testifying: "[T]here was some meeting with the trustee where
among the 97 reasons - not literally - the many reasons they mentioned that last
statement was a terrible idea was, 'Oh, and we couldn't do any clawbacks.' And I do
remember not believing that. I thought that was kind of bombastic and self-serving."
Becker Testimony Tr. at 68. During his testimony, Becker, however, acknowledged that
whether the Last Account Statement Method would preclude clawbacks is a "[g]ood
question [to which he did not] purport to know the answer authoritatively." Id. at 65.
     2. The Constant Dollar Approach Would Affect Clawbacks

        TM and SIPC officials explained that the Constant Dollar Approach would affect
the amount that would be clawed back from any given individual. For example, Sr. TM
Official agreed that a "net winner" who made money through his investment with Madoff
would see the amount subject to clawback reduced by whatever inflation adjustment
would be applied to the person's principal investment. Sr. TM Official Testimony Tr. at
90. He also agreed that if a Madoff customer like Becker had invested principal of
$500,000 and withdrawn $2 million from the account overall, he would face a clawback
suit for $1.5 million under the Money InlMoney Out Method, but the amount ofthe
clawback suit under a Constant Dollar Approach would be less than $1.5 million to take
into account whatever inflation adjustment would be applied to the $500,000 principal
investment. Id. Macchiaroli explained how a clawback claim would be less if the
Constant Dollar Approach were applied:
                 The claw backs would be less. You're entitled -- so you
                 put in a million and say you kept it in for a year, so you
                 would have been entitled to a million, whatever the
                 inflation factor was, so 1,050,000. So you could not claw
                 back -- anything less you could not claw back. That would
                 be your starting point because we all agreed that you could
                 not claw [back] principal, you could only claw back excess.


                 Q. And this would basically add this time value of money
                 component to the principal ­

44 However, Picard told the OIG that he thought clawback suits would still occur under the Last Account
Statement Method, but he also acknowledged that the amount of clawback suits could be affected by use of
the Last Account Statement Method. Picard Interview Tr. at 10. aGC Assistant General Counsel #1 also
explained that clawback suits had to be treated separately from the claim determination, but conceded that
it would all be part of the overall liquidation proceeding. aGC Assistant General Counsel # 1 Testimony
Tr. at 75-77.

                                                   66 

               A. That's right.

               Q. -- and allow the net winners to retain that.

               A. That's right. They could still claw back, but-­

               Q. Not as much.

               A. But not as much, yeah.

Macchiaroli Testimony Tr. at 73.

       SIPC's President explained that using a Constant Dollar Approach would reduce
the amount of the clawback and detract from the distributions to customers:

               Q. Now with respect to the constant dollar approach, and
               just to be clear, is there an impact on someone in David
               Becker's position, given his mother's account that he
               inherited that account, of the use of a constant dollar
               approach, versus the money-inlmoney-out method?

               A. Yes. It would increase the principal, if you will, that
               would thus not be subject to a fraudulent transfer. And it
               would -- the other consequence of it was not just two
               people receiving a benefit of constant dollars, but again,
               because it would decrease the distribution to other
               customers, it would detract from what would -- what other
               people would get who had not been made [whole], for the
               benefit of people who had been A) made whole, and B)
               received fictitious profits.

Harbeck Interview Tr. at 46.

        Becker disagreed with the concept that the method used to determine net equity
would also be used to determine the amount to c1awback, stating: "I'm morally certain
that ... if the courts finally rule that it's constant dollars, the trustee is not going to feel
constrained in terms of the clawback actions that he'll bring." Becker Testimony Tr. at
65. His rationale for this position was the fact that clawback liability as a general
bankruptcy principle under state law was not related to issues arising under SIP A. /d. at
66. He further testified that he had no understanding of whether the Trustee would also
apply whatever method ruled to be applicable to determining claims, such as the Constant
Dollar Approach, when determining how much to seek in c1awbacks. Id. at 68.




                                              67 

      3. The Constant Dollar Approach Would Decrease the Amount Sought from Becker

        An analysis performed by Harbeck under the Constant Dollar Approach indicated
that the amount sought in the clawback suit against Becker and his brothers would be
reduced by approximately $140,000. Harbeck first mentioned this analysis to Chairman
Schapiro shortly after the press coverage of the Becker c1awback suit began. Harbeck
Interview Mem. at 1; Schapiro Testimony Tr. at 72-73; Ex. 117. Harbeck said that he
would have done "back of the envelope calculations" to determine the difference of
bringing c1awback suits under the Constant Dollar Approach, as opposed to another
method. Harbeck Interview Mem. at 1. Harbeck explained that he would have
performed the analysis by looking at the clawback complaint filed against Becker to
determine what the fictitious profits/damages would be under the Money InlMoney Out
Method and then would calculate the amount by which that principal would be reduced
under the Constant Dollar Approach. Id. The OIG made an effort to recreate this
analysis based on this description and asked Harbeck to review the analysis. Id. at 2 and
Ex. A thereto. The OIG's analysis calculated that a benefit of approximately $138,500
would result from applying the Constant Dollar Approach in the Becker c1awback suit by
adjusting the amount of principal invested of approximately $500,000 by a percentage
inflation adjustment calculated from the Department of Labor's Bureau of Labor
Statistics Consumer Price Index ("CPI") Table. Upon review, Harbeck, through his
counsel, confirmed that it did approximate his methodology. Id. at 2 and Ex. B thereto.
Counsel added that although Harbeck's analysis may have used a different multiplier, as
opposed to the CPI data used by the OIG, "the concept, and the result, were the same."
Id.

        Although Becker did not review this specific analysis, he disagreed with the
concept that applying the Constant Dollar Approach would result in a $140,000 reduction
to the amount that the Trustee could seek to recover in the c1awback suit against him and
his brothers. Becker Testimony Tr. at 89. Becker testified: "I don't think [Harbeck's]
correct. I think he's wrong, as a matter oflaw, [for] the reasons that I mentioned, or may
be wrong as a matter oflaw, and I think his numbers are way off. They're way off
because ... [t]he amounts that they had thought I had gotten are way overestimated [and
would have to, in any event, be] divided by three." Id. In any event, Becker testified that
he "[a]bsolutely" did not make any attempt to put himself in a better financial position as
a result of his work at the SEC, explaining: "I can say with some confidence that that
never occurred to me. I'm not sure what I would have done ifit had occurred to me. I
don't know that I would have known how to put myself in a better financial position.
I sure did not use an instant of my time while I was at the SEC trying to improve my
financial position." Id. at 88.

       v. 	   Becker Also Worked On SIPA Amendment That Would Have Affected
              the Trustee's Ability to Bring Clawbacks

       On October 27,2009, OLA Deputy Director #1 of the SEC's Office of
Intergovernmental and Legislative Affairs ("OLA") forwarded Becker a draft amendment

                                            68 

ofa portion of SIPA, as well as TM's analysis of that proposal, and asked Becker ifthere
was "any reason SEC staff should weigh in tomorrow on an amendment to be considered
during a House Financial Services Committee markup regarding the ability of the SIPC
trustee to do clawbacks[.],.45 Ex. 118. The proposed amendment was entitled,
"Clarification Regarding Liquidation Proceedings" and amended Section 6 of SIPA (15
U.S.C. § 78fft) to add:

                 Notwithstanding any other provision of this Act, no action
                 under Sections 544, 547, or 548 of title 11, United States
                 Code, may be brought against a customer of a registered
                 broker or dealer to recover funds received representing
                 either principal or income on the customer's account absent
                 proof that the customer did not have a legitimate
                 expectation that the assets in his account belonged to him.

Id. As discussed in Section I.A supra, Sections 544,547, and 548 are the provisions that
allow a SIPA trustee to bring clawback actions, and, accordingly, this amendment, if
enacted, would have precluded the Trustee from bringing clawback actions like that
against Becker, which were the majority ofthe clawback suits brought, i.e., suits that did
not rely on any knowledge of the alleged wrongdoing.

        Becker responded to OLA Deputy Director #1 later that day, stating:

                 It's incomprehensible: it's [sic] effects are either huge or
                 zero. I take it the intention is to prevent all preference
                 actions in SIPe proceedings except where it can be proven
                 that the customer somehow acted in bad faith. If that's it,
                 it's a huge change in the bankruptcy law, which is a bit
                 beyond me. It basically prevents Trustees from
                 redistributing assets from those who already have them to
                 ... those who don't, and it doesn't seem fair to me.

Ex. 120. Becker did not recall sending his e-mail, but did not dispute that he sent it.
Becker Testimony Tr. at 72,

       Our investigation did not identify specific documentation that SEC staff
ultimately provided on this proposed amendment, which was withdrawn a few days later.
Markup, Discussion Draft, Investor Protection Act of2009 (to be reported as H.R. 3817),
October 27 and 28, November 3 and 4, 2009, at www.financialservices,house.gov; see


45 OLA Deputy Director #1 previously received a request from the staff of the House Subcommittee on
Capital Markets, Insurance and Government Sponsored Enterprises to provide comments on this and
another proposed SIPA amendment. Ex. 119. The staff described the amendment as "prevent[ing] the
trustee from clawing back any funds from a customer had did not have a legitimate expectation that the
assets belonged to him," ld.

                                                   69 

also Ex. 119. However, Sr. TM Official testified that his recollection was that the SEC
staff did weigh in on the amendment, which they viewed as being "very problematic,"
and that the bill was not passed. Sr. TM Official Testimony Tr. at 108~09.

        Becker testified that he was not sure that what he said in this e~mail "rises to the
level of advice." Becker Testimony Tr. at 72. However, he also testified that he would
have to consider whether there would be a potential conflict of interest, or an appearance
thereof, ifhe provided advice regarding a SIPA amendment that would limit the ability of
a SIPA trustee to bring c1awback actions. Id. However, he stated that he did not "take
these seriously as things that might, in fact, happen" because there is a "certain amount of
political grandstanding that went on for the benefit of [Congressional] constituents who
were at risk." Id. at 73. See also id. at 74 (he regarded this amendment as "essentially.
political noise."). Becker did not believe that he sought ethics advice regarding providing
advice on amendments to SIPA. Id. at 72~ 73. Becker further testified that he did not
recall thinking about conflict or appearance issues arising from his provision of comment
on amendments to SIPA. 46 Id. at 73.

    VI. 	    Becker Was Initially Scheduled to Testify at a Congressional Hearing
             Regarding Madoff/SIPC Issues

       On or around October 23,2009, the SEC, through OLA, learned that the House
Subcommittee on Capital Markets, Insurance, and Government Sponsored Enterprises
was scheduling a hearing on SIPC and the Madoffvictims. Ex. 121. OLA Deputy
Director #1 of OLA forwarded an e~mail from the subcommittee to Becker and Hu, and
Becker responded asking if she knew on what issues the subcommittee would focus. Id.
OLA Deputy Director #1 also informed Chairman Schapiro, her staff, others in OLA, and
Becker that the hearing was tentatively being scheduled for November 19,2009. Ex.
122. Chairman Schapiro initially suggested that Gallagher was probably the best witness.
Id. She testified that her suggestion was because SIPC was part of Gallagher's
responsibility. Schapiro Testimony Tr. at 60.

        Shortly thereafter, the SEC learned that the Congressional testimony would focus
on legal aspects of the SIPC/Madoff issues. Spitler Testimony Tr. at 13-14. Chairman
Schapiro sent an e-mail to Becker regarding the hearing, stating: "I wonder if it makes
sense for you to testify ...." Ex. 123. Becker responded: "In truth, I think it depends
on what the hearing is likely to be about. If it makes sense, I'd of course do it ...." Id.
Chairman Schapiro stated that she did not think Becker liked to testify and noted that he
never testified before Congress during his tenure as General Counsel. Schapiro
Testimony Tr. at 61. Her view was that the testimony concerned "very specific legal



46 Commissioner Aguilar testified that he would have advised Becker to recuse himself from giving advice
on a statute that would completely outlaw clawbacks, ifhe was aware that there was a possibility that he
could be subject to a clawback suit because of his mother's estate's account. Aguilar Testimony Tr. at 19­
20.

                                                    70 

issues" dealing with interpretation of SIPA and related caselaw, making it "a particularly
legal sort of a hearing." ld.

         After the Chairman's suggestion and by November 2,2009, it was generally
understood that Becker would be the Commission's witness at the subcommittee hearing.
Becker testified that he thought there was "a consensus that [he] was the logical person to
testify." Becker Testimony Tr. at 77. Contemporaneous documents established this fact.
See, e.g., Ex. 124 ("I think David Becker will be the witness because it is focused on
SIPC matters involved in Madoff."); Ex. 125 ("The House MadofflSIPC hearing is going
to focus on the legal arguments on SIPC, so Becker will be the lucky one to testify.,,).47

       On November 3,2009, OLA Director Spitler sent an e-mail to Becker regarding
his upcoming testimony:

                  This is to follow up on our conversation yesterday about
                  your testifying on behalf of the Commission at a hearing by
                  the House Capital Markets Subcommittee on November 19.
                  The topic of the hearing is to discuss the interaction of
                  Madoffvictims with SIPC, especially competing theories
                  of distribution, clawbacks, etc....

                  Our sense is that the testimony should probably start off
                  with a brief general description of SIPC and how it works
                  followed by a description ofSIPC's role with regard to the
                  Madoffvictims. There also should probably be discussion
                  ofthe different potential methods of distribution and a
                  statement of the Commission's preferred approach if we
                  have guidance from the Commission.

Ex. 126. Becker forwarded this e-mail to various aGC personnel, stating, "This is
plainly an added burden that nobody needs. Having said that, I'd like to avoid




47 See also OLA Deputy Director #2 Testimony Tr. at 12 ("my memory is that David Becker initially was
going to be the witness"), at 13 {"Q. SO it seems clear and is it your recollection that initially the idea was
for David Becker to testify at this hearing? A. That is my memory, yes, that Mr. Becker would be the
witness."} and at 14 ("Again, that's consistent with my memory that Mr. Becker initially was going to be
the Commission's witness."); Spitler Testimony Tr. at 15 ("Q. SO at this point in time as of November 2nd,
this is when you were describing earlier that David Becker was the initial person to be the witness[?] A.
Yes.") and at 20 ("So it's clear though, as of November 4,2009, that David Becker was still the intended
person to testify[?] A. Yes. Yeah."); OGC Assistant General Counsel # I Testimony Tr. at 107 ("initially
David was going to do the testimony"); Conley Testimony Tr. at 42 ("Q. It looks like from this e-mail
string, the testimony that you described earlier, David Becker was initially going to testify at that hearing,
right? A. That's correct.").

                                                      71 

publication ifat all possible, and I'll need some help.,,48 Ex. 127. He asked to meet the
following day to discuss the testimony. Id.

        OGC and OLA then began the process ofdrafting and preparing testimony for
Becker to provide at the subcommittee hearing. On November 4,2009, Conley e-mailed
Spitler and OLA Deputy Director #2, copying Becker and others in OGC, an outline for
Becker's testimony and stated that he anticipated a draft by November 10,2009. Ex.
128. The outline indicated that the testimony would address the effect of the various
approaches for distributions to claimants. Id. Various contemporaneous documents
established that the plan was that Becker would testify on behalf of the Commission. Ex.
129 (referring to "David [Becker]'s congressional testimony on November 19th,,); Ex.
130 ("I'm working on drafting David [Becker]'s testimony for the Capital Markets
Subcommittee hearing."); Ex. 131 (referencing "DB Testimony"); Ex. 132 (attaching
draft David M. Becker testimony re: MadofflSIPC).
              A. 	 Subsequently, It Was Determined that Becker Would Disclose His
                   Madoff Interest If He Were to Testify, and the Decision Was Made
                   for Becker Not to Testify

        At some point after the initial determination that Becker would testify at the
subcommittee hearing, Becker discussed the proposed testimony with Spitler. Becker
stated that he approached Spitler because he "shouldn't be [his] own counselor with
respect to any risk [to] the Commission if [he] were the one who testifies." Becker
Testimony Tr. at 77. Becker explained that he informed Spitler that his mother had a
Madoff account from which he "had gotten an inheritance." Id. He stated that he also
told Spitler that he had discussed the issue with SEC Ethics Counsel Lenox and was
"perfectly prepared to testify," and that he wanted Spitler to know about this fact in case
Spitler did not think he should testify. Id. Becker's recollection was that Spitler
considered the question for a few minutes and concluded that he could not think of any
reason why Becker should not testify. Id. Becker also explained that at some point,
whether in this conversation or one that followed, "... I said, 'Of course, if I do testify, I
would put at the beginning, I would mention my, the fact of my mother's account with
Madoff:' Because ... I would want to take any nondisclosure issue off the table." /d. at
78.

        Spitler recalled as follows regarding his conversation with Becker:
                 He ... told me ... that his ... mother had had, I guess, an
                 investment with Madoffthat ... when she passed away, as
                 part of her estate, he and his brother had inherited money
                 from that, that the chairman was aware of that and that he
                 had also communicated that to the Ethics office, and they

48Becker could not recall what he meant by the phrase "avoid publication," and others in OGe did not
recall what he meant. Becker Testimony Tr. at 75-76; see also Cahn Testimony Tr. at 28-30; Conley
Testimony Tr. at 42.


                                                   72 

                  had cleared him to work on Madoff issues. But he wanted
                  me to know that as I was making decisions about who
                  should represent the Commission.

Spitler Testimony Tr. at 9-10. Spitler's understanding was that Becker "thought those
were facts [he] should know before [he] made a decision, final decision about who should
be the witness." Id. at 31. Spitler also recalled that during that conversation, he asked
Becker who would be a good choice to testify, if it were not Becker, and Becker
identified Michael Conley. Id. at 24-25. However, Spitler also testified that he "got the
sense that it was [Becker's] preference that someone else testify." Id. at 31. Spitler
further stated that Becker indicated that if Spitler thought Becker "was still the best
witness, then that would be fine, but [Becker] was clearly making it clear to [him] that if
[he] though[t] [Becker] wasn't the best witness, that that was not going to be a problem
either." Id. at 31. Spitler also testified that he told Becker that he "wanted a little time to
think about what [Becker] had told [him]," and he then "took some time to think about
what that might mean for him as a witness." Id. at 10.

         Becker testified that after this conversation, Spitler contacted him later in the day
and said, "You know, now that I think about it, I think it would be better if somebody
else testified. My concern is not that there's anything inappropriate, but my concern is
[ ] that when you're in a political envirorunent, people might want to make something of
that, and it would be a distraction rather than focusing on what the Commission's
position was and why." Becker Testimony Tr. at 78. According to Becker, SEitler said
that he was going to discuss the issue with the Chairman to confirm his view. 9 Id.

       Becker testified that either the evening of his conversation with Spitler or the
following morning, he spoke with Chairman Schapiro about his mother's account.
Becker Tr. at 78-79. Chairman Schapiro recalled the conversation with Becker, although
she could not recall the exact date or whether anyone else was present for that
conversation. Schapiro Testimony Tr. at 62. She described the conversation as follows:

                  I recall saying that if David [Becker] did testify, we needed
                  to make it absolutely clear to Congress that there was this
                  connection, remote though I believed it to be, that his long­
                  deceased mother had had an account at Madoff, so that
                  nobody would be surprised by that, so that we were
                  completely forthcoming with Congress.

Id. Chairman Schapiro did not recall whether Becker said anything in response to her
statement. Id. Chairman Schapiro further testified:




49Although Spitler did not testify regarding this later conversation with Becker, he did testify that he
ultimately concluded that Becker should not testify. Spitler Testimony Tr. at 26.

                                                      73 

                 Q. Now when you suggested that if David Becker were to
                 testify the -- his mother's Madoff account with Madoff
                 would have to be disclosed, was that something that you
                 raised initially, or was it something that David Becker
                 raised? Did you -­

                 A. I believe I raised it ... because I have had this view that
                 we have to be completely forthcoming with Congress, that
                 there's never a good reason not to be.... And I just didn't
                 want there to be surprises ....

Id. at 63. Chairman Schapiro did not recall how the issue was resolved, other than that
Conley ultimately served as the Commission's witness. Id. at 62,63.

         Becker recalled that when he spoke to the Chairman, she said that she had spoken
with Spitler and agreed with him that it would be better if someone else were to testify. so
Becker Testimony Tr. at 79. Becker recalled telling the Chairman that he wanted to
make clear that he was "perfectly willing to do this" and was not trying to take the easy
way out, and that the Chairman laughed and said, "Don't worry. We'll find plenty of
other occasions for you to testify," and continued to tease him about that over the next
year or so. Id. When asked whether he recalled the Chairman also saying that ifhe were
to testify, she would want him to disclose his mother's account with Madoff, Becker
stated that he did not recall that and said, "I told her that was what 1 was going to do. I'm
crystal clear about that. ... I can't tell you how certain 1 am that it was 1 who told the
Chairman that I would disclose this rather than her telling me I would have to disclose it.
... 1 don't have the words to describe my degree ofcertainty because it is so great. ... 1
am quite certain." Id. at 79-81. Becker also testified that during this conversation with
Chairman Schapiro, "she asked who might do [the testimony], and [he] told her [he]
thought ... Michael Conley would do a terrific job."sl Id. at 79.

       Spitler testified that after he had considered the issue, he had a conversation with
Chairman Schapiro about whether Becker should testify. 52 Spitler testified as follows
regarding this conversation:


so The Chainnan did not recall discussing this issue with Spitler, but said it was possible she had a
conversation with him about it. Schapiro Testimony Tr. at 81-82. Spitler did recall speaking with the
Chainnan. /d. at 21-22.
51Spitler also testified that his recollection was "that when David Becker told me that -- about the issue
with his mother's estate that I had asked, you know, ifhe was not the witness, who might be a good
witness. And I think -- my recollection is that he said Michael Conley would be a possibly good choice."
Spitler Testimony Tr. at 24.
52Although he could not recall exact dates, Spitler testified that his conversation with Becker about his
mother's account occurred after the initial November 2,2009 conversation referenced in Exhibit 126, and
that his conversation with the Chainnan occurred after his second conversation with Becker. Spitler
Testimony Tr. at 16, 21. Spitler sent an e-mail to the Chainnan's office on Saturday, November 7,2009

                                                    74 

                   I remember it being a relatively short conversation where I
                   told her that David [Becker] had come to me and told me
                   about his mother's account with Ma~off, that I had thought
                   about it and that even though, as I understood it, the Ethics
                   people had signed off, that I didn't think that he would be
                   the best witness for the Commission and that I thought
                   Michael Conley would be a better witness.

                                                    ***

                   The chairman basically said something to the effect of,
                   "Fine," or whatever I thought was best. I understood it to
                   mean my decision, but I was -- I wanted to make sure she
                   knew about it.

Spitler Testimony Tr. at 21-22.

        Spitler testified that he did not recall discussing whether, if Becker testified, he
would have to disclose to Congress his interest in a Madoff account, explaining, "[i]n my
mind my recollection is I didn't get to that level because I was operating with the
assumption that, assuming everything was true, that it had been cleared by the Ethics
counsel and everything else, would I still want him to be the witness[?] And once I
reached the conclusion that even with those facts as given that I didn't want him to be the
witness, I didn't have to get to the question of whether he should disclose." Spitler
Testimony Tr. at 26. However, Spitler's rationale for Becker not being the witness
referred specifically to the possibility of Becker's mother's account being a distraction,
which would only be the case if the connection were made public. He testified, "The
ultimate reasoning and basis for my decision was that this was -- this was a hearing that
was going to involve Madoffvictims. I didn't have any kind of sense at all about how
this information that involved Mr. Becker would impact the hearing if -- if it came out
either through disclosure or any other way." [d. at 32.

        The OIG investigation concluded that regardless of who determined Becker's
Madoff interest would have to be disclosed were Becker to testify, the decision that
Becker would not serve as a witness was made in large part because he would have
disclosed the fact that his mother had held a Madoff account ifhe testified. This
conclusion is supported by certain draft Congressional responses prepared by personnel
in OGC, with input from OLA. 53 Various iterations of the draft discussed a "consensus
that if Mr. Becker were to testify, then he should disclose the fact that he was a
beneficiary of his mother's estate's former interest in a Madoff account." Ex. 134.

asking for a meeting with the Chairman to discuss "an upcoming testimony," which the Chairman's office
scheduled for Monday, November 9,2009, although Spitler did not recall whether that meeting related to
whether Becker should testify. Ex. 133; Spitler Testimony Tr. at 21.
53   The March 2011 Congressional responses are discussed in more detail in Section VIII infra.

                                                      75
              B. 	 It Was Decided that Conley Would Testify at the Congressional
                   Hearing, and Becker's Interest in a Madoff Account Was Not
                   Disclosed

        By no later than November 10, 2009, the decision had been made that Michael
Conley would be the Commission's witness, rather than Becker. Ex. 135 (attaching draft
testimony titled "Statement of Michael A. Conley, Deputy Solicitor ... ,,).54 After the
decision had been made for Conley to testify, Becker also disclosed his mother's Madoff
account to Conley sometime in early November 2009. Conley Testimony Tr. at 11;
Becker Testimony Tr. at 82. Conley testified, "[Becker] said that his mother had died, I
believe in 2004, and had a Madoff account which was then liquidated and that he and his
brothers had inherited from that account and that he believed this could be a distraction in
the upcoming testimony and therefore asked ... if I would present the testimony."
Conley Testimony Tr. at 12. See also id. at 44 ("he did tell me about his mother and said
that this would be a distraction and so that was the basis for asking me to testify.").
Conley agreed to provide the testimony regarding the SIPC liquidation proceeding. 55 Id.
at 43. Conley, in fact, testified at the subcommittee hearing, which was postponed and
ultimately occurred on December 9,2009,56 and Becker's Madoffinterest was not
disclosed to Congress at that time.

         During this November 2009 timeframe, the fact of Becker's interest in his
mother's estate's Madoff account was not disclosed to the Commissioners or the
bankruptcy court for the Madoff Liquidation, notwithstanding the fact that the
Commission was considering Becker's recommendation on the net equity position to take
in court at this very time. Becker testified that at that point, "[he] didn't see any
particular occasion to disclose it to the other commissioners" and that it "never crossed
[his] mind.,,57 Becker Testimony Tr. at 81. Spitler also testified that he did not consider
informing the Commissioners of this fact. Spitler Testimony Tr. at 35-36. Conley
testified that, other than telling OGC Assistant General Counsel #1 about the account, he

54 See also Spitler Testimony Tr. at 24 ("Q. SO it seems at least by November 10, 2009, that Michael
Conley was going to testify, not David Becker. A. Yes."); aLA Deputy Director #2 Testimony Tr. at 16
("I do recall learning that there was some sort of issue with respect to Mr. Becker and that as a result,
Michael Conley would be a more appropriate witness.").
5S Conley testified that he told aGC Assistant General Counsel # 1 that he would be testifying before
Congress and that he specifically told her that Becker's mother had a Madoff account. Conley Testimony
Tr. at 12-13,44. He testified that aGC Assistant General Counsel #1 had no reaction to that information
other than with regard to Conley "having to present the testimony." ld. at 13. However, aGC Assistant
General Counsel #1 testified that she did not learn about Becker's mother's account until it was made
public in the press in February 2011. aGC Assistant General Counsel # I Testimony Tr. at 16-17.
56Additional Reforms to the Securities Investor Protection Act, Serial No. 111-94 at 40-42 (Dec. 9, 2009),
at http://financialservices.house.govlMediaifile/hearingsllIIlPrinted%20Hearings/l I 1-94.pdf ("Hearing
Transcript").
57Becker also testified that he did not consider disclosure to the bankruptcy court handling the Madoff
Liquidation and explained that it was not called for under these circumstances, as he did "not believe ...
that [he] had a stake in those proceedings." Becker Testimony Tr. at 82.

                                                     76 

did not take any other actions upon Becker infonning him about the account. Conley
Testimony Tr. at 14.

       However, several witnesses testified that disclosure to the Commission would
have been appropriate in light of the fact that it was detennined that Becker would
disclose his interest in a Madoff account ifhe were to testify. For example, OLA Deputy
Director #2 testified that he thought it was a "fair point that if Mr. Becker was going to be
presenting to the Commission [on] this issue, that the issue [of Becker's mother's
account] be disclosed." OLA Deputy Director #2 Testimony Tr. at 49. Current SEC
General Counsel Cahn agreed that disclosure to the Commission would not have been
inappropriate and might have been advisable, although he did not say that there should
have been disclosure. Cahn Testimony Tr. at 55. Commissioner Casey testified that she
would want to understand what the rationale was for detennining that disclosure of
Becker's interest would be relevant to his Congressional testimony but not to his
providing advice to the Commission on the same issue. Casey Testimony Tr. at 15-16.
Commissioner Aguilar testified that it was "incredibly surprising and incredibly
disappointing that there was enough awareness to know that the conflict existed to
prevent [Becker] from giving [this] testimony, yet the decision-makers at the
Commission were not provided that infonnation." Aguilar Testimony Tr. at 12.

            C. The Hearing, Including the Preparation Process, Involved
               Consideration of Claw backs

        As noted above, the initial communication from the House subcommittee
indicated that the hearing would discuss clawbacks. Ex. 121. At this time, it was
understood that whoever testified at the hearing would have to be able to discuss
clawbacks. See, e.g., OLA Deputy Director #2 Testimony Tr. at 22-23. Spitler testified
that he did not know much about clawbacks at that time, as he was relatively new to the
Commission, but that he "knew that they were interested in all of the various issues about
how the proceeds might be recovered and how they might be distributed ... [i]ncluding
clawbacks." Spitler Testimony Tr. at 11-12.

         The invitation to appear before the House subcommittee also contained reference
to clawbacks. The hearing was entitled "Additional Refonns to the Securities Investor
Protection Act," and it asked that written testimony focus on, among other things,
"[p]rohibiting any recovery of principal or interest from an investor without proof that the
investor did not have a legitimate expectation that the assets belonged to him or her." Ex.
136. Upon receipt of the invitation, OLA Deputy Director #2 indicated to Conley that he
had "previously flagged" most, ifnot all, of the proposed refonns and asked TM to make
sure that Conley had all the materials he needed to speak to these issues. /d. Indeed,
OLA Deputy Director #2 already had forwarded Conley an October 28, 2009 e-mail
exchange regarding the substance of an amendment which proposed prohibiting
clawbacks, as described in the hearing invitation. Ex. 137. He also forwarded Conley a
link to the text of the amendment itself. Ex. 119.


                                             77 

         The preparation process included discussion of clawbacks. Spitler Testimony Tr.
at 38-39; OLA Deputy Director #2 Testimony Tr. at 21-23. In a December 3, 2009 e­
mail, OLA Deputy Director #2 questioned, based upon a comment from one of the
Chairman's counsels, whether a certain statement in the draft testimony was accurate,
i.e., that the total pool of customer money would not be altered by whichever approach
the court adopted. Ex. 138. OGC Assistant General Counsel #1 responded as follows
and discussed the interplay between clawbacks and net equity:

               I don't think the statement is accurate if the comparison is
               between cash-inlcash-out method and final account
               statement method. If you satisfy customer claims for net
               equity based upon the fictitious profits on the account
               statements, the court will not let you bring avoidance
               actions to recover payments for fictitious profits prior to the
               liquidation proceeding. This will curtail the amount of
               money that can be recovered for the fund of customer
               property. Thus, cash-inlcash-out means lots of money
               recovered for fund of customer property; final account
               statement potentially means a lot less money recovered.

               The statement is accurate when the comparison is between
               SIPC's cash-inlcash-out and our constant dollar approach.
               Constant dollars should not have a significant effect on
               recoveries for the fund of customer property because there
               would be no payments for fictitious profits. SIPC,
               however, would probably argue that the amount of
               customer property recovered would be less because some
               of the money that might be considered recoverable
               fictitious profits would represent an inflation adjustment.

Id. Spitler asked OLA Deputy Director #2 to make sure to explore this issue in the next
prep session. Id.

        The hearing itselfinc1uded discussion of c1awbacks, both in written testimony and
in the oral statements and questions. For example, Harbeck, who also testified at the
hearing, addressed SIPC's views on various proposals for improving SIPA, including
prohibiting any recovery of principal or interest without proof that the investor did not
have a legitimate expectation that the assets belonged to him. The written testimony of
law professor John C. Coffee addressed, among other things, the same proposal. Hearing
Transcript at 96-101, 125. Both Harbeck and Coffee discussed the issue of clawbacks
during the hearing itself, as reflected in the transcript. See id. at 21-22, 44,50. Conley's
written statement did not address clawbacks, and he did not receive any questions
regarding clawbacks during the hearing. [d. at 40-42, 57-58, 104-118.



                                             78 

   VII.     Becker Was Named as Defendant in A Clawback Action

        On December 1, 2010, the Trustee filed a complaint against the estate of Dorothy
Becker and against David M. Becker and his two brothers as individuals and in their
capacities as co-executors of her estate. See Ex. 139. The complaint was dated
November 12, 2010. Ex. 140. That complaint asserted claims of fraudulent transfer and
sought recovery of all amounts that constituted fictitious profits, approximately $1.5
million. Id. ~ 40. The bankruptcy court issued the summons in that case on February 9,
2011, and the Trustee, through his counsel, served the complaint via United States First
Class Mail on February 10,2011. Ex. 141. The Trustee testified that this lag, both
between the date on the complaint and the date it was filed and between the date of filing
and the date of service, was not atypical, noting, "There was a lag, yes. Many of the
complaints were filed in advance of the date when they were filed [sic]. And then
subsequently there was a lag in the dates when the summonses were issued by the
bankruptcy court." Picard Interview Tr. at 11. Picard further explained that with respect
to Becker, the Trustee likely did not receive the summons from the bankruptcy court until
a few days before it was served in February 2011, which was consistent with the docket.
Id; see also Ex. 141.

        On February 22,2011, the New York Daily News ran an article connecting
Becker to the clawback suit filed against him and his brothers. It stated: ''The family of
the top lawyer at the Securities and Exchange Commission invested with Bernie Madoff
and earned more than $1.5 million in ill-gained profits, according to trustee Irving Picard,
who has named the lawyer, David M. Becker, as a defendant in a clawback lawsuit, a
Daily News investigation has found." Irving Picard hits Securities and Exchange
Commission's top lawyer with Bernie Madofflawsuit, NY Daily News, Feb. 22, 2011,
http://articles.nydailynews.coml2011-02-22/sports/29442051_1_helen-davis-chaitman­
irving-picard-madoff-account. Becker testified that he recalled first learning that he had
been named as a defendant in a cIawback suit when he read about it on the sports page of
the New York Daily News. Becker Testimony Tr. at 83. He also recalled being asked
for comment from members of the press. 58 Id. Other press coverage of the clawback suit
followed shortly thereafter. 59

       Other than the individuals identified and discussed below, numerous SEC
personnel learned of the clawback suit, and Becker's connection to Madoff, via this press
coverage. None of the Commissioners, other than Chairman Schapiro, was aware of the


58 For example, on February 22, 2011, the SEC received inquiries from the New York Daily News seeking
conftrmation that Becker was "the same David Becker named in one of the SIPC trustee's clawback
lawsuits (as executor of mother's estate)." Ex. 142.
59 See, e.g., Bruce Golding & Tom Perone, SEC-MadoffS/lOck- Top Lawyer and His Bros Inherited $1.5M
in Berniebucks, N.Y. Post, Feb. 23. 2011, at 7; Peter Lattman, Top S.E.C. Lawyer Sued by MadoffTrustee,
N.Y. Times Dealbook, Feb. 23, 2011, http://dealbook.nytimes.coml2011/02/23/top-s-e-c-lawyer-sued-by­
madoff-trusteel?ref=securitiesandexchangecommission; David S. Hilzenrath, Madoffvictims' trustee sues
SEC lawyer, Washington Post, Feb. 24.2011, at A12.

                                                  79 

account prior to the press coverage, and the four Commissioners were surprised to learn
the news,60 as demonstrated by the following testimony:

                 Q. When did you first become aware that David Becker's
                 mother's estate held a Madoff account?

                 A. I don't have a precise date. I think I read it. It was in
                 the press - ... was the first time I became aware of the
                 issue.

                 Q. Okay. So it was approximately around February 2011?
                 That's when the-

                 A. Whenever the press first reported on that.

                 Q. . .. What was your reaction to learning the news?

                 A. I was surprised by the revelation.

Casey Testimony Tr. at 6-7.

                 Q. And when did you first become aware that David
                 Becker's mother's estate held a Madoff account?

                 A. When I heard about it after he was sued.

                 Q. Okay. So when it became an issue in the press around
                 February of2011?

                 A.... I don't recall that specifically. But it was at that
                 time.

                 Q. Okay. All right. What was your reaction to learning
                 that?

                 A. Surprise.

Walter Testimony Tr. at 8-9.


60Chairman Schapiro testified that after Becker's mother's account became public, she had conversations
with the Commissions about the account: "I went to tell each of the commissioners that I was deeply sorry
that this had happened and that I never connected the dots. 1 never put together, again, this -- you know,
years-ago closed liquidated account of his mother with the decision-making that the Commission was doing
and that I was profoundly sorry to them for the -- you know, profoundly sorry and apologized to them for -­
for my not realizing that there was an issue here." Schapiro TestimonyTr. at 74.

                                                   80 

              Q. When did you first become aware that David Becker's
              mother's estate held the Madoff account?

              A. To the best of my recollection it was, I think, basically
              contemporaneous with when it was known more broadly
              publicly. I don't recall having any prior knowledge as to
              that.

                                          ***
              Q. Okay. What was your reaction to learning the news?

              A. Well, it caught my attention I think in part because it
              was in the news.

Paredes Testimony Tr. at 6.

              Q. When did you become aware that David Becker's
              mother's estate held the Madoff account?

              A. I don't know the exact date. It would be the early part
              of this year. I read about it in the newspaper.... So
              whenever the newspaper story broke.

                                          ***
              Q. And what was your reaction to learning this?

              A. I was very surprised. It was information that I was
              unaware of. And given the number of discussions that my
              office, in particular, had with the Office of General Counsel
              with respect to the matters mentioned in the article,
              particularly the potential SIPC coverage under the Madoff
              account, and in particular the discussions that my office had
              with the Office of General Counsel as to whether or not to
              use the constant dollar adjustment for inflation dollars
              methodology [which] I was led to believe was not allowed
              because it was akin to interest, which I thought the law
              didn't allow.

              I had quite a few conversations with the Office of General
              Counsel. . . . And so having had so many conversations
              and not to have been apprised of this potential conflict of
              interest was very surprising.


                                           81 

Aguilar Testimony Tr. at 7-8. Indeed, at the time he learned of Becker's account,
Commissioner Aguilar drafted a brief statement reflecting his view of learning that
Becker had inherited funds invested with Madoff. Id. at 9. It stated:

               Commissioner Aguilar first learned of David Becker's
               having inherited funds invested with Bernard Madoff from
               a February 23,2011 media article describing the action by
               SIPA trustee Irving Picard to recover funds from Mr.
               Becker and his brothers. Commissioner Aguilar is
               dismayed that he was not informed of these facts earlier. In
               particular, Commissioner Aguilar would have considered it
               important to know, when the Commission deliberated what
               position to advocate in court regarding how to value the
               claims of Bernard Madoffs victims, that the Commission's
               General Counsel had previously redeemed an investment in
               the Madoff scheme.

Ex. 143; see also Aguilar Testimony Tr. at 9 (indicating that this statement reflected his
view upon learning of Becker's investment with Madoff). Aguilar further testified that as
a Commissioner, he relied upon OGC for unbiased advice, and that if the General
Counsel had a personal interest in a c1awback, that "absolutely" gave him concern as to
whether the information he received was completely unbiased. Id. at 19.

         SEC staff members similarly first learned of Becker's mother's account with
Madoff when it was reported in the press. All the TM personnel who testified or were
interviewed in our investigation stated that they first became aware that Becker's
mother's estate had held a Madoff account at the time that it was reported pUblicly. Sr.
TM Official Testimony Tr. at 11; Macchiaroli Testimony Tr. at 10; Gallagher Interview
Tr. at 6. Risk Fin and OLA staff testified similarly. Risk Fin Senior Official #1
Testimony Tr. at 11; OLA Deputy Director #1 Testimony Tr. at 7; OLA Deputy Director
#2 Testimony Tr. at 9. OGC personnel who worked on the MadoffLiquidation also
testified that they learned of the account through the media. Stillman Testimony Tr. at 7­
8; OGC Assistant General Counsel #1 Testimony Tr. at 15-16 (but see n.55 supra
discussing Conley's recollection of telling OGC Assistant General Counsel #1 about the
account in or around November 2009).

        SEC staff expressed their surprise as to learning about the account. For example,
Sr. TM Official stated that he "was totally surprised" when he learned of the account and
"had no idea." Sr. TM Official Testimony Tr. at 12. Gallagher stated that he was
"surprised" and that "wasn't something [he] knew." Gallagher Interview Tr. at 6. Risk
Fin Senior Official #1 stated that she "was surprised" and "was sorry to hear about it."
Risk Fin Senior Official # 1 Testimony Tr. at 12. 34)        NYRO Trial Counsel, of the
Division of Enforcement in the SEC's New York Regional Office, testified that he was
"just pretty surprised that he, given that, had any involvement in anything to do with the
Madoff stuff at the SEC." NYRO Trial Counsel Testimony Tr. at 35-36.

                                            82 

        Similarly, SIPC's President and General Counsel both learned of Becker's interest
in his mother's estate's account with Madoffwhen that information was revealed
publicly. Harbeck Interview Tr. at 8-9; Wang Interview Tr. at 6-7. Harbeck described
that his initial reaction was "[s]erious concern." Harbeck Interview Tr. at 9. Wang
explained that her reaction to the news was "[i]ntense surprise." Wang Interview Tr. at 7.
The Trustee also learned of Becker's interest through a news account, and his reaction
was surprise, as that information "had certainly never been disclosed to [him].,,61 Picard
Interview Tr. at 6.

        SIPC officials told the OIG that when they learned of Becker's interest in his
mother's estate, they believed that his participation in the Madoff Liquidation would
constitute a conflict of interest. Harbeck explained to the OIG:

                 We had been dealing for over a year with Mr. Becker who
                 did not recuse himself from discussions of matters which
                 would clearly affect what that account would receive or
                 would be subject to in terms of preferences or fraudulent
                 transfers....

                 Indeed, we had asked Mr. Becker to recuse himself from
                 discussions of matters involving Lehman Brothers. And he
                 left the room when we were discussing Lehman Brothers
                 because we knew that he was involved in his capacity as an
                 attorney for Cleary with Lehman.

                 Q. So how would you compare a possible conflict being an
                 attorney for Cleary -- with Cleary for Lehman Brothers
                 versus the financial interest he had in the Madoff matter?

                 A. I think the financial interest he had in the Madoff thing
                 is a far clearer conflict. . .. This is money in and out of his
                 pocket.

Harbeck Interview Tr. at 9. The General Counsel explained that ifSIPC had known of
his involvement with his mother's estate's account, they would have asked that he be
excluded from discussions on Madoffissues. Wang Interview Tr. at 7. She further stated
that she believed that a person who inherited a Madoff account and thus potentially could
have been subject to a clawback suit should not have worked on the Madoff Liquidation
for the SEC. Wang Interview Tr. at 14-15.



61The Trustee also stated that his lawyers filed the clawback action against Becker and he was personally
unaware of the sp.ecific suit until he saw the press reports. Picard Interview Tr. at 7-8.

                                                    83 

        The OIG's investigation identified several SEC personnel who were, in fact,
aware of Becker's mother's estate's account prior to the press coverage of the clawback
suit in February 2011. These personnel were: Chairman Schapiro, then-Deputy General
Counsel and current General Counsel Mark Calm, Deputy Solicitor Michael Conley,
OLA Director Eric Spitler, Special Counsel to the Chairman Ricardo Delfin, then-Ethics
Counsel Bill Lenox, and Assistant Ethics Counsel #3. This report addresses the
knowledge and actions of Chairman Schapiro in sections III.B and VI.B, of Spitler in
Section VI.B, and of Lenox and Assistant Ethics Counsel #3 in Section XI.C and D.

        Calm recalled a conversation with Becker sometime in approximately spring
2009, after Cahn had joined the Commission, in which Becker told him that his parents
had had a Madoff account. Cahn Testimony Tr. at 12. Cahn also thought that Becker
told him that the account had been liquidated to pay estate taxes, and that Cahn assumed
that Becker was one of the beneficiaries of the estate. Id. at 12-13. Cahn also recalled
generally that Becker told him that he either had or was going to discuss the account with
Ethics Counsel. Id. at 13. He believed that the context ofthe discussion was that the
SEC had been asked to become involved in the net equity issue, and Becker was "alerting
[him] to the fact that we were going to be involved, or may become involved, in that
matter, and this was something that either he had cleared through ethics or he would need
to clear through ethics just to make sure he could participate in it." Id. Cahn also
recalled that Becker mentioned that he had told the Chairman about the account, although
he did not recall whether Becker specified exactly what he told the Chairman. Id. at 34.
Cahn did not believe that he talked to anyone else about the fact that Becker's mother's
estate had a Madoff account after his conversation with Becker. Id. at 14.

        Conley testified that when he learned of Becker's mother's account (see Section
VI.C), he was aware that Becker had been working on the SIPC liquidation for nine or
ten months, and as he was familiar with the ethics procedures in place, he "assumed that
[Becker] had, in fact, obtained clearance to work on [the matter]." Conley Testimony Tr.
at 14. Conley did not have any conversation with Becker about him obtaining clearance
or raising the issues with the Ethics Office and did not take any other action in response
to the conversation with Becker. Id.

        Delfin testified regarding a very brief conversation he had with Becker in Mayor
June 2009 in which Becker referred to the fact that his mother had a Madoff account.
Delfin Testimony Tr. at 6-7, 9-10. Delfin testified that at the time of this conversation,
which occurred shortly after Delfin joined the Commission, Madoffwas the "big issue"
that the Commission was addressing. Id. at 6-7, 14. During this brief conversation with
Becker, Delfin mentioned that he had a former colleague whose spouse's family had lost
money investing with Madoff: and he wanted to flag that issue just to make sure he was
not restricted from working on Madoffmatters because of that connection. Id. at 12-13.
In response, Becker said that his mother had a Madoff account. Id. at 9, 12. Delfin
further testified that the implication he received from Becker's response was that he did
not have to recuse himself from any Madoffmatters, adding, "[C]ertainly the message
was 'That's ridiculous. You don't have to recuse yourself. That's the dumbest thing I've

                                            84 

ever heard' -- was sort of the look of, 'You're a fooL' ... And the sense I got was
[Becker] had looked into it. He knows the rules, and it's done." Id. at 12.

  VIII. 	 The SEC Responded to March 2011 Congressional Requests for 

          Information 


        On February 24,2011, Chainnan Schapiro received a letter from the Chairman
and Vice Chainnan of the House Financial Services Committee, the Chainnan of the
Subcommittee on Oversight and Investigations, and the Chainnan of the Subcommittee
on Capital Markets and Government Sponsored Enterprises. Ex. 144. That letter sought
responses to questions regarding, among other things, Becker's awareness of the
submissions of Harry Markopolos (discussed at Section X infra), his contacts with
Madoff, his work on Madoff-related matters, and his communications with the SEC upon
his February 2009 return regarding his mother's estate's account. Id. Becker responded
to that February 24,2011 letter at the Chainnan's request. Ex. 61.

        The initial draft of Becker's February 25,2011 response was prepared by OGC
Assistant General Counsel #2. OGC Assistant General Counsel #2 Testimony Tr. at 10;
Ex. 145. She participated in a meeting with Becker and others to prepare for
Congressional briefings and discussed through responses to the letter before circulating a
draft for comment. OGC Assistant General Counsel #2 Testimony Tr. at 12-32; Ex. 146.
She received edits from a variety of personnel, including Lenox and Becker. Ex. 145;
Ex. 147.

        On March 1,2011, Chainnan Schapiro received an additionalletter from
Chainnan Bachus and others seeking answers to certain questions raised by Becker's
February 25, 2001 letter. Ex. 148. Shortly thereafter, on March 3, 2011, Chairman
Schapiro received a letter from the Chainnan of the House Committee on Oversight and
Government Refonn and the Ranking Member of the Senate Committee on the Judiciary.
Ex. 149. This letter requested additional infonnation and documents regarding
communications between Becker and the Chainnan regarding Becker's mother's account,
the ethics advice sought and received by Becker, and Becker's participation in various
Madoff-related matters.

        OGC was tasked with gathering infonnation and drafting responses to March 1
and 3, 2011 letters. Cahn Testimony Tr. at 42-44; Ex. 150. OGC Assistant General
Counsel #2 and OGC Attorney #1 worked to gather factual infonnation by, among other
things, interviewing and gathering infonnation from Becker, Conley, Lenox, and
Chainnan Schapiro, collecting e-mails for review, and working with TM to obtain certain
infonnation from SIPC. OGC Assistant General Counsel #2 Testimony Tr. at 10, 30, 39,
50,54-56.

        Question 1 of the March 1,2011 letter from Chairman Bachus noted that Becker's
February 25,2011 letter stated that he had infonned Chainnan Schapiro about his interest
in his mother's Madoff account and stated: "Please detail the communication(s) between

                                            85 

you and Mr. Becker regarding his mother's Madoff account." Ex. 148. On Saturday,
March 5, 2011, OGC Attorney #1 circulated an OGC draft of responses to the March 1
and 3, 2011 Congressional requests seeking comments from a Counsel to the Chainnan,
OLA Deputy Director #2, and Spitler ofOLA, and Cahn. Ex. 151. That draft included
the following language regarding a November or December 2009 discussion between
Chainnan Schapiro and Becker regarding Becker's mother's estate's account:

                 Although I do not generally recall the specifics of the
                 conversation, I do generally recall that Mr. Becker's
                 mother's estate's account was mentioned in a discussion in
                 or around November or December of2009. Although I do
                 not recall anyone else being present at that meeting, it is my
                 understanding that Eric Spitler, the Director of our Office
                 of Legislative and Intergovernmental Affairs, may also
                 have participated in a part ofthat discussion. The SEC had
                 been invited to provide a witness to testify before the
                 House's Capital Markets and Government Sponsored
                 Enterprises Subcommittee on the Commission's views on
                 the liquidation ofBernie Madoff Investment Securities,
                 LLC (BMIS) being conducted by the Securities Investor
                 Protection Corporation (SIPC). The focus of the proposed
                 testimony was to be a discussion of the principal legal
                 authorities on the issue of how to establish the value of
                 claims by Madoff customers. The referenced discussion
                 was about who should testify on the SEC's analysis of that
                 legal question. Even though Mr. Becker had no actual or
                 apparent conflict of interest regarding Madoff matters in
                 general or the particular Madoff issue that was the subject
                 of the hearing, there was a consensus that if Mr. Becker
                 testified, in the interest of full candor to the Congressional
                 panel he would disclose his mother's estate's interest
                 anyway. That disclosure may have become a distraction
                 from the important subject matter at hand. It was
                 ultimately decided that Michael Conley, the SEC's Deputy
                 Solicitor, would testify. Mr. Conley is the Commission
                 attorney most familiar with the issue because he is
                 principally responsible for representing the SEC in court on
                 matters related to that issue.

Id. at 3 and 4. 62 In a subsequent draft, certain additional edits were made to the language
regarding the November 2009 discussion. Spitler suggested changing one sentence to

62Question 7 of the letter from Chainnan Issa asked: "After Mr. Becker's initial disclosure to Chainnan
Schapiro that his late mother's estate had included proceeds from the Madoff Account, did Mr. Becker or
Chainnan Schapiro mention the matter to one another again? If so, when?" Ex. 149. The draft contained
similar language to respond to this question and Question 1 of the letter from Chainnan Bachus. Id. at 5.

                                                    86 

read, "To ensure that there was no issue with regard to the impartiality of the
Commission's testimony, it was ultimately decided ...." Ex. 152. Cahn also
commented on whether Spitler's suggested language provided an accurate description of
the Commission's thought process at that time. Ex. 153.

       OGC Assistant General Counsel #2 then circulated a revised draft response to
Calm, OLA Deputy Director #2, Spitler, OGC Attorney #1, and Delfin. The language in
question now read:                              .

              In addition, although I do not recall the specifics of the
              conversation, I do generally recall that Mr. Becker's
              mother's estate's account was mentioned in a discussion in
              or around November or December of2009. Although I do
              not recall anyone else being present at that meeting, it is my
              understanding that Eric Spitler, the Director of our Office
              of Legislative and Intergovernmental Affairs, may also
              have participated in a part of that discussion. The purpose
              of the conversation was to determine who should testify on
              behalf of the SEC at an upcoming hearing of the Capital
              Markets and Government Sponsored Enterprises
              Subcommittee of the House Financial Services Committee
              concerning the legal question of how to establish the value
              of claims by Madoff customers under the Securities
              Investor Protection Act (SIP A). In the course of that
              discussion, I recall there being a consensus that if Mr.
              Becker were to testify, then he should disclose the fact that
              he was a beneficiary of his mother's estate's former interest
              in a Madoff account. As the subject of the testimony was
              the Commission's decisions and legal recommendations, it
              was ultimately decided that the SEC's Deputy Solicitor,
              Michael Conley - one of the principallitigators
              representing the agency in the court's determination of that
              SIPA issue - would be the SEC's witness.

Ex. 134. Shortly thereafter, OLA Deputy Director #2 responded to the same group to
discuss a plan for getting a draft to Chairman Schapiro for her review. Ex. 154. The
~IG's investigation did not identify evidence that these drafts were circulated further
after this time or that they were circulated to the Chairman.

        Around this same timeframe, on March 4, 2011, Congressional staff requested
confirmation from the SEC that the OIG would have primary responsibility for collecting
documents and responding to their requests in their March 3, 2011 letter. Ex. 155.
Additionally, the OIG raised concerns regarding the participation of OGC in responding
to the Congressional inquiries. Cahn Testimony Tr. at 42; OLA Deputy Director #2
Testimony Tr. at 30. The OIG also emphasized to both OGC and the Chairman's office

                                            87 

the importance of not taking any steps that would interfere with the OIG's investigation
and advised that any responses provided to specific questions should be limited and based
only on personal knowledge. After consultation with Congressional staff and the OIG, it
was ultimately determined that OGC would have no further involvement in collecting
documents or drafting narrative responses to the Congressional inquiries. Id.; Cahn
Testimony Tr. at 43-44. Late on Monday, March 7, 2011, Matt Martens and Joe Brenner,
who were the Chief Litigation Counsel and Chief Counsel of the Division of
Enforcement, respectively, were brought into the process to advise the Chairman in
providing narrative responses to the inquiries. Cahn Testimony Tr. at 43-44; Brenner
Testimony Tr. at 8; Martens Testimony Tr. at 8-9; see also Ex. 156. Accordingly, OGC
was removed :from the process and did not participate further in the drafting of the
Chairman's responses. Cahn Testimony Tr. at 44; OLA Deputy Director #2 Testimony
Tr. at 29,60-61.

         On the following morning, March 8, 2011, Martens and Brenner met with
Chairman Schapiro to obtain her best recollection of the various issues raised in the two
letters. Brenner Testimony Tr. at 8-9; Martens Testimony Tr. at 14-15; Ex. 157; see also
Schapiro Testimony Tr. at 69. Their notes of this meeting reflect that Chairman Schapiro
indicated that she recalled telling Becker that ifhe were to testify at the SIPC hearing, he
should disclose his interest in his mother's estate's Madoff account. Ex. 117 at 1, 2("MS
suggested that DB simply disclose the closed acct" and "MS did advise DB that ifhe
testified he would need to disclose to Congress his Madoff connection"); Martens
Testimony Tr. at 22 ("Q. SO it was clear :from the interview that you had with Mary
Schapiro on March 8th that this issue about David Becker's mother's account was raised
a second time in connection with the hearing before Congress? A. Correct. Q. And that
at that time Mary Schapiro suggested that David Becker should disclose the account to
Congress? A. That ifhe was going to testify he needed to disclose the account,
correct."); Ex. 158 at 2 ("MS to DB: [I]fyou testify, you have to make it clear [that you]
have this connection w/Madoff. DB: [O]f course, absolutely"); Brenner Testimony Tr.
at 15 ("Q. SO it was clear from one of the conversations you had with Mary Schapiro that
she was saying that she told David Becker that ifhe testifies, he has to in some way
disclose his connection with Madoff? A. That's the substance. I can't remember the
words exactly, but that was the substance I remember hearing at some point.").

        However, the final versions of the Congressional responses were sent the same
day that Brenner and Martens met with Chairman Schapiro, and did not reference to the
fact that Becker was initially identified as the Commission's witness for the December
2009 hearing or that he was advised that he would have to disclose his mother's estate's
Madoff account ifhe were to testify. The responses simply stated:

               After Mr. Becker provided the initial information to me
               regarding his mother's closed Madoff account, I recall
               having an additional discussion with Mr. Becker regarding
               the matter in the late fall of2009. That discussion
               concerned the designation of Commission staff to testify

                                            88 

                 before a congressional subcommittee regarding legal issues
                 arising from the liquidation of Bernard L. Madoff
                 Securities LLC being conducted by the Securities Investor
                 Protection Corporation. During that discussion, either Mr.
                 Becker or I referred to the information he had previously
                 provided to me regarding his mother's closed Madoff
                 account.

Ex. 62 at 2; see Ex. 63 at 2. 63

         Martens and Brenner both testified that after preparing a draft of the responses
that reflected their understanding based on information from Chairman Schapiro, they did
review OGC draft responses to make sure that they had not missed something. Martens
Testimony Tr. at 13; Brenner Testimony Tr. at 20. Martens and Brenner did not recall
that their review disclosed that they were missing anything significant. Martens
Testimony Tr. at 13-14 ("we didn't see any glaring issue"); Brenner Testimony Tr. at 20
("[t]here was nothing in there that seemed of th[e] sort of dramatic nature that would
cause us to reconsider her current recollection of the events."). Although they could not
say with certainty which OGC draft responses they reviewed, both Brenner and Martens
agreed that the final version submitted to Congress did not include discussion of the fact
that if Becker were to testify, he should disclose the fact of his mother's estate's interest
in a Madoff account. Martens Testimony Tr. at 62, 65; Brenner Testimony Tr. at 25, 27­
28.

        Martens agreed that Chairman Schapiro had told Brenner and Martens that she
recalled this fact, but could not remember why that information was not included in the
final version of the letter. Martens Testimony Tr. at 64-65. Brenner also agreed
regarding what Chairman Schapiro had told them about her recollection on this point, but
was unsure whether she told them this before the letters were finalized. Brenner
Testimony Tr. at 26. He also explained that the letters were not meant to "present an
exhaustive list of every fact [the Chairman] might remember," but rather were "intended
to be more of a high-level response based on her unrefreshed recollection to flag the time
periods of conversations, the subject matters of conversations..." [d. at 26-27.
Chairman Schapiro testified that in March 2011 when the Congressional responses were
drafted, she was aware of the discussions that if David Becker were to testify at the
Congressional hearing, he would have to disclose his Madoff connection, as she was the
one who suggested it. Schapiro Testimony Tr. at 70; see also id. at 62-63. However, she
could not remember the specific edit to the letter, but recalled trying to keep the letter
general and ensure that it "didn't say anything we weren't sure of ...." ld. at 71.



63 The responses noted that they were prepared without assistance from anyone in OGe and, because the
Chairman had "not had an opportunity to review the relevant documents that the OIG may gather or
otherwise refresh [her] recollection," her answers were "based on [her] best recollection of the events in
question, some of which occurred as long ago as two years." Ex. 62 at 2; see also Ex. 63 at 2.

                                                     89 

        Neither Brenner nor Martens knew whether the Chainnan or the SEC at any point
infonned Congress of the fact that, if Becker were to testify at the previous Congressional
hearing, a decision or recommendation was made that he would have to disclose the fact
that he was a beneficiary ofhis mother's estate's Madoff account. Martens Testimony
Tr. at 66; Brenner Testimony Tr. at 28. The Chainnan also was not aware of any
communication to Congress of this fact. Schapiro Testimony Tr. at 72.

    IX.    Becker Worked On Other Madoff-Related Matters

        The OIG investigation also reviewed whether Becker worked on other Madoff­
related matters in addition to the net equity issues in the SIPC liquidation proceeding
during his second tenure at the SEC.

            A. Becker's Participation in Other Aspects of the Madoff Liquidation

        Becker participated in several issues raised in the Madoff Liquidation other than
the net equity detennination. For example, the SEC and SIPC also had to consider what
constituted a "customer" under SIP A, which was a defined term in the statute. See 15
U.S.C. § 78111(2). From the outset, SIPC and TM flagged the definition of "customer" as
an issue. Exs. 45 and 46. On June 23, 2010, OGC Assistant General Counsel #1
circulated to Becker and others a draft Action Memorandum on the issue of whether an
investor in a "feeder fund" that had a BMIS account would be considered a customer in
the Madoff Liquidation. Ex. 159. Becker provided "minimal comments" on the draft
shortly thereafter. Ex. 160.

        On July 8,2010, the Commission considered the OGC's Action Memorandum on
the feeder fund issue, which recommended that the Commission file a brief agreeing with
the Trustee that only the feeder fund, and not its investors, is a customer entitled to
payment from the SIPC Fund. Ex. 161. Becker attended that meeting and addressed
several questions from the Commissioners. Id. The Commission voted to approve the
recommendation with some modification, and the staff was to review the customer briefs
once filed to detennine if any footnote regarding a potential SIPC claim by feeder fund
investors was warranted. Id. Thereafter, OGC Assistant General Counsel # 1 circulated
an additional memorandum to Becker and others addressing the briefs filed by the feeder
fund investors and the Commission's concerns raised at the July 8, 2010 meeting and
subsequently circulated a draft brief and Commission memorandum to Becker and Cahn.
Ex. 162; Ex. 163. Becker provided "[j]ust a few comments on the brief" and "none on
the memo." Ex. 164.

        At a meeting on August 4, 2010 attended by Becker, the Commission approved
OGC's recommendation that the Commission file a brief supporting the Trustee's motion
to affinn his denial of the claims of investors in certain feeder funds. Ex. 165. On
August 10, 2010, the SEC filed its brief supporting the Trustee's position. Mem. of Law
of the SEC Supporting Trustee's Detenninations Denying the Claims of Certain Feeder
Fund Claimants, Docket No. 2849, SIPC v. EMIS, No. 08-01780 (Bankr. S.D.N.Y.),

                                            90 

dated Aug. 10,2010, http://madoffirustee.com/CourtFiiings.aspx. On June 28, 2011, the
bankruptcy court granted the Trustee's motion and affinned its position, as supported by
the SEC and SIPC." Mem. Decision and Order, Docket No. 4193, SIPCv. BMIS, No.
08-01780 (Bania'. S.D.N.Y.), dated June 28, 2011, htlp:llmadoffirustee.com/
CourtFilings.aspx.

             B. 	 Becker's Participation in the Enforcement Actions Against MadoffM
                  Related Entities

        OGe also played a role in consideration of the enforcement actions against
Madoff-related entities and individuals. The OIG reviewed certain action memoranda
recommending Commission action against such persons and entities, and each action
memorandum that we reviewed identifies OGe as a "Division Consulted." Ex. 168. As
a general matter, Richard Levine, who was an Assistant General Counsel from
approximately 1997 through May 2010, when he was promoted to Associate General
Counsel, as well as others within his office, was responsible for reviewing draft action
memoranda from the Division of Enforcement to consider the legal sufficiency of what
was in the memorandum, the charges being recommended to some extent. and policy
issues that were raised in memoranda. 6s Levine Testimony Tr. at 6, 7-8. Becker testified
that he "had a minor role" with respect to the Madoff-related enforcement matters, and
that he did not recall any significant involvement in the process. Becker Testimony Tr. at
15.

        Levine testified that he generally recalled discussing some Madoff-related
enforcement matters with Becker while he was General Counsel from 2009 through
2011. Levine Testimony Tr. at 13-14, 17. Specifically. he recalled discussing the
Commission's action against a certain investment firm involved in Madoffs activities
with Becker regarding how to frame the theories asserted. Id. at 16-17. The Staff
Attorney and Regional Trial Counsel in the Division of Enforcement in the New York
Regional Office who handled the Madoff-related enforcement matters did not recall
specific communications with Becker regarding these matters. NYRO Trial Counsel
Testimony Tr. at 19-21; NYRO Staff Attorney Testimony Tr. at 10. However, NYRO



                                                                                                          FOIA
                                                                                                          Exemption 5




65 As a general mauer, if an action memorandum was scheduled for consideration at a regularly scheduled
Commission meeting, Levine and his colleagues would discuss the proposed enforcement action at a
regular OGC meeting held a week prior, and this was the case dwing Becker's tenure as General Counsel
from 2009 through 2011. Levine Testimony Tr. at 9, II . In other instances, Levine or his colleagues
would have to consul! with the General Counsel, if at all, on an ad hoc basis. /d. at 12-14.

                                                  91 

Trial Counsel had some recollection of consulting with Becker or gaining an
understanding of his position III connection wit h the ilctiotl against that same investment
finn. NYRO Trial Counsel Testimony Tr. at 21 . That recollection is consistent with tbc
contem poraneous documentat ion, indicating that the mil tter was discussed at a previolls
OGC meeting and that the New York Regiona l Office statf had provided revised
language in response to OGe 's concem.(,(i Ex. 170.




addi tio nal documentary evidence Ibat Levi nc received input frOI11 Becker on other
enforcement actions against MadotT-reiated individuals and entities.

                C. 	 Becker' s Pa rli ci l>:ltio n in the Disc iplin ary Review of Emp loyees in
                     orc Madoff Report
       Becker also had substantive involvement in the SEes discipli nary process agai nst
employees identified in the OIG's report of investigation into the SEC's handling of the
MadoffPonz i schemc. In August 2009, when the OIG issued its Madoff report, only
Chai nnan Schapi ro and David Becker rcceived copies of the enti re, unredacted rep011.
Ex. 173. Becker recalled receiving an unredated copy of the report, along with the
Chai rman, and explaincd that the personnel who redacted that report also would have
received unred acted copies at some point.(i7 Becker Test imony T r. at 12. See also
Risinger Test imony Tr. at 88-89.

         Shortly after thc issuance orthe OIG 's MadolTreport, Beckcr was involved in the
decision to hire an independent li nn to rcview the rcpo!'t to consider disci plin ary action
arisi ng therefrom. Becker Testimony Tr. at 13. Bccker test ified that he recommended to
the Chairman ihat the SEC hire slieh a firm because he '·wanted to be surc that wc did this
light'· in light of potent ial scruti ny of any ad ions takcn. Id. He also acknowledged that
typicall y, the OGC reviews and partici pates in making recommcndations on discip linary
actions, but m this instance, he wanted to cnsurc that there was advicc fro m an expert law
tim1 with no stake in the matter. ld. Becker also test ified that he was involved in the
dec ision to se lect the finn that was ulti mately hired. lei. Upon receipt of budget
project ions from the (inn that was ultimately selected, he forwa rded the infollnat ion to
Chairman Schapiro, saying: "Thi s is ok tinancially. Should we sign them up?" Ex. J 74.
Chairman Schapi ro responded that she thought they should. Id.




66 COlllcmporaneolls dOCul1l.:nlati0l1 also indical':,j Ihm Ikcker r~'cciv"o a copy of a draft suppkmcncal
memorandum regarding Ihe ac ti01l againSlthc i1\v(:~IJ1\Ctll firm. S!'I' aho Ex. 169.
61   Becker ntso acknowlcdged lhal hc Iwo:1   role in redacti ng the rcport. Becker TcsIlmony Tr.   at   86.
         After the independent finn was hired, Becker interacted "[a] bit" with that finn in
describing the overall process to them, setting the ground rules, and receiving high-level
progress reports. Becker Testimony Tr. at 14. Jeffrey Risinger, fonner Director of the
Office of Human Resources, testified that he attended a meeting with the finn to obtain a
summary ofits findings, and that Becker also attended that meeting. Risinger Testimony
Tr. at 77-78. After that finn submitted its recommendations, Becker was involved in the
disciplinary process as it went forward. Becker Testimony Tr. at 14. Becker helped
detennine what the process should be going forward for the disciplinary matters and
ultimately presented that process to the Chainnan. ld. He also reviewed certain drafts of
the initial proposed actions and apparently discussed those drafts with OHR. ld.; see also
Ex. 175. Risinger explained that prior to the ultimate issuance of the proposed actions,
there were some concerns about the process to be employed which he recalled discussing
with Becker and the Chainnan, among others. Risinger Testimony Tr. at 82-83.

        After the pro£osals were made, Becker then advised the Chainnan at the next
stage of the process. 8 Becker Testimony Tr. at 14. That stage involved oral replies to
the Chainnan who served as the deciding official. 69 Risinger Testimony Tr. at 84-85.
Becker recalled participating in a couple of appeals by employees. Becker Testimony Tr.
at 14. Other SEC employees testified that there were two oral replies that certain
employees made to the Chainnan before Becker's departure from the SEC, and that he
participated in those replies.70 OGC Sr. Counsel #2 Testimony Tr. at 15; Risinger
Testimony Tr. at 84; see also Ex. 180 ("1 understand that David Becker will be
conducting these meetings with the Chainnan."). Becker testified that he advised the
Chainnan as to the appropriate disciplinary action "in a preliminary way, in one matter,"
but that he did not recall whether the other appeals had progressed to that point before his
departure. Becker Testimony Tr. at 15. The third and final oral reply occurred near the
time that Becker left the Commission and after the initial press coverage of the c1awback
suit against Becker. OHR Assistant Director Testimony Tr. at 8-9; Ex. 180 (oral reply
will be on February 24). Indeed, OHR Assistant Director explained to the OIG that she
recalled being told regarding this oral reply that OGC "didn't want to sit in because of
David Becker's issue [with respect to his mother's account] and in addition, because they

68 Risinger agreed that Becker essentially was the Chainnan's principal advisor with respect to the
disciplinary actions, and that Becker's role would be to advise the Chainnan. Risinger Testimony Tr. at 84,
85. OHR Assistant Director testified that to her knowledge, OGC took the lead in advising the
Commission with respect to the Madoff disciplinary process. OHR Assistant Director Testimony Tr. at 9.
OHR Assistant Director also explained that she understood that Becker was advising the Chainnan
regarding what action to take regarding the disciplinary proposals. [d. at 10. OGC Sr. Counsel #2 testified
that she assumed that Becker was advising the Chainnan on the disciplinary decisions, but did not discuss
his role with him. OGC Sr. Counsel #2 Testimony Tr. at 20,37.
69 Contemporaneous documentation indicates that Becker also provided advice regarding the timing of the
decisions and was copied on discussions regarding the process with the Chainnan's office. Ex. 176.
70 In connection with the oral replies, Becker was provided copies of the binders of briefing materials for
each of the employees for whom the Chainnan had to make a decision. Ex. 177; OGC Sr. Counsel #2
Testimony Tr. at 15, 24. He also received copies of draft executive summaries prepared by OGC and of
summaries of the oral reply. Ex. 178; Ex. 179.

                                                     93 

would litigate any cases that might result from discipline." OHR Assistant Director
Testimony Tr. at 8; see also id. at 11.
     X. 	   Becker Had No Role in Madoff Examinations or Investigations Prior to
            His Return to the Commission

        The OIG investigation has not identified any evidence that Becker was involved
in examinations or investigations ofMadoff or BMIS during his first tenure at the SEC
prior to Madoffs December 11, 2008 confession. The OIG carefully reviewed Becker's
e-mails from his first tenure at the SEC (approximately 58,000 e-mails) to determine
whether Becker played any role in any examinations or investigations of Madoff. We
also reviewed the e-mails of relevant current and former SEC personnel involved in the
investigation and examination process during the period Becker was at the SEC for any
references that would indicate any of these individuals ever communicated with Becker.
We further reviewed the examination reports ofMadoff and BMIS dated January 26,
1996, August 3, 2000, and September 2, 2005, the submissions and communications to
the SEC from Harry Markopolos in May 2000, March 2001, October 2005, November
2005, December 2005, and June 2007, and the other exhibits to the OIG's Report of
Investigation No. 01G-509 and found no evidence that Becker had any involvement in
any of these matters. 71

        In testimony before the OIG in this investigation, Harry Markopolos, a Chartered
Financial Analyst and Certified Fraud Examiner, who had made three major submissions
about Madoff to various offices within the SEC, along with other contacts, over an eight
and a half year period, confirmed that prior to Madoffs confession, he did not
communicate with Becker. Markopolos Testimony Tr. at 7-8. Markopolos also stated
that he had no reason to believe that Becker played any role in the SEC's lack of
sufficient investigation or examination of Madoff to uncover his Ponzi scheme. Id. at 8.

        Similarly, Becker testified that he was not aware of any of the complaints made
by Markopolos (or anyone else) during his first tenure as General Counsel. Becker
Testimony Tr. at 11-12. He also testified that he had not had any communications with
Markopolos regarding Madoff during his first tenure as General Counsel. [d. at 12.
Becker further stated that he had never met or communicated with Madoff and explained
that he knew of Madoff during his first tenure as General Counsel only as part of a
discussion about certain firms that paid for order flow. [d. at 86. Becker testified that
when Madoff confessed, his "first reaction was astonishment that this had ... gone on for
so long." [d.


71 More generally, in its investigation into the SEC's failure to uncover Madoff's Ponzi scheme, the OIG
did not find evidence that information relating to the examinations and investigations were raised in OGC
in Washington, D.C., nor did it find that the two investigations and three examinations ofBMIS that the
SEC conducted were performed by OGC or that OGC played any role in or influenced those examinations
and investigations. See generally Report No. OIG-509 at 27-42, http://www.sec.gov/newsistudiesl2009/
oig-S09.pdf.

                                                   94 

       XI. 	 The SEC Ethics Office Provided Contemporaneous Advice to Becker
             Regarding His Interest in His Mother's Estate's Madoff Account

       As discussed in detail below, Becker sought and obtained ethics advice regarding
his mother's estate's Madoff account on two occasions: (1) around the time he rejoined
the Commission in Febraury 2009 and (2) upon receipt of the letter from the law finns
representing Madoff customers in May 2009.

                A. Lenox, as Ethics Counsel, Reported Directly to Becker, the General
                   Counsel

        Becker, as the Genera1 Counsel. was the Commission's chieflegal officer. 17
C.F.R. § 200.21(a). He was responsible for, among other things, administering the
Commission's Ethics Program. Id. During his second tenure at the SEC, Becker also
served as the alternate Designated Agency Ethics Official ("DAEO,,).72 Becker
Testimony Tr. at 16; Lenox TestimonyTr. at 27. Lenox was appointed as the
Commission's Ethics Counsel and Designated Agency Ethics Official on April 26, 2004.
SEC Release No. 2004-57, William Lenox Named Ethics Counsel (April 26, 2004),
http://sec.gov/newslpressl2004-57.htm; Lenox Te'tinoonlY 1-r                 ""rv,<lin FOIA Exemption 6
that role until July 20 10 when he resigned from that position                   Lenox
Testimony Tr. at 21.

           The Ethics Counsel is part of the Office of the General Counsel. 17 C.F.R.
§ 200.2 1a(a); Lenox Testimony Tr. at 23. The responsibilities of the Ethics Counsel
include, among other things, providing advice, counseling, interpretations, and opinions
with respect to the regulations governing the conduct of members and employees and
fonner members and employees of the Commission, the SEC's canons of ethics, and the
Standards of Conduct. 17 C.F.R. § 200.21.(a)(6). Lenox testified that the SEC's Ethics
Counsel also dealt with issues of professional responsibility and the Commission's own
conduct regulation. Lenox Testimony Tr. at 23.

        In 2009, Lenox, as Ethics Counsel, and the Ethics Office reported to Becker.
Lenox TestimonyTr. at 23; Becker Testimony Tr. at 17. Chainnan Schapiro was aware
that the Ethics Office reported to Becker. Schapiro Testimony Tr. at 67. As his direct
supervisor, on December 2, 2009, just seven months after Lenox provided advice
regarding Becker's participation in the MadoffLiquidation,74 Becker conducted a
performance evaluation for Lenox. Lenox Testimony Tr. at 23; Ex. 181; see also Becker
Testimony Tr. at 17 (while Becker did not recall doing the evaluation, the fact of doing

72 The responsibilities ofa DAEO are set forth at 5 C.F.R. § 2638.203(a) and discussed further below.
73 Lenox later rerurned to the Commission as professional responsibility counsel in September 2010 and
served in that capacity until he retired on June 30,2011 . Lenox Testimony Tr. al 21. Becker testified that
it "was (his] decision" to bring Lenox back in the professional responsibility role. Becker Testimony Tr. at
22.
74   See Settion XI.D infra.

                                                    95
an evaluation "doesn't surprise)) him). In his evaluation, Becker wrote: "The
performance of the ethics office has been superb .... The quality of the ethics advice is
very high. It shows expertise and nuance, both from the standpoint of technical
understanding and from the standpoint of apprehending the risks to the agency even
where legal requirements are carefully followed.,,75 Ex. 181 (responses to objectives 2
and 3). The duties of the Ethics Counsel and the DAEO are similar. Lenox Testimony
Tr. at 23. The DAEO is responsible for coordinating and managing the agency's ethics
program. 5 C.F.R. § 2638.203(a); Lenox Testimony Tr. at 23 ("The DAEO has
responsibility for the government-wide implementation of the ethics program."). The
DAEO is appointed by the Chairman, and Lenox understood that he reported directly to
the Chairman in that role and so advised Becker.76 5 C.F.R. § 2638.201 and 202(b);
Lenox Testimony Tr. at 22-23; Becker Testimony Tr. at 17-18.

              B. 	As Ethics Counsel, Lenox Emphasized His Role As A Resource and
                  Was Reluctant to Keep Written Records of Advice

        Lenox explained his belief that as Ethics Counsel, the most important thing was
that people trust him, and that people trusted him with "incredibly personal information."
Lenox Testimony Tr. at 43. His approach was to make ~~a conscious decision that [he
was] going to assume that you are telling [him] the truth" but also to "ask probing
questions" to determine what actually was at issue and to verify things. Id. at 48-49.
Lenox explained that he viewed his job as "to create a culture where people would seek
advice, and to alert those employees - all employees - where the danger lines were, and
to encourage them to come and seek ethics advice, because that provides a level of
protection." Id. at 98-99. He further stated, '~Nobody had to bring anything to my
attention.... [T]here is no requirement to seek ethics guidance. I am a resource. I
wanted people to do that, because I could offer them a certain amount of experience with
the rules and regulations, knowledge of what we had decided in similar cases." Id. at 81.

         Both Lenox and Becker testified that Lenox's ethics advice was not binding as a
matter of law, but that as a practical matter, it generally would not be prudent to ignore
such advice. Becker Testimony Tr. at 44; Lenox Testimony Tr. at 81-82. See also 5
C.F.R. § 2635.107. In addition, Lenox stated that "[n]obody has to bring anything to
[his] attention," but Lenox also explained that with respect to appearance concerns, "it is
also in your interest to seek [ethics advice], because if an ethics official tells you it's
okay, and someone second-guesses you down the line, it is the ethics official whose


7S Becker testified that Lenox's ethics advice was "very good. Sometimes a little conservative, but very
good. Very thoughtful and went beyond, sometimes, the letter of the rule." Becker Testimony Tr. at 18­
19. In tenns of Lenox's advice being a little conservative, Becker clarified that there were times when his
and Lenox's interpretation of the applicable rules differed, and "[w]e did it his way." ld. at 19.
76However, when there was an attempt made to find documentation to confirm that Lenox, as DAEO,
reported to the Chainnan, the staff was unable to find any documentation to support that position. Martens
Testimony Tr. at 33-34. Moreover, no one was able to explain how practically Lenox was reporting to two
different people for the same duties.

                                                    96 

judgment is to be second-guessed, not yours, and you are absolutely protected.,,77 Lenox
Testimony Tr. at 81, 100.

        On appearance issues, Lenox testified as follows:

                 The people who, in the ethics community, that I respect the
                 least are the ones who always say no. If you are a constant
                 naysayer, one, nobody comes to secure advice; two, you're
                 not actually doing your job. There are appearance
                 problems that can, after the fact, be found in any decision
                 that an ethics official makes. The key, as I saw it in my job
                 as DAEO and as ethics counsel, was to make decisions.
                 That's the reason that I was promoted. I was willing to
                 make decisions. That requires a certain amount of
                 willingness to be second-guessed by other people. If you
                 always say no, you will never be second-guessed. That was
                 not what I saw my role to be.

Lenox Testimony Tr. at 76. He further testified, "The question of is there an appearance
problem is: What does a reasonable person, with knowledge of all the facts, consider?
By default, I was the Commission's reasonable person.,,78 Id. at 77.

        Because of the sensitive nature of what people disclosed to him, Lenox "was
reluctant, generally, to keep written records of [his advice].... And [he] basically told
employees, 'If you want a record of my advice, you write me an email, or you put it in
writing, and I will confinn that. ...'" Lenox Testimony Tr. at 43. Lenox testified that "it
was not [his] practice to keep those kinds of notes." Id. One current Assistant Ethics
Counsel who worked for both Lenox and the current Ethics Counsel indicated that
"everybody is supposed to memorialize or document" the advice they give, that Lenox
"wanted people to do it," but that the current Ethics Counsel, Shira Minton,19 is
"probably more adamant about it." Assistant Ethics Counsel #1 Testimony Tr. at 15.
According to this Assistant Ethics Counsel, documentation could be done in a number of
ways, including e-mail.aformalwrittenmemorandum.orachecklist.ld. Another
current Assistant Ethics Counsel who joined the Commission after Lenox resigned
explained that it was her sense that there is now more of an effort to document or

77In fact, when questions arose in February 2011 concerning Becker's participation in the Madoff
Liquidation, Lenox e-mailed Becker: "Please just blame me; you did what you were supposed to do." Ex.
182.
78Lenox, as the "Commission's reasonable person," held Becker in extremely high regard. He testified that
he had "[gJreat professional respect" for Becker and "an appreciation for his humor and his abilities as a
lawyer." Lenox Testimony Tr. at 27. He further described Becker as a "great man and a great lawyer." Id.
79Minton joined the agency in August 2010 as Ethics Counsel after Lenox's resignation as Ethics Counsel.
SEC Press Release No. 2010-142, Shira Pavis Minton Named SEC Ethics Counsel (Aug. 5,2010),
http://www.sec.gov/news/pressl2010/2010-142.htrn

                                                   97 

memorialize advice given, as opposed to previously, because that is the current Ethics
Counsel's view as to what is appropriate. Assistant Ethics Counsel #2 Testimony Tr. at
9.

              C. Becker and Lenox Discussed Becker's Mother's Estate's Account
                 Around the Time Becker Returned to the Commission

        Around the time that he returned to the Commission in February 2009, Becker
discussed his mother's estate's BMIS account with Lenox. This discussion occurred as
part of an in-person meeting, and the OIG investigation has not identified any written
record of that meeting. Becker Testimony Tr. at 27-28 31; Lenox Testimony Tr. at 43­
44. Lenox testified that sometime shortly before Becker's return to the SEC in February
2009, he ran into Becker in the SEC's Station Place building, at which time Becker told
Lenox that he was returning to the SEC as General Counsel. Lenox Testimony Tr. at 29.
Lenox recalled that he told Becker that, as with any senior officer joining the
Commission, there would be ethics issues to address and also noted that he ran the Ethics
Office somewhat differently than his predecessor and suggested they have a discussion.
Id. According to Lenox, as Becker indicated he was free at that time, Becker and Lenox
went to Lenox's office to discuss a number ofissues. 80 Id. at 29-30.

        During that meeting, Becker and Lenox discussed a variety of issues, including
potential conflicts ofinterest. 81 Becker Testimony Tr. at 27,31-32; Lenox Testimony Tr.
at 31-34. Lenox explained to Becker that under certain OGE regulations, he "would have
a certain black-out period on ... particular matters involving specific parties" regarding
his former clients and law firm for the first year he was at the Commission. Lenox
Testimony Tr. at 32-33. Lenox testified that they also discussed Becker's financial
holdings at some point when Assistant Ethics Counsel #3 was present, and Lenox
recalled that Becker actually gave the Ethics Office access to his accounts, in order to
allow them to create the lists that would be used to perform his conflict checks. Id. at 33.

      Both Lenox and Becker also recalled discussion of Becker's mother's estate's
Madoff account near the time of Becker's return to the Commission. 82 Both recalled that

80Becker did not recall specifically how the meeting came about, but recalled that a meeting occurred.
Becker Testimony Tr. at 23~24, 27. He believed that the meeting was in Lenox's office. ld. at 28. Becker
did not recall whether his meeting with Lenox took place before or after he started back at the SEC, but
said it occurred around the time he started. ld. at 27. But see id. at 23 (indicating that Becker thought it
occurred before he started work).
81 At some point, Lenox invited Assistant Ethics Counsel #3 to join the meeting. Lenox Testimony Tr. at
30-31. Assistant Ethics Counsel #3 recalJed meeting with Becker when he returned to the Commission
once in Becker's office and once in Lenox's office and that Becker discussed a number of situations that
could give rise to potential conflicts of interest. Assistant Ethics Counsel #3 Testimony Tr. at 10.
82Both Becker's and Lenox's testimony was consistent with their descriptions of this conversation
provided in responding to, or in the process of responding to, Congressional inquiries in February and
March 2011. Ex. 61; Ex. 183. Assistant Ethics Counsel #3 recalled Becker mentioning his mother's
estate's Madoffaccount in a meeting that occurred in Lenox's office before Becker's return to the SEC, but
did not have a specific recollection of that discussion. Assistant Ethics Counsel #3 Testimony Tr. at 1O~11.

                                                     98 

Becker told Lenox that his mother had an account with Madoff, that she had died, and
that these funds were liquidated as part of her estate. Becker Testimony Tr. at 28; Lenox
Testimony Tr. at 34. Becker also recalled that he had told Lenox that the funds from the
liquidation were used to pay estate taxes. Becker Testimony Tr. at 28. Lenox further
recalled that Becker indicated that he had no present connection with any Madoff
account. Lenox Testimony Tr. at 34. Lenox did not specifically recall Becker telling him
whether his mother's estate's account had gained or lost money, that he was a beneficiary
or executor of his mother's estate, or that he might be subject to a clawback suit. ld. at
39-40. Lenox noted that the Madoff account was one item raised among "a number of
matters that were preliminary to his coming back," and testified it would surprise him if
Becker had mentioned the possibility of a clawback suit during that discussion. Id. at 40.

         Around the time of this initial conversation with Lenox, which was approximately
when Becker learned of the existence of his mother's estate's BMIS account, Becker
"understood that in bankruptcy, there is a possibility of ... a trustee clawing back certain
proceeds," but he did not know the "statute of limitations, the degree of fault that had to
be shown, whether it made a difference here that whatever amounts [he] got came not
from Madoff, but from [his] mother's estate, a separate legal person." Becker Testimony
Tr. at 29. Becker added, "So at the highest level of generality, I understood there was the
possibility of clawback actions." Id. At that point, Becker made an inquiry "to a limited
extent" to determine the likelihood of such a clawback suit by asking a partner at his
then-law firm what the possibility was, and the colleague said that it seemed unlikely, but
that it was very preliminary and hard to know. Id. at 30. Becker did not do any
additional investigation. ld.

       Lenox noted that at the time ofthe conversation, Becker was not yet General
Counsel, and that Lenox was not giving advice or doing the matter-specific review that
he would do as specific matters arose. Lenox Testimony Tr. at 34-35. He concluded
generally that the issue:

                  doesn't raise any red flags for me at the moment that what I
                  understood the Commission to be doing was investigating
                  whether Mr. Madoffhad minions who ... were also
                  potentially guilty of fraud.... [A]lthough we would
                  obviously, as I explained, do our more particularized
                  checks later on, that the mere fact that his mother had been
                  a Madoff investor did not strike me as being disabling on
                  that. . .. I did not see the fact that his mother had once had
                  a Madoff account would preclude him from reviewing any
                  recommendations or implementing any changes in the way
                  the Commission operated.


Assistant Ethics Counsel #3 did not recall that either Lenox or he said anything specific to Becker about the
account. Id. at 11·12.

                                                     99
Id. at 35; see also Becker Testimony Tr. at 31 ("Lenox's "reaction was, 'Well, we'll have
to take it on a case by case basis,'" and "it didn't strike him as enough - something that
would [cause] my recusal from anything that touched upon the Madoff matter and ... we
would consider it as matters arose.").

         Lenox did not do any specific investigation to detennine on what Madoff matters
Becker might work. When asked how he detennined what those matters would be,
Lenox stated that the ongoing Inspector General investigation was widely known, and he
was counseling potential subjects of that investigation. Lenox Testimony Tr. at 38. In
addition, he "worked very closely with the operating divisions, just as part of [his] job"
and "[knew], as a general matter, a lot of the big things that were happening in the
agency," although he did not receive reports of the investigation or talk to people on the
team. Id. He did not state that he did any additional investigation into this issue. In
response to a question as to whether he made any effort to detennine the scope of
Madoff-related matters on which Becker might work, Lenox responded that that the
meeting was "not a detennination, ... not an investigation, ... and not an actual advice"
as to which matters in at Becker could do. Id. at 38-39. When asked ifhe knew at the
time of this initial meeting that the SEC was going to be involved in the Madoff
Liquidation and issues related to SIPA, Lenox stated that he did not know at the time of
his testimony what he knew in February or late January of2009. Id. at 40. However, his
description ofthe Enforcement and OIG matters of which he was aware indicated that he
did not consider the possibility of the SIPA-related proceedings at that time. 83

       Lenox further testified that, during his initial conversation with Becker, he also
considered appearance issues and detennined that he did not see any issues at that point.
Lenox Testimony Tr. at 37. Becker did not recall if Lenox mentioned a potential
appearance issue during that conversation. Becker Testimony Tr. at 32.

              D. 	 Becker Sought Ethics Advice from Lenox in May 2009 Regarding His
                   Work on the MadoffLiquidation

        As discussed in Section IV.A supra, in early May 2009, Becker received the May
1 Letter advocating the Last Account Statement Method. Becker explained to the OIG
that soon after receiving and reviewing the May 1 Letter, he consulted with Lenox as to
whether he should participate in the issue raised by the letter. Becker Testimony Tr. at
40-41. Becker testified:

                 I have some experience practicing law and some experience
                 with ethics issues. And I believe very strongly that nobody
                 is the best judge of their own conduct and what to do of
                 their own conduct. I've seen people make dreadful errors

83See also Ex. 183 ("At that time, to my recollection, the Commission was investigating the operations of
the Madoff firm. I concluded that no such investigation into possible wrong-doing by Madoff or others
would affect a long-closed account held by Mr. Becker's mother.").

                                                   100 

               doing that. And when I have trained other people on
               professional issues, including ethics issues, I have said,
               "The most important thing to do is to consult, consult,
               consult."

Id. at 43-44. Accordingly, he sought guidance from Lenox because this involved his own
participation in a matter. Id. at 44. He also testified that if Lenox had told him not to
participate, he would not have done so, particularly because of the public's pejorative
view of the SEC with respect to Madotf. Id. at 45-46.

         Neither Becker nor Lenox recalled a specific conversation at the time of the May
1 Letter, but both believed that some conversation likely occurred in advance of their e­
mail exchange. Becker Testimony Tr. at 42; Lenox Testimony Tr. at 46-47. Thereafter,
Becker sent an e-mail to Lenox asking whether he could participate in the subject of the
May 1 Letter. Ex. 184. The e-mail indicated that "a number of law firms [were] asking
that the Commission instruct the Madoff Trustee to change his interpretation of SIPA as
it relates to the meaning of 'securities positions' as to which customers may file a claim."
Id. The e-mail continued:

               As I mentioned to you when I first started, I inherited some
               money from my mother's estate that included the proceeds
               of an account held with Madoff securities. My mother died
               in June 2004, and her estate was liquidated in in [sic] 2006
               or 2007. The Madoff account was opened by my father for
               my mother some time before his death in January 2000. I
               don't know how much money was invested; the amount
               withdrawn was somewhere in the neighborhood of $2
               million. I'm told that the account was liquidated and the
               proceeds used to pay estate taxes.

               The MadoffTrustee has instituted a small number of
               lawsuits to ~~claw back" sums that were distributed to by
               [sic] Madoffto customers. For example, press reports over
               the weekend state that the Trustee filed a lawsuit last week
               seeking $1 billion from Stanley Chais, alleging that the
               returns he and his customers received were so obviously
               inflated that he must have known that they could not have
               been achieved lawfully. In theory, the Trustee could file
               such a suit against everyone who received distributions
               from his or her Madoff account. I have no idea whether
               any such lawsuit could be brought against me based on
               distributions from my mother's estate. I don't know the
               likelihood of any such lawsuit. Among other things ­




                                             101
                      • 	 The amounts involved are relatively small (when
                          compared to the $50-65 billion size of the Madoff
                          scheme), so that litigation might not be cost
                          effective;
                      • 	 The amounts involved came to me as a beneficiary
                          of my mother's estate and not from my own
                          account;
                      • 	 I had no involvement with the administration of any
                          investments in my mother's estate;
                      • 	 To the extent my mother had a Madoff account, she
                          almost certainly wasn't aware of any wrongdoing
                          (she was a social worker and an academic); and
                      • 	 The proceeds from the account were used to pay
                          estate taxes.

                 The issue raised in the letter received today concerns the
                 scope of SIP A coverage, not anything related to the liability
                 of third parties. It strikes me, though, that it is theoretically
                 conceivable that to the extent SIPA coverage is more
                 broadly available than the Trustee has stated, that might
                 make it less likely that the Trustee would bring claw back
                 actions against persons at the margin. My instinct is that
                 any claim against me would be much too small and of
                 dubious merit to bring in any event, but I can't say that I'm
                 certain.

                  Let me know, please, what I should do.

Id. Becker did not recall Lenox asking for additional facts or directing him to seek
additional guidance if new facts arise. Becker Testimony Tr. at 46. He also did not recall
any new facts arising. Id. at 46-47.

         Lenox responded to Becker's query via e-mail about 25 minutes later, stating: 84

                  The small size of the distribution, or the way in which you
                  obtained a portion, are not relevant to whether you may
                  participate (similar to the other matter we discussed last

84Lenox testified that he would have asked Assistant Ethics Counsel #3 to weigh in before responding to
Becker. Lenox Testimony Tr. at 48. In fact, before he responded, Lenox forwarded Becker's e-mail to
Assistant Ethics Counsel #3 and asked "Your thoughts?" Ex. 185. It does not appear that Assistant Ethics
Counsel #3 responded via e-mail, and he testified that he did not have a specific recollection of his role in
Lenox's consideration of the issue, though he assumed that he did participate in Lenox's decision-making
process. Assistant Ethics Counsel #3 Testimony Tr. at 13. Assistant Ethics Counsel #3 also did not recall
what his advice was, what his recommendations were, or whether he concurred with Lenox's advice. Id. at
13-14.

                                                    102
                 week). The question is whether the matter in which you are
                 asked to participate will have a direct and predictable effect
                 on your financial interest, however small. In this case you
                 are being asked to participate in a question about a specific
                 interpretation of SIPA. As you note, this is a legal question
                 distinct from any decision of the trustee to decide from
                 whom to seek to "claw back." There is no direct and
                 predictable effect between the resolution of the meaning of
                 "securities positions" and the trustee's claw back decision.
                 For this reason, you do not have a financial conflict of
                 interest and you may participate.

Ex. 184. Lenox did not have a specific recollection of the steps he took when considering
whether Becker could participate. Lenox Testimony Tr. at 49. However, based on the
way he generally handled such questions, Lenox believed that he would have asked
Assistant Ethics Counsel #3 to verify that Becker's fonner finn was not one of the law
finns involved because Becker had a covered relationship with that finn at that point in
May 2009. ld. at 49-50. He also believed that he would have asked Assistant Ethics
Counsel #3 or possibly another Assistant Ethics Counsel to verify "that the decision to
bring a cIawback action in a SIPC bankruptcy was the exclusive decision of the trustee,
and that the Commission did not tell the trustee who to claw back or whom not to claw
back." ld. at 50.
    1. 	 Lenox's Analysis Focused on Incorrect Understandings Regarding the SEC's
         Role in the Madoff

         In his testimony, Lenox described the issue he considered as "if it would be
appropriate for [Becker] to participate in an amicus review of the meaning of securities
position within the meaning of [SIPA]."S5 Lenox Testimony Tr. at 41. He further stated
that "it's not the first time that questions under an amicus program had come up." ld. at
51. Lenox described the amicus program as meaning:

                  [T]he Commission and the Office of General Counsel goes
                  [sic] to the Commission when there is a question about the
                  meaning of the securities laws, and that the Commission is
                  entitled to weigh in on what the meaning of the securities




85 Lenox did not have a recollection of what the tenn "securities position" meant. Lenox Testimony Tr. at
62. Lenox testified that he "[couldn't] really tell" the OIG whether he understood in May 2009 that the
issue raised by the May 1 Letter related to the differing approaches presented by those espousing the Last
Account Statement Method and the Money InlMoney Out Method. Lenox Testimony Tr. at 84. He also
said that it was difficult for him to say at the time of his testimony exactly what he knew in May 2009 with
respect to the issue that the SEC was considering. Id. at 51.

                                                    103
                 laws are. When the Commission acts as the Commission, it
                 is entitled to -- Chevron 86 ••• deference.

                 When it goes before a court, it's entitled to the deference of
                 the persuasiveness ofthe arguments that it's making. And
                 that it is important for the Commission to decide when and
                 when not to weigh in with courts on what the meaning of
                 the securities laws are, that absent a real reason, that it's
                 important for the highest-level officials to be part of that
                 decision....

Id. at 80. Lenox also stated that the particular securities law question involved could
have come up in any case where there was a Ponzi scheme, such as Stanford, but that
here, it happened to come up in a Madoff-connected matter. Id. at 68-69. However,
Lenox later acknowledged that the Commission had a role in SIPC bankruptcies and
appeared to acknowledge that the Commission was a party to the Madoff Liquidation. Id.
at 112.

        Lenox's focus upon the amicus participation of the Commission ignored the fact
that, under SIPA, the SEC is a party to all liquidation proceedings. SIPA provides, "The
Commission may, on its own motion, file notice of its appearance in any proceeding
under this chapter and may thereafter participate as a party." 15 U.S.C. § 78eee(c).
Indeed, in its appellate brief in the Madoff Liquidation, the SEC expressly stated: "The
Commission is submitting this brief as amicus curiae in accordance with the procedures
ofthe ECF filing system. Under Section 5(c) of SIPA, however, the Commission may
'file notice of its appearance in any proceeding under the Act and may thereafter
participate as a party. '" Ex. 186. Consistent with that role as a party, Becker, in contrast
to Lenox, did not view the SEC's participation in the net equity issue in the Madoff
Liquidation as a theoretical issue. Becker Testimony Tr. at 59. He agreed that it was his
understanding that if SIPC disagreed, the SEC should eventually recommend that the
court adopt the SEC's position, not SIPC's position, and indicated that "[t]he
Commission had done that in the past and may do it again." Id.

        Lenox testified that the trustee's independence in bringing clawback suits was an
important part of his decision. Lenox Testimony Tr. at 63. He further explained to the
DIG that "the decision on clawbacks ... is the trustee's decision, which removes the
possibility of the general counsel and senior policy advisor weighing in on what the
meaning of a general applicability securities law section is does not violate the financial
conflict of interest statute." Id. Lenox stated that he was focused on whether there was a
direct and predictable effect on Becker's financial interest, and there was none "because
you had this intervening actor who made an independent decision on whom or whom not
to bring a clawback action against." ld. at 54. Lenox's analysis did not appear to

86 Under Chevron U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837 (1984), courts
generally defer to an agency's interpretation of the statute it is charged with implementing.

                                                  104
consider that the clawback suits were part of the overall bankruptcy proceeding or that
they are brought by the same trustee with whom Becker would be negotiating on behalf
of the Commission. Lenox's analysis also did not appear to have considered whether
there was any relationship between the issue referenced in Becker's e-mail and increasing
the scope of SIPA coverage, which could affect the need for and amount of clawback
suits. 87

      2. 	 Becker Incorrectly Assumed Clawback Suits Applied only In Cases Involving
           Wrongdoing and Accounts Over $2 Million

        Becker testified to the OIG that he did not "really know what [Lenox's] analysis
was" or what Lenox did or considered to reach his conclusion. Becker Testimony Tr. at
45. However, Becker's own view was that his participation was appropriate under the
criminal statutes and implementing regulations and as a prudential matter. Id. at 47. He
explained his reasoning, which first looked to what he knew at the time of his February
2009 conversation with Lenox. 88 Id. at 47-48. Becker noted, as part of his analysis, that
the account "never touched [him] in any way" and "had no misbehavior associated with it
in any way." Id. at 48. Accordingly, Becker "assumed, evidently not correctly, that all
those facts ... made it less likely that there would be a clawback action." Id. Moreover,
because the few clawback actions instituted at that point involved billions of dollars and
the size of the fraud was about $65 billion, it "struck" Becker "as a bang [for] the buck
standpoint, [that] it's quite possible the trustee was not going to get around to recreating
records, [much] less bringing cases for claims that involved something significantly less
than $2 million." Id. at 48-49.

         Both SIPC and the Trustee told the OIG that it would be unreasonable to conclude
that a clawback suit was unlikely in light ofthe facts of Becker's mother's estate's
account. The Trustee explained that a person who had withdrawn approximately $1.5
million in fictitious profits would "generally speaking" be subject to a clawback suit.
Picard Interview Tr. at 14-15. SIPC President Harbeck told the OIG that in the Madoff

87When asked whether his analysis would change once Becker had been sued in a c1awback action, Lenox
responded that he was not Ethics Counsel at that time and that the analysis would be based on "a different
set of circumstances." Lenox Tr. at 100-01. He did not state definitively that there would be a conflict of
interest or an appearance of impartiality, although he did state that there would be a covered relationship
and that the "assumption or the inclination ... is that a reasonable person would question the impartiality."
[d.
88 Becker's testimony regarding what he knew in February 2009 was consistent with the facts set forth in
his May 4, 2009 e-mail to Lenox. See Ex. 184. He testified, "What I knew was that my mother had an
account at Madoff, that she didn't make the investment decision. She didn't make investment decisions.
My father died in 2000. So the account must have been opened sometimes before 2000. And there is no
way on God's green earth that my father, who was probably the most consciously ethical person I've ever
met, still to this day, had been involved in anything that he knew to be improper. I knew that -- other than
that, I didn't know very much. I knew that, to repeat myself, after my mother died, the account was retitled
in the name of the estate and that sometime later, my brother, who was doing all the financial affairs of the
estate, liquidated the account, had the account transferred, actually, to another brokerage firm and then
liquidated it in order to pay estate taxes." Becker Testimony Tr. at 47-48.

                                                    105
Liquidation, "without question ... a million dollars [in fictitious profits] is an amount
that was never contemplated that the trustee would not seek to recover." Harbeck
Interview Tr. at 36. He also stated that he did not believe it is a reasonable assumption to
think that some amount over $1 million in fictitious profits would be so low that there
would be little or no chance of a clawback action. Id. at 36. Similarly, Wang stated that,
in her personal opinion, the "sum" in Becker's mother's estate's account was large
enough that it is at least reasonable to believe that there was a possibility, if not a
likelihood, of a clawback action. Wang Interview Tr. at 15-16.

        Indeed, SEC personnel testified that there were discussions with SIPC at the early
stages of the MadoffLiquidation regarding a dollar threshold to apply in the
determination of whether to bring a clawback suit, and that a threshold, likely in the
range of$100,000, was discussed. Macchiaroli explained that there were discussions
with SIPC regarding who the Trustee would pursue in clawback actions as follows:

               We didn't want to pursue any amounts that were relatively
               small, say under a hundred thousand or something of that
               sort. And we didn't want to pursue anything which would
               involve a clawback of principal. That is, if all they got
               back was the money they invested, we wanted them to be -­
               nothing happened, that they would claw back only those
               which are excessive profits at the most. So that was -- so
               we were sympathetic to the smaller people.

               Q. Right. And so in terms of the smaller amount was their
               understanding also that 100,000 might be a good threshold?

               A I think so. I don't recall, but I think that was what
               generally people thought. And it could be more depending
               on the hardship and what -- they actually developed a
               hardship program. Again, I don't remember the timelines.

               Q. But setting aside the hardship program for a minute, if
               folks were in the millions, $2 million for example of money
               that could be clawed back, that was not considered by the
               SEC and SIPC to be too de minimis?

               A. I don't think so. I mean we didn't -- we wouldn't have
               thought that.

Macchiaroli Testimony Tr. at 32-33. Sr. TM Official explained that with respect to
c1awbacks:

               A. ... There was a cap. Just the cost of going after it was
               greater than the money that you would collect. So there

                                            106
                 was a -- my recollection [is] there was a cap. Whether it
                 was a hundred thousand or not, I can't recall specifically,
                 but we discussed a cap.

                 Q. But do you recall generally that it was about that
                 amount of money?

                 A. That sounds right.
                                                  ***
                 Q. But you recall that it was, ifnot a hundred thousand,
                 generally in the hundred thousand dollar range. It wasn't in
                 the million range?

                 A. That's right. That's right. There is still the hardship
                 exception that was in addition, but this was an attempt to
                 try to have some clarity about how that would be applied.

                 Q. Okay. And that was something that was discussed
                 among the TM and GC as well?

                 A. Yes.

Sr. TM Official Testimony Tr. at 29_30. 89

         Moreover, Becker did not do any due diligence to determine whether any of these
factors that he listed in his own May 4, 2009 e-mail or mentioned during his testimony
would figure into the Trustee's analysis. See Becker Testimony Tr. at 48,92. In fact, he
testified that he did not even know if the estate tax issue he referenced in his e-mail to
Lenox was relevant and further stated that, with respect to that e-mail, "I wanted to put
everything'that I knew in front of him. 1was not sure whether it would make a
difference, in terms of any liability that I or my brothers might have" that those particular
funds never went to any of them. Id. at 86-87. However, both the Trustee and SIPC
explained to the 010 that the factors listed by Becker as weighing against the likelihood
of any clawback suit against him were not ones that the Trustee would consider in
determining whether to bring a clawback suit. Picard stated as follows:

                 Q. When there is consideration of whether to bring a
                 clawback suit, does the fact that the individual was aware
                 of the wrongdoing, is that a factor in determining whether
                 to bring a c1awback suit?

                 A. Not necessarily.

89Becker testified that he was not aware, at the time, of any threshold below which the Trustee would not
bring clawback suits, such as $100,000. Becker Testimony Tr. at 68-69.

                                                   107 

                Q. What about in the consideration of whether to bring a
              . clawback suit? Would whether the proceeds were used to
                pay estate taxes, would that be factor [sic] in whether a
                clawback suit was brought?

                A. No.

                Q. In tenns of consideration of whether to bring a
                clawback suit, would there be a factor of whether the
                proceeds went to a beneficiary of an estate, as opposed to a
                personal account?

                A. No; I don't think so.

                Q. If it was an estate that was being subject to a clawback
                suit, would the fact that an individual who was the
                beneficiary did not participate in the administration of the
                estate's investments, would that be a factor in whether to
                bring a clawback suit?

                A. No.

 Picard Interview Tr. at 13-14. Harbeck agreed that these factors did not weigh into the
 Trustee's analysis. See generally Harbeck Interview Mem. at 2-3. He explained that the
 fact that an individual investor was not aware of Madoff's wrongdoing was "[a]bsolutely
 not" detenninative as to whether to bring a clawback suit. Id. at 2.

          Becker testified that he also considered the nature of the legal issue involved,
  which concerned the "requirement that [SIPC] advanced monies to investors who
  asserted that they had claims based on this so-called last statement method" and was "not
  about clawback." Becker Testimony Tr. at 49. Becker explained, "[I]t's not at all clear
  to me that whatever the courts ultimately do with the SIPA advance issue that that will
  have any impact on how you measure account values for clawback purposes," and noted,
  "Different statute, different words, different policy." Id. Becker further explained that
  net equity is a tenn that appears only in SIPA, but that clawback actions arise under the
  bankruptcy code which, in turn, references state law fraudulent conveyance statutes. Id.
  at 66. He explained that the purposes of SIPA and clawback liability under bankruptcy
. law are separate and different issues. Id. However, this analysis ignores the fact that
  SIPA expressly provides that a SIPA trustee, like the Trustee in the Madoff Liquidation,
  has the same powers as a bankruptcy trustee to bring clawback actions. 15 U.S.C.
  §§ 78fff-l(a) and 78fff-2(c)(3).




                                             108 

     3. Neither Becker Nor Lenox Believed There Was Any Appearance of a Conflict

        Becker indicated that "[a]ppearance is ... a term of art" and a defined term under
the regulations. Becker Testimony Tr. at 50. He stated that the analysis is "whether a
reasonable person in possession of the facts would doubt one's impartiality." Id. In
Becker's view, the appearance analysis was "essentially the same" as the conflict
analysis, but "with a somewhat lower threshold." Id. He added, "To me, the analysis is
so clear that ... I don't think this gives rise to an appearance in any legal sense." Id.
Becker testified that he also considered a "prudential sense," which, based on his
description, was similar to an appearance analysis. Id. When discussing this prudential
sense, he noted that people refer to "the New York Times test" and described it as follows,
"[Y]ou do something that, on balance, ... because something becomes a matter of public
attention, critical public attention whether informed or not, whether that is outweighed by
the good." Id. at 50-51. Becker testified that he was comfortable that he behaved
appropriately, stating: "What I think people are not aware of ... is the extent to which
my involvement was useful to the Commission at arriving at an outcome that serves
investors and that vindicates the rule oflaw.,,90 Id. at 51.

        Lenox testified that he "always considered whether there was an appearance
issue" when providing ethics advice, and that it was "part of every decision that [he]
made," including his February and May 2009 advice to Becker, although his opinion on
this issue as it related to his consideration ofBecker's mother's estate's account was not
reflected in any document or communication. Lenox Testimony Tr. at 36-37, 75. As
Ethics Counsel, Lenox made efforts to inform SEC employees of the importance of
considering appearances in ethics questions, including a February 2010 Ethics
NewsGram to SEC employees entitled "Appearances Matter." Ex. 187. Lenox testified
that he edited this document which went out under his direction, and that it reflected his
views. Lenox TestimonyTr. at 109. The NewsGram stated that a thorough analysis of
an ethics question required at least two steps, including "What possible appearance of
impropriety might be raised by engaging in the proposed conduct?" Ex. 187. The
memorandum then described the second step as follows:

                  In other words: How would it look? What are the optics of
                  the situation; what is the context of the facts and
                  circumstances? Would it pass what has often been referred
                  to as the New York Times or Washington Post test? Ifwhat
                  you propose doing becomes the subject of an article in the
                  press, would you not care or would it look like you were
                  doing something wrong? Even if you wouldn't care, what

90Lenox testified that he considered similar concerns in his appearance analysis, noting, "[O]n balance, you
would say the reasonable person wants the smartest people, and not necessarily David [Becker], as an
individual, but it is a fact that he was a reputed securities lawyer who was making a decision to come back
and serve the public and protect investors, and he was here to do this sort of analysis.... But that is part of
the decision of whether the appearance of impropriety outweighs the public good." Lenox Testimony Tr. at
77-78.

                                                     109 

                 effect would the story have on the SEC and your fellow
                 employees?

Id. Lenox testified that he considered this New York Times/Washington Post test when
providing his advice to Becker and stands by his conclusion that Becker's involvement in
the SEC determinations in the Madoff Liquidation passed this appearance test. Lenox
Testimony Tr. at 109-11. He then stated: "I always considered these tests. And I
handled what I considered to be the most difficult questions. And somebody had to make
the decisions. I was entrusted with that responsibility. I did it. I don't see that I was
wrong.,,91 Id. at 110.

              E. The Ethics Office, and Becker, Considered His Recusal from Other
                 Matters Differently Than in the Madoff Liquidation

        The 010 investigation found that in certain other similar matters, the Ethics
Office considered Becker's participation differently than it did in the MadoffLiquidation.
Most notably, for example, in March 2009, shortly after he returned to the Commission,
Lenox advised Becker that, based upon additional information now available to the
Ethics Office, he should recuse himself from the Commission's consideration of an
insider trading matter involving Public Company A. Ex. 188. The basis for that
recommendation was that Becker held about $90,000 in securities of issuers that were
harmed by the trading at issue in the case, and the Ethics Office concluded: "Even
though the staffhas not put the issue of a Fair Fund on the table, the Commission decides
whether to pursue that option, and there is a theoretical possibility that he could benefit
from the resolution ofthe matter.... In theory, David [Becker] could benefit from the
Commission's resolution of the matter, which is why I recommend that he recuse." Id.
In that case, the basis for recusal was a "theoretical possibility" of some benefit to
Becker, which could be considered more speculative than the situation presented by
Becker's participation in the Madoff Liquidation. 92

       In a case involving another large bankruptcy proceeding, in November 2009, the
Ethics Office, including Lenox, considered potential recusal of Becker and then-Deputy
General Counsel Cahn from the Lehman Brothers bankruptcy, which was also proceeding
under SIPA. Ex. 189. In that case, OGC expressly told Ethics that "[t]he position [the
SEC] would take could affect how much money the creditors generally recover. More
narrowly, several creditors have filed objections to the position that we would
recommend supporting." Id. Before responding to OOC, the Ethics Office staff
discussed whether they needed "to learn the identity of the creditors, the customers (how

91Although Lenox testified that he continued to maintain that there was no appearance issue here, he did
state that ifhe had known that there would be so much criticism of his decision, he would have factored
that into his analysis. Lenox Testimony Tr. at 111-12.
92The creation of a Fair Fund would be the decision of the Commission or the hearing officer, who is
designated by the Commission. Rules of Practice and Rules on Fair Fund and Disgorgement Plans, Rule
III and 1100, at http://www.sec.gov/aboutlruiesprac2006.pdf.


                                                   110 

broad do we go), and counsel for all?" Id. Lenox stated, "We need to learn the names of
creditors who are parties because [OGC's] email says we will be affecting their interests.
If customer parties are not affected by the brief! wouldn't go so broadly." Id. Assistant
Ethics Counsel #4 responded, "But customers do seem to be affected - they are the other
side of the argument: money goes one way or the other. Am I missing something, or is
your note just asking whether the brief affects their interests, and if so, we need to know
about the ones we know?" Id. Lenox responded: "I was just trying to clarify what effect
their [sic] will be on customers. From what you are saying, we need the list of all parties
and counsel." Id. Yet, with respect to Madoff, Lenox concluded that Becker simply
would not be affected by the SEC's position in the MadoffLiquidation without
considering the need for such a detailed analysis. Cahn and Becker ultimatel~ were
recused from the Lehman bankruptcy. Ex. 190; Becker Testimony Tr. at 34. 3

        Becker himself also took a more conservative stance on recusal in certain matters
and even in one matter where the Ethics Office advised that he could participate. In July
2010, Becker discussed recusing himself from a Public Company B enforcement matter
with the Ethics Office. The Ethics Office informed Becker that he previously was
recused from this matter because of his holdings in both Public Company B and Public
Company C, a company that was discussed in the memorandum to the Commission on
the Public Company B matter. Becker responded, "I recused because of a brief (under 30
minutes) involvement with the case. Ultra conservative, but wise." Ex. 191. Similarly,
in August 2010, the Ethics Office informed Becker that he no longer needed to be
recused from a certain Public Company D matter, unless he had additional information
that caused him to stay out. Ex. 192. The Ethics Office explained that recusal in his first
year as General Counsel made sense because of the involvement of his then-former firm,
but that if the law firm was the only covered relationship involved, he would now be free
to participate as the year was over. Id. Becker responded, "I should stay out of this. I
remember that I talked about it with the Cleary partner handling a piece of it. Whether
that technically is ground for recusal, I want to stay clear of the case." Id. Finally, in
March 2009, Becker stated that he did not "want to touch" a matter involving Public
Company E. Ex. 193. The Ethics Office had noted that the amount of time he billed to
Public Company E while in private practice was very limited (7.1 hours) and the
consolidated entity issue involved is "sort of a big deal," and, accordingly, explained that
the Chairman may be able to authorize his participation. Id.

              F. 	 Becker's Approach to SIPA Coverage for Stanford Investors
                   Appeared to Differ from His Approach in the Madoff Liquidation

       On February 17,2009, the SEC brought a civil enforcement proceeding against R.
Allen Stanford and three of his companies for operating a multi-billion dollar Ponzi

93Although OGC provided a list of key players from the phase of the litigation in which the SEC would be
involved, it also informed the Ethics Office that "all the parties (creditors and customers) as well as their
counsel" "[c]ould be millions offolks." Ex. 189. aGe also stated, "[T]here must be thousands of
customers and maybe millions of customers. all of whom could be harmed or hurt to some degree
depending on how the issue is resolved." /d.

                                                    111 

scheme. SEC Press Release No. 2009-26, SEC Charges R. Allen Stanford, Stanford
International Bankfor Multi-Billion Dollar Investment Scheme (Feb. 17,2009),
http://sec.gov/news/press/2009/2009-26.htm. About six months later, SIPC President
Harbeck sent a letter to the receiver appointed for the Stanford matter indicating that,
based on the facts as set forth by the receiver, there was no basis for SIPC to initiate a
proceeding under SIPA with respect to Stanford investors. Aug: 14, 2009 Letter from
Harbeck to Janvey, http://www.stanfordfinancialreceivership.comldocuments
ISIPC_Letter.pdf.

       The Commission began considering the legal question of SIPA coverage for
Stanford investors while Becker was still at the Commission. Becker testified that he
became involved initially in the SEC's considerations about SIPC coverage for Stanford
investors, and although he was not at the agency when the Commission ultimately
considered and decided the issue, he had an initial opinion as to the matter. Becker
Testimony Tr. at 91. Becker testified that his "view was that SIPA, the statute, did not
cover the Stanford situation.,,94 Id. This view is consistent with contemporaneous
documents indicating that Becker did not believe that SIPA provided coverage to
Stanford investors. 95

         Becker also testified that, with respect to SIPA coverage for Stanford investors,
"[his] view was also that it didn't make sense that it would not cover something like
Stanford, but cover Madoff. But the law is the law." Id. at 91-92. By contrast, when
considering the net equity issue in the Madoff Liquidation, Becker considered a variety of
approaches in order to, as Becker testified, "take the position wh[ich] got the most money
[to] injured investors consistent with the law." /d. at 53-54.

        After Becker left the Commission, on June 15, 2011, the Commission concluded
that certain Stanford investors were legally entitled to SIPA protection. SEC Press
Release No. 2011-129, SEC Concludes That Certain Stanford Ponzi Scheme Investors
Are Entitled to Protections ofSIPA (June 15,2011), http://www.sec.gov/news/press/
20111 201 1-129.htm. In addition, the SEC provided to SIPC an analysis explaining why
SIPA coverage would apply to certain Stanford investors and authorized its staff to file a
federal court action under SIPA to compel SIPC to initiate a liquidation proceeding, in
the event SIPC does not do so. /d.

94See also Sr. TM Official Testimony Tr. at III ("My understanding of David Becker's position was that
Stanford should not be liquidated under SIPA. It didn't qualify as a -- there weren't customers under SIPA
that needed to be protected.").
9SSee. e.g Ex. 194 (discussing Stanford coverage in response to a question from the Chainnan as to SIPA
coverage and stating, among other things, "That's why the [court's decision in the Old Naples case] doesn't
compel the conclusion that SIP A provides coverage here. But the more fundamental reason has to do with
the nature of the injury that Congress was protecting against here. From the standpoint of the investors, it
doesn't make a difference; they are equally screwed. But the statute is what it is."); Ex. 195 (providing
comments to a draft action memorandum proposing, "Unless the Commission directs otherwise, the staff
does not intend to take steps to bring about a liquidation of broker-dealer Stanford Group Company under
the Securities Investor Protection Act of 1970.").

                                                    112 

            G. The Ethics Office Advised Recusal from Madoff-Related Matters for
               Persons Other than Becker

       The OIG investigation found that the Ethics Office considered recusals in
Madoff-related matters differently in situations that did not involve Becker. Shortly after
Madoff confessed, Lenox, as Ethics Counsel, sent a memorandum to all Commission
employees regarding mandatory recusal from SEC v. Madoff in a broad variety of
circumstances. Ex. 196. The memorandum stated as follows:

               [A]ny member of the SEC staff who has had more than
               insubstantial personal contacts with Bernard L. Madoff or
               Mr. Madoff's family shall be recused from any ongoing
               investigation ofmatters related to SEC v. Madoff....
               Given the extreme importance and sensitivity of the Madoff
               matter, and the potential perception that staff contact and
               relationships with the Madoff family and firm may have
               influenced staff actions with regard to the firm, the
               Chairman has determined that, in these exceptionally
               unusual circumstances, a reasonable person would be likely
               to question the impartiality of any staff member who has
               had more than insubstantial personal contacts with Mr.
               Madoff or his family.

Id. The memorandum further set forth certain contacts that required recusal, including
certain aspects of a personal friendship with Madoff or any other members of his family
and a personal friendship with Eric Swanson, who was a former Assistant Director in the
SEC's Office of Compliance Inspections and Examinations. Id. With respect to
Swanson, contacts requiring recusal included an invitation to his wedding, gifts to and
from him or his wife, visits to his home, or personal contacts on a more than quarterly
basis. Id. With respect to Madoff, contacts requiring recusal included being invited to or
visiting his homes or being an active member of the same social or charitable
organizations. Id. Lenox testified that looking back, this memorandum "went beyond
what [his] judgments would have been, but [he] was acting at the direction of the
chairman." Lenox Testimony Tr. at 92. Lenox further stated that he would not have
made recusal "[b]e so mandatory" and would have allowed for consideration of an
individual's circumstances. Id. at 92-93.
    1. Other OGC Attorneys Were Recused From the Madoff Liquidation

        The OIG investigation further found that with respect to employees within OGC
besides Becker, the Ethics Office took a more conservative approach for recusal from
Madoff-related matters, including the Madoff Liquidation. The Ethics Office advised
OGC Sr. Counsel #1, who at the relevant time was a Staff Attorney in OGC, that she had
a conflict from working on any aspect of the MadoffLiquidation. OGC Sr. Counsel #1

                                            113 

testified that she spoke to Assistant Ethics Counsel #3 on multiple occasions about her
potential participation in the Madoff Liquidation, stating:

                 [T]hen I spoke to him after this about working on other
                 parts of the Madoff case during that one year period if that
                 would be possible. And he said no, that's not something
                 you should do. And my final conversation with him before
                 I was suppose [sic] to possibly begin working on the net
                 equity appeal brief I said, you know what, I realize that I
                 spent a very small amount of time in private practice
                 working on a question related to the Madoff bankruptcy. I
                 really remember very little about it other than it related to
                 Madoff. And he just said we consider that to be the same
                 matter and you cannot work on this at all. And that was our
                 last conversation about it.

                 Q. When you say this at all, you mean any aspect of the
                 Madoff liquidation?

                  A. Yes.

OGC Sr. Counsel # 1 Testimony Tr. at 11_12.96 Based on her conversations with
Assistant Ethics Counsel #3, OGC Sr. Counsel #1 understood the Ethics Office position
to be that if you worked on a very small aspect of Madoff related matters in your law
firm, even if it was a small aspect, that would be considered part of the larger Madoff
matter, and you would be conflicted from working on any Madoff Liquidation matter for
the SEC. DGC Sr. Counsel #1 Testimony Tr. at 12.

        OGC Sr. Special Counsel, who was during the relevant time period in DGC,
understood that she should recuse herself from all aspects of the Madoff Liquidation.
OGC Sr. Special Counsel had a personal friendship with Eric Swanson, and upon receipt
of the December 24,2008 memorandum discussed above, determined that she was
recused from the Madoffmatter. OGC Sr. Special Counsel Testimony Tr. at 12-14.
Thereafter, she was copied on a draft action memorandum regarding the claims bar date
in the Madoff Liquidation. Ex. 197. After receiving that memorandum, OGC Sr. Special
Counsel sent an e-mail to Lenox and Assistant Ethics Counsel #3 stating that she was
"recused on Madoff[because] of [her] contacts with Eric Swanson" and asking whether
she was "also recused from this, SIPC, aspect?" Id. She also indicated that she had
provided some general thoughts on SIPA to others in DGC but "hadn't focused on the


96 Prior to the two conversations described in this excerpt, OGC Sr. Counsel #1 received ethics advice that
she should not work on the customer definition aspect of the Madoff Liquidation because she noticed
involvement of her former law firm and clients on that issue. She had left her firm less than one year
previously and, therefore, was subject to a one-year ban from working on matters involving her former
firm. OGC Sr. Counsel #1 TestimonyTr. at 9-11.

                                                    114 

fact it was with regard to Madoffinvestors." Id. Lenox advised her that she "should
recuse from participation in anything to do with this particular memo" but not to be
concerned about her prior general advice." Id. OGC Sr. Special Counsel testified that
she now understands this advice to mean that she should not work on any aspect of the
MadoffLiquidation. OGC Sr. Special Counsel Testimony Tr. at 22-23.

        In the case ofOGC Sr. Counsel #1, the OIG investigation found that the Ethics
Office took the broadest possible view of the MadoffLiquidation, i.e., that the entire
liquidation constituted one matter for ethics purposes. In the case of OGC Sr. Special
Counsel, the Ethics Office took an even broader view, advising her that she should be
recused from issues raised in the Madoff Liquidation even though the basis for her
recusal (her friendship with Swanson) had nothing to do with the Madoff Liquidation.
By contrast, with respect to Becker, the Ethics Office defined the "matter" very narrowly
and determined that it related only to the consideration of what constituted a "securities
position" under SIPA.
   2. Lenox's Consideration of Appearance Issues In Other Matters

        In addition to drafting the "Appearances Matter" NewsGram discussed above,
Lenox referred to appearance issues when providing ethics advice as Ethics Counsel. For
example, when providing advice to an incoming senior official regarding deferred
compensation from his prior employer, he stated: "[A]s a prudential matter and to avoid
any appearance concerns, even if not technically a criminal violation of the financial
conflict of interest statute, 18 USC 208, we would continue to keep you recused for so
long as you were receiving any payments from" the former employer. Ex. 198.
Similarly, in advising the incoming official whether he could participate in an insider
trading matter involving his former employer, he stated:

               The issue here is one of' appearance'. [The former
               employer's affiliate] had a role in arranging financing for
               the acquisition at issue, [the former employer's affiliate]
               and you ... were involved in providing documents and
               information during the investigation. Even if the staff's
               review fails to tum up any evidence of wrongdoing on the
               part of anyone at [the former employer] or its affiliate, 'a
               reasonable person with knowledge of the relevant facts'
               might conclude that the SEC did not pursue anyone at [the
               former employer or its affiliate] because you are now [a
               SEC senior official], a position that carries with it a great
               deal of discretion. Given the scrutiny that the Commission,
               the Division, and you are under, I advise you to recuse.

Ex. 199. Lenox testified that he believed that recusal was appropriate in this situation,
but that the Chairman ultimately authorized participation pursuant to the applicable OGE
regulations because the need for him to participate in the matter outweighed the

                                            115 

appearance concern. Lenox Testimony Tr. at 94-95. Accordingly, Lenox considered
appearance issues with respect to other senior officers and even advised them of such
issues in writing. Notably, his May 2009 written ethics advice to Becker did not mention
appearance considerations.

                 REQUEST FQR ETHICS GUIDANCE FROM OGE

        On August 31, 2011, after completing an extensive review of e-mails and relevant
documents and after conducting approximately 40 interviews of current and former SEC
employees with knowledge of the facts and circumstances regarding the allegations
relating to Becker, the OIG provided to the Acting Director of OGE a summary of the
salient facts uncovered in the investigation, as reflected in this report. The OIG requested
that OGE review those facts and provide the OIG with its opinion regarding Becker's
participation in matters as the SEC's General Counsel and Senior Policy Director that
could have given rise to a conflict of interest. Specifically, the OIG asked that OGE
provide guidance on whether, based upon the relevant facts, Becker violated any
provisions of the Standards of Conduct, and whether his conduct should be referred to
criminal authorities based upon possible violations of a federal conflict of interest statute.

        The summary provided to OGE detailed Becker's participation in determining
what position to recommend to the Commission as the appropriate method of calculating
net equity under SIPA in the Madoff Liquidation, including: meeting with
representatives of customer claimants who advocated the Last Account Statement
Method and with SIPC and the Trustee who advocated the Money InlMoney Out
Method; supervising and providing feedback to his staff as they drafted various
memoranda and communications regarding which approach to recommend to the
Commission; signing the final advice memorandum to the Commission on this issue; and
appearing before the Commission to urge adoption of the Constant Dollar Approach.
Additionally, the summary provided to OGE detailed Becker's participation in providing
advice on a potential amendment to SIPA that would have severely curtailed the
Trustee's ability to bring clawback suits, most notably that Becker provided comments on
draft legislation to this effect and solicited comment from his staff and colleagues, but
that he did not believe that his input rose to the level of advice because the legislative
proposals were nothing more than "political noise" or "political grandstanding."

       The OIG also provided information to OGE regarding Becker's knowledge of his
mother's estate's Madoff account, the reasons why he believed a clawback suit against
him was unlikely, the ethics advice he sought and received from the former SEC Ethics
Counsel, and the clawback suit that was ultimately brought against him by the Trustee in
the Madoff Liquidation. The summary provided to OGE included evidence obtained
from SIPC officials and numerous SEC witnesses regarding the interrelationship between
the method used to determine a claimant's net equity and clawback suits, in contrast to
Becker's belief that there was no connection between net equity determinations and
clawbacks. Finally, the summary set forth evidence obtained from SIPC, the Trustee and
SEC staff regarding the likelihood that someone in a situation similar to Becker's would

                                             116 

be subject to a clawback suit, as well as evidence reflecting factors that the Trustee does
or does not consider when bringing such a suit.

         After reviewing the summary of facts provided by the OIG, the Acting Director of
OGE provided the following guidance to the OIG: "It is [the OGE's Acting Director's]
opinion, as well as that of senior attorneys on [bis] staff, that certain matters [the OIG]
discussed in the materials [the OIG] provided to OGE should be referred to the United
States Department ofJustice for its consideration. This regards, more specifically:
(a) Mr. Becker's work as General Counsel on the policy determination ofthe calculation
of net equity in connection with clawback actions stemming from the Madoff matter, and
(b) Mr. Becker's SEC work on the proposed legislation affecting clawbacks.,,97 Ex. 200.
He also stated that the OGE attorneys' view was that "the materials provided to OGE
contain information relevant to two elements of 18 USC 208, to the extent they evidence
Mr. Becker's apparent personal and substantial participation in both of the particular
matters above, and to the extent there is implicated a personal financial interest that could
be impacted by Mr. Becker's participation in those matters. Nonetheless, the actual
knowledge element of 18 USC 208, which would be required to establish a violation of
that statute, remains a question of fact that can only be resolved in a court oflaw.'.98 Id.

       Based upon this guidance, the OIG is referring the results of its investigation to
the United States Department of Justice, Criminal Division, Public Integrity Section.

                       CONCLUSION AND RECOMMENDATIONS

        In addition, based upon the ~iG's findings in this report, the OIG is
recommending that, in light of David Becker's role in signing the October 28,2009
Advice Memorandum and participating in the November 2009 Executive Session at
which the Commission considered OGC's recommendation that the Commission take the
position that net equity for purposes of paying Madoff customer claims should be
calculated in constant dollars by adjusting for the effects ofinflation, the Commission
reconsider its position on this issue by conducting a re-vote in a process free from any
possible bias or taint. Once the re-vote has been conducted, the Commission should
advise the United States Bankruptcy Court for the Southern District of New York of its
results and the position that the Commission is adopting.

        The OIG also recommends with respect to the Ethics Office that:

        (1) 	    The SEC Ethics Counsel should report directly to the Chairman, rather
                 than to the General Counsel.

91The OGE Acting Director also noted that "OGE is precluded by law from making any determination that
the criminal conflicts of interest laws mayor may not have been violated." Ex. 200.
98OGE did not consider whether Becker's actions created the appearance of impartiality, as set forth in the
Standards of Conduct because such an analysis would only be applicable to a sitting federal employee and
Becker has left the Commission. Ex. 200.

                                                   117 

(2) 	   The SEC Ethics Office should take all necessary steps, including the
        implementation of appropriate policies and procedures, to ensure that all
        advice provided by the Ethics Office is well-reasoned, complete,
        objective, and consistent, and that Ethics officials ensure that they have all
        the necessary information in order to properly determine if an employee's
        proposed actions may violate rules or statutes or create an appearance of
        impropriety.

(3) 	   The SEC Ethics Office should take all necessary actions to ensure that all
        ethics a~vice provided in significant matters, such as those involving
        financial conflict of interest, are documented in an appropriate and
        consistent manner.




                                     118 

       In light of the foregoing, we are referring this matter to the Chairman of the SEC
and the Ethics Counsel for implementation of our recommendations. In addition, we are
providing copies of this report to Commissioners Elise Walter, Luis Aguilar, and Troy
Paredes for informational purposes.




Submitted:
               Office of Inspector General
                                                     Date:       q  tLk J2..P11
Concur:               /sl
               Office of Inspector General
                                                     Date:       9/t ~ /
                                                                   I     t
                                                                             ;}...O{/




Approved:
              ~                                      Date:
                                                                  1· Ib · I ,




                                             119 

